APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Federal Circuit, Cmty. Health
Choice, Inc. v. United States, No. 19-1633
(Aug. 14, 2020) ............................................. App-1
Appendix B
Order, United States Court of Appeals
for the Federal Circuit, Cmty. Health
Choice, Inc. v. United States, No. 19-1633
(Nov. 10, 2020) ........................................... App-35
Appendix C
Order, United States Court of Appeals for
the Federal Circuit, Maine Cmty. Health
Options v. United States, No. 19-2102
(Nov. 10, 2020) ........................................... App-37
Appendix D
Opinion and Order, United States
Court of Federal Claims, Cmty. Health
Choice, Inc. v. United States, No. 18-5C
(Feb. 15, 2019) ........................................... App-39
Appendix E
Opinion and Order, United States Court
of Federal Claims, Maine Cmty. Health
Options v. United States, No. 17-2057C
(June 10, 2019) .......................................... App-95
Appendix F
Relevant Statutory Provisions ................ App-149
26 U.S.C. § 36B ................................. App-149
42 U.S.C. § 18071 .............................. App-168

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________
No. 19-1633
________________
COMMUNITY HEALTH CHOICE, INC.,
v.

Plaintiff-Appellee,

UNITED STATES,
Defendant-Appellant.
________________
No. 19-2102
________________
MAINE COMMUNITY HEALTH OPTIONS,
v.

Plaintiff-Appellee,

UNITED STATES,
Defendant-Appellant.
________________
Decided: Aug. 14, 2020
________________
Before DYK, BRYSON, and TARANTO, Circuit Judges.
________________
OPINION
________________

App-2
DYK, Circuit Judge.
Today in Sanford Health Plan v. United States
(“Sanford”), No. 19-1290, we hold that the United
States failed to comply with section 1402 of the
Patient Protection and Affordable Care Act (“ACA”),
Pub. L. No. 111-148, 124 Stat. 119, 220-24 (2010)
(codified at 42 U.S.C. § 18071)—which requires the
government to reimburse insurers for “cost-sharing
reductions.” We hold that section 1402 “imposes an
unambiguous obligation on the government to pay
money and that the obligation is enforceable through
a damages action in the Court of Federal Claims
[(‘Claims Court’)] under the Tucker Act.” Sanford,
No. 19-1290, slip op. at 3.
In these cases, following our decision in Sanford,
we affirm the Claims Court’s decisions as to liability.
As in Sanford, we conclude that the government is not
entitled to a reduction in damages with respect to costsharing reductions not paid in 2017. As to 2018, we
address an issue not presented in Sanford: the
appropriate measure of damages. We hold that the
Claims Court must reduce the insurers’ damages by
the amount of additional premium tax credit
payments that each insurer received as a result of the
government’s termination of cost-sharing reduction
payments. We reverse and remand for further
proceedings with respect to damages.
BACKGROUND

I
In 2010, Congress enacted the ACA, which
includes “a series of interlocking reforms designed to
expand coverage in the individual health insurance
market.” King v. Burwell, 135 S. Ct. 2480, 2485 (2015).

App-3
“[T]he Act requires the creation of an ‘[e]xchange’ in
each State—basically, a marketplace that allows
people to compare and purchase insurance plans.” Id.
Insurance plans sold on the ACA exchanges must
provide a minimum level of “essential health benefits”
and are referred to as “qualified health plans.” See 42
U.S.C. § 18031. The ACA defines four levels of
coverage: bronze, silver, gold, and platinum, which are
based on the percentage of essential health benefits
that the insurer pays for under each type of plan.
Sanford, No. 19-1290, slip op. at 4. For example, under
a silver-level plan, the health insurance provider pays
for 70 percent of the actuarial value of the benefits,
and either the insured or the government pays the
remaining 30 percent. Id.
Under most health insurance plans, the insured
individual must bear two types of costs. First, the
insured must pay a monthly premium to maintain
coverage. Second, the insured must pay an additional
fee—called “cost-sharing”—when medical expenses
are incurred. Deductibles, coinsurance, and copayments are examples of such fees. See 42 U.S.C.
§ 18022(c)(3)(A)(i). The ACA includes two sections,
1401 and 1402, that reduce the premiums and costsharing for low-income insureds by government
payments to the insurers. These sections “work
together: the [premium reductions] help people obtain
insurance, and the cost-sharing reductions help people
get treatment once they have insurance.” See Cmty.
Health Choice, Inc. v. United States, 141 Fed. Cl. 744,
750 (2019) (quoting California v. Trump, 267 F. Supp.
3d 1119, 1123 (N.D. Cal. 2017)). These sections apply
to taxpayers with a household income of between 100
percent and 400 percent of the federal poverty line. See

App-4
42 U.S.C. § 18071(b)(2); 26 U.S.C. § 36B(c)(1)(A);
Sanford, No. 19-1290, slip op. at 5, 7. The statute
refers to them as “applicable taxpayer[s]” in the case
of section 1401, 26 U.S.C. § 36B(c)(1)(A), and “eligible
insured[s]” in the case of section 1402, 42 U.S.C.
§ 18071(b).
Premium reductions. Under section 1401, each
“applicable taxpayer” enrolled in an ACA exchange
plan at any level of coverage is entitled to a “premium
assistance credit amount” (“premium tax credit”) to
offset part of the monthly premiums of the enrollee
entitled to the premium tax credit. 26 U.S.C. § 36B.
The ACA specifies a formula for determining the
amount of premium tax credits, which depends on the
applicable taxpayer’s household income, but not on the
monthly premium or the coverage level for the
applicable taxpayer’s plan. The premium tax credit
cannot exceed the actual monthly premium for the
individual’s plan. See id. § 36B(b)(2). The government
pays these premium tax credit amounts directly to
insurers. See Sanford, No. 19-1290, slip op. at 8; 31
U.S.C. § 1324. Thus, the amount of the premiums
charged by the insurers to the insured is effectively
reduced.
Premium review. The ACA includes various
measures for regulating insurance premiums. Section
1003 of the ACA establishes a “premium review
process” that requires insurers to report their
premium rate increases to the Secretary of Health and
Human Services (“the Secretary”) and state
regulators. See 42 U.S.C. § 300gg-94 (codifying ACA
section 1003). State authorities can review the
proposed rates. However, “[t]he rate review process

App-5
does not establish federal authority to deny
implementation of a proposed rate increase; it is a
sunshine provision designed to publicly expose rate
increases determined to be unreasonable.” See
Bernadette Fernandez, Vanessa C. Forsberg & Ryan
J. Rosso, Cong. Rsch. Serv., R45146, Federal
Requirements on Private Health Insurance Plans 9
(2018). If a state regulator finds that an insurer’s
premium rate increases are “excessive or unjustified,”
it is required to recommend that the Secretary
“exclude[] [the insurer] from participation in the
[state] [e]xchange.” 42 U.S.C. § 300gg-94(b)(1)(B).
Following the enactment of the ACA, states have
taken a varied approach to premium rate review
programs. Some, but not all, states have reserved the
express authority to approve or deny premium rate
increases. See Mark Newsom & Bernadette
Fernandez, Cong. Rsch. Serv., R41588, Private Health
Insurance Premiums and Rate Reviews 15 (2011)
(“There is substantive variation in state regulation of
health insurance rates.”). In states where there is no
express approval requirement, insurers are still
required to notify state regulators of premium
increases above a certain threshold. See 42 U.S.C.
§ 300gg-94(a)(2);
Fernandez
et
al.,
Federal
Requirements on Private Health Insurance Plans at 9.
The damages issue here does not turn on whether the
states have required express approval of premium
increases.
Cost-sharing reductions. Section 1402 of the ACA
requires insurers to reduce the insured’s “costsharing” payments and requires the Secretary to
“make periodic and timely payments to the [insurer]

App-6
equal to the value of the [cost-sharing] reductions.” 42
U.S.C. § 18071(c)(3)(A). The section applies to “eligible
insured[s]” enrolled in silver-level plans offered on the
exchanges. Id. § 18071(a), (b). Eligibility under section
1402 is tied to eligibility under section 1401, and the
amount of cost-sharing reductions is directly tied to
the household income of the eligible insured. See Id.
§ 18071(c), (f)(2); Sanford, No. 19-1290, slip op. at 7
n.2.
II
On October 12, 2017, the Secretary announced
that the government would cease payment of costsharing reduction reimbursements. Sanford, No. 191290, slip op. at 11-12. The suspension of cost-sharing
reduction reimbursements did not relieve the insurers
of their statutory obligation to “offer plans with costsharing reductions to customers,” meaning that “the
federal government’s failure to meet its [cost-sharing
reduction] payment obligations meant the insurance
companies would be losing that money.” California,
267 F. Supp. 3d at 1134. The solution for the insurers
was to increase premiums. These states “began
working with the insurance companies to develop a
plan for how to respond” “in a fashion that would avoid
harm to consumers.” See id. The resulting plan
involved the tax credit provision of section 1401 of the
ACA.
Under section 1401, the government is required to
subsidize an amount equal to the lesser of (1) the
monthly premium for the applicable taxpayer’s plan
and (2) the difference between the monthly premium
for the “applicable second lowest cost silver plan [(the
‘benchmark plan’)] with respect to the taxpayer” and a

App-7
statutorily-defined percentage of the eligible
taxpayer’s monthly household income. 26 U.S.C.
§ 36B(b)(2) (codifying ACA section 1401(b)(2)). This
percentage generally varies from 2% to 9.5% based on
the eligible taxpayer’s income relative to the federal
poverty line. Id. § 36B(b)(3)(A). These payments are
guaranteed since, unlike the cost-sharing reduction
payments situation, there is a permanent
appropriation for premium tax credits. See Sanford,
No. 19-1290, slip op. at 8.
In effect, if the insurers increased the monthly
premium for their benchmark silver plans, each
insurer would receive an additional dollar-for-dollar
increase in the amount of the premium tax credit for
each applicable taxpayer under its silver plans, all
while keeping the out-of-pocket premiums paid by
each applicable taxpayer the same. See California, 267
F. Supp. 3d at 1134. But premium increases for silverlevel plans would have an effect on other plans as well:
the insurers would also receive additional tax credits
for applicable taxpayers that were enrolled in bronze,
gold, and platinum plans, whether or not the
premiums for those plans were increased. Id. at 1135.
Even if the insurers kept premiums the same for those
other plans, they would receive additional tax credits.
See id.
Because of the government’s refusal to make costsharing reduction payments, most states agreed to
allow insurers to raise premiums for silver-level
health plans, but not for other plans. Cmty., 141 Fed.
Cl. at 755; Me. Cmty. Health Options v. United States,
143 Fed. Cl. 381, 390 (2019). “As a result, in these
states, for everyone between 100% and 400% of the

App-8
federal poverty level who wishe[d] to purchase
insurance on the exchanges, the available tax credits
r[o]se substantially. Not just for people who
purchase[d] the silver plans, but for people who
purchase[d] other plans too.” Cmty., 141 Fed Cl. at 755
(quoting California, 267 F. Supp. 3d at 1135). And the
insurers received “more money from the premium tax
credit program, . . . mitigat[ing] the loss of the costsharing reduction payments.” Id. This practice was
referred to as “silver loading.” Id.
This was, however, not a perfect solution. The
premium tax credits could only offset premium
increases for applicable taxpayers, i.e., insureds with
a household income of between 100 percent and 400
percent of the federal poverty line. Thus, people
having a higher household income would be paying
significantly more in premiums for their silver-level
plans since they did not receive premium tax credits.
See California, 267 F. Supp. 3d at 1137. States took a
varied approach to this issue. Although this does not
appear to be the case in Texas or Maine, some states
negotiated with insurers to offer off-exchange, silverequivalent plans at the pre-silver-load premium rates.
Id. Such off-exchange policies were not subject to the
ACA’s premium tax credits or cost-sharing reduction
requirements. In other states, non-eligible individuals
could still switch to bronze, gold, or platinum plans
(which did not have premium rate increases). Id.
III
Community Health Choice, Inc. (“Community”) and
Maine
Community
Health
Options
(“Maine
Community”) are health insurance providers that sell
qualified health plans in Texas and Maine, respectively.

App-9
See Cmty., 141 Fed. Cl. at 756; Me. Cmty., 143 Fed. Cl.
at 391. 1 Both insurers offered cost-sharing reductions, as
required under section 1402, to insured individuals, 2 and
“as with every other insurer offering qualified health
plans on the exchanges, stopped receiving these
payments effective October 12, 2017.” Cmty., 141 Fed.
Cl. at 756.

The two insurers involved here filed separate
actions in the Claims Court, asserting that they were
entitled to recover the unpaid cost-sharing reduction
reimbursements for 2017 and 2018. 3 The insurers
asserted two theories of liability. 4 First, the insurers
Unless otherwise noted, the Claims Court’s decisions in
Community and Maine Community contain identical language.
For convenience, we limit our citations to Community.
1

For example, the record shows that “approximately 58% of
[Community]’s insured population—over 80,000 individuals—
received cost-sharing reductions.” Cmty., 141 Fed. Cl. at 756.
2

Community’s complaint also claimed damages related to
unpaid payments under the ACA’s risk corridors program for
2014, 2015, and 2016. Cmty., 141 Fed. Cl. at 756. Those claims
were addressed by the Supreme Court’s decision in Maine
Community Health Options v. United States, 140 S. Ct. 1308
(2020). Maine Community’s complaint in this case did not assert
a claim under the risk corridors program.
3

Community asserted a third theory of liability: that the
government’s
failure
to
pay
cost-sharing
reduction
reimbursements constituted a breach of so-called “Qualified
Health Plan Issuer” agreements between Community and the
government, which “require[d] [the government], as part of a
monthly reconciliation process, to make payments to insurers
that underestimated their cost-sharing obligations and collect
payments from insurers who overestimated their cost-sharing
obligations.” Cmty., 141 Fed. Cl. at 764-65. The Claims Court
held that the obligation to reconcile payments was different from
the obligation to make cost-sharing reduction payments and that
4

App-10
alleged that “in failing to make the cost-sharing
reduction payments . . . , the government violated the
statutory and regulatory mandate” of the ACA. Id.
Second, the insurers alleged that the government’s
nonpayment constituted a “breach[] [of] an implied-infact contract.” Id.
On the insurers’ motions for summary judgment,
the Claims Court “conclude[d] that the government’s
failure to make cost-sharing reduction payments to
[the insurers] violate[d] 42 U.S.C. § 18071 [(codifying
ACA section 1402)] and constitute[d] a breach of an
implied-in fact contract.” Id. at 770. The Claims Court
concluded that each insurer was entitled to recover as
damages the full amount of unpaid cost-sharing
reduction reimbursements for both 2017 and 2018.
The Claims Court was “unpersuaded by the
[government]’s . . . contention that [the] insurers’
ability to increase premiums for their silver-level
qualified health plans to obtain greater premium tax
credit payments, and thus offset any losses from the
government’s nonpayment of cost-sharing reduction
reimbursements,” precluded or reduced the insurers’
damages. Id. at 760.
The government appealed the Claims Court’s
decisions to this court, challenging the decisions as to
both liability and damages. We have jurisdiction
under 28 U.S.C. § 1295(a)(3).

the insurers “ha[d] not established that the . . . [a]greements
obligated the government to make cost-sharing reduction
payments,” and dismissed Community’s claim for breach of an
express contract. Id. at 765-66. Community does not cross-appeal
the Claims Court’s dismissal, and we need not address it.

App-11
On April 27, 2020, the Supreme Court issued its
decision in Maine Community Health Options v.
United States, 140 S. Ct. 1308 (2020), holding that
section 1342 of the ACA (“[t]he Risk Corridors
statute,” id. at 1329), which states that the
government “shall pay” money to insurers offering
“unprofitable plans” on the ACA exchanges, id. at
1316, created a “money-mandating obligation
requiring the Federal Government to make payments
under [section] 1342’s formula,” id., at 1331, and that
health insurance providers were entitled to “seek to
collect [such] payment through a damages action in
the [Claims Court],” id.
Today in Sanford, following the Supreme Court’s
decision in Maine Community, we hold that the
government violated its obligation to make costsharing reduction payments under section 1402; “that
the cost-sharing-reduction reimbursement provision
imposes an unambiguous obligation on the
government to pay money[;] and that the obligation is
enforceable through a damages action in the [Claims
Court] under the Tucker Act.” Sanford, No. 19-1290,
slip op. at 3.
DISCUSSION

I
As noted, the government argues that section
1402 did not create a statutory obligation on the part
of the government to pay cost-sharing reduction
reimbursements and that its failure to make
payments did not violate the statute. Our decision in
Sanford resolves these issues in favor of the insurers
here. Sanford, No. 19-1290, slip op. at 18. Because we
affirm the Claims Court’s decisions as to statutory

App-12
liability, and the damages are the same under either
theory of liability (as discussed below), we need not
address the insurers’ implied-in-fact contract theory.
II
The government nonetheless argues that, even if
section 1402 created a statutory obligation, the
insurers are not entitled to recover the full amount of
the unpaid 2017 and 2018 cost-sharing reduction
payments as damages. We find no merit to the
government’s argument that the insurers’ 2017
damages should be reduced. Like the insurers in
Sanford, Community and Maine Community did not
raise their silver-level plan premiums in 2017 or
receive increased tax credits for that year from the
elimination of the cost-sharing reduction payments.
Here, as in Sanford, we see no basis for a 2017
damages offset and affirm the Claims Court’s award
of 2017 damages. See Sanford, No. 19-1290, slip op. at
9, 12.
III
We turn to the 2018 cost-sharing payments.
Neither the Supreme Court in Maine Community nor
our decision in Sanford resolves this question. The
government asserts that, beginning in 2018, both
insurers raised the premiums for their silver-level
plans “to account for the absence of direct
reimbursement for cost-sharing reductions,” resulting
in the receipt of increased premium tax credits. See
Gov’t Suppl. Damages Br. 12-14. It argues that the
Claims Court erred when it failed to credit the
government with “economic benefits” flowing from the
increased tax credits when awarding damages. Id. at
15.

App-13
The government’s theory is based on an analogy
to contract law—specifically, the rule that “a nonbreaching party is not entitled, through the award of
damages, to achieve a position superior to the one it
would reasonably have occupied had the breach not
occurred.” LaSalle Talman Bank, F.S.B. v. United
States, 317 F.3d 1363, 1371 (Fed. Cir. 2003). The
government argues that silver loading was a direct
result of the insurers’ mitigation efforts, i.e.,
increasing premiums for silver-level plans, and that
the insurers’ recovery must be reduced by the
additional payments the insurers received in the form
of tax credits.
The Claims Court rejected these arguments in
both cases on the same ground, holding that there was
no “statutory provision permitting the government to
use premium tax credit payments to offset its costsharing reduction payment obligation,” and that “[t]he
increased amount of premium tax credit payments
that insurers receive[d]” was not a “substitute[]” for its
“cost-sharing reduction payments.” Cmty., 141 Fed.
Cl. at 760. At oral argument, the parties agreed that
the Claims Court’s decisions rejected the
government’s mitigation theory on the merits. On
appeal, the insurers similarly argue that the
“[g]overment cannot invoke deductions not set forth in
the statute itself.” Appellees’ Suppl. Damages Br. 4-5.
A
In addressing the mitigation issue, it is important
to distinguish between two different types of statutes
providing for the grant of federal funds: those that
impose an “affirmative obligation[]” or “condition[]” in
exchange for federal funding, and those that do not.

App-14
Pennhurst State Sch. & Hosp. v. Halderman, 451 U.S.
1, 17, 24 (1981). The Supreme Court has previously
“characterized . . . [the former category of] Spending
Clause legislation as ‘much in the nature of a contract:
in return for federal funds, the [recipients] agree to
comply with federally imposed conditions.” Barnes v.
Gorman, 536 U.S. 181, 186 (2002) (third alteration in
original) (quoting Pennhurst, 451 U.S. at 17). On the
other hand, the latter category of statutes does not
involve contract-like obligations. See id. at 186;
Pennhurst, 451 U.S. at 17; Sossamon v. Texas, 563
U.S. 277, 290 (2011).
Section 1402 belongs in the first category of
Spending Clause legislation because it imposes
contract-like obligations: in exchange for federal
funds, the insurers must “‘participat[e] in the
healthcare exchanges’ under the statutorily specified
conditions.” Sanford, No. 19-1290, slip op. at 18
(quoting Me. Cmty., 140 S. Ct. at 1320); see also Nat’l
Fed’n of Indep. Bus. v. Sebelius, 567 U.S. 519, 576
(2012) (analyzing the Medicaid provisions of the ACA
as Spending Clause legislation). Specifically, in
exchange for “the [insurer] . . . reduc[ing] the costsharing under [silver plans] in the manner specified in
[section 1402(c)]” and “notify[ing] the Secretary of
such reductions,” “the Secretary shall make periodic
and timely payments to the issuer equal to the value
of the reductions.” 42 U.S.C. §§ 18071(a)(2), (c)(3)(A);
see also Cmty., 141 Fed. Cl. at 768 (“[T]he cost-sharing
reduction program is less of an incentive program and
more of a quid pro quo.”).
Under these contract-like Spending Clause
statutes—where the statute itself does not provide a

App-15
remedial framework—a contract-law “analogy
applies . . . in determining the scope of damages
remedies” in a suit by the government against the
recipient of federal funds or by a third-party
beneficiary standing in the government’s shoes.
Barnes, 536 U.S. at 186-87; see also Gebser v. Lago
Vista Indep. Sch. Dist., 524 U.S. 274, 287 (1998) (“Title
IX’s contractual nature has implications for our
construction of the scope of available remedies.”). In
Barnes, the Court considered the government’s
damages remedies available under Title VI in a suit
charging the federal funds recipient with failure to
comply with its obligations. The Court explained that,
when the statute “contains no express remedies, a
recipient of federal funds is nevertheless subject to
suit for compensatory damages . . . and injunction . . .
forms of relief traditionally available in suits for
breach of contract.” Barnes, 536 U.S. at 187 (citations
omitted). Thus, “[w]hen a federal-funds recipient
violates conditions of Spending Clause legislation, the
wrong done is the failure to provide what the
contractual obligation requires; and that wrong is
‘made good’ when the recipient compensates the
Federal Government or a third-party beneficiary (as
in this case) for the loss caused by that failure.” Id. at
189. On the other hand, forms of relief that are
“generally not available for breach of contract,” such
as punitive damages, are not available in suits under
such Spending Clause legislation. Id. at 187-89. 5
5 This contract-law analogy does not apply where the statute
does not impose contract-like obligations. See, e.g., Heinzelman v.
Sec’y of HHS, 681 F.3d 1374, 1379-80 (Fed. Cir. 2012) (holding
that, with respect to a damages award under the National

App-16
The same, we think, is true when an action for
damages is brought against the government, under
this type of Spending Clause legislation. The available
remedy is defined by analogy to contract law where
the statute does not provide its own remedies for
government breach. 6 We have indeed previously

Childhood Vaccine Injury Act, 42 U.S.C. §§ 300aa-1-300aa-34,
the government was not entitled to an offset due to Social
Security Disability Insurance (“SSDI”) benefits because the
Vaccine Act “provides for offsets where compensation is made via
one of the enumerated programs,” and SSDI was not identified in
the statute); Modoc Lassen Indian Hous. Auth. v. United States
HUD, 881 F.3d 1181, 1194 (10th Cir. 2017) (noting that “rules
that traditionally govern contractual relationships don’t
necessarily apply in the context of federal grant programs” that
do not impose contract-like obligations such as the Native
American Housing Assistance and Self-Determination Act, 25
U.S.C. § 4101 et seq.); Md. Dep’t of Human Res. v. Dep’t of Health
& Human Servs., 762 F.2d 406, 408-09 (4th Cir. 1985) (declining
to infer a “contractual” relationship in the Aid to Families with
Dependent Children program, 42 U.S.C. § 601 et seq., a “grant in
aid” program); Mem’l Hosp. v. Heckler, 706 F.2d 1130, 1136 (11th
Cir. 1983) (noting that hospitals participating in the Medicare
program did not receive a “contractual right” because the statute
did not “obligate the [government] to provide reimbursement for
any particular expenses”); PAMC, Ltd. v. Sebelius, 747 F.3d 1214,
1221 (9th Cir. 2014) (citing Mem’l Hospital).
The amicus argues that the insurers are not seeking
“compensation for the failure to pay,” but are instead seeking
“specific relief” under section 1402. Common Ground Healthcare
Cooperative Suppl. Damages Amicus Br. 5. As the Supreme
Court held in Bowen v. Massachusetts, 487 U.S. 879 (1988), “the
Court of Claims has no [general] power to grant equitable relief.”
Id. at 905 (quoting Richardson v. Morris, 409 U.S. 464, 465 (1973)
(per curiam)). Furthermore, the Supreme Court made clear that
the type of relief that the insurers are seeking is best
characterized as “specific sums, already calculated, past due, and
6

App-17
applied the contract-law analogy to limit damages in
suits against the government under the Back Pay Act,
5 U.S.C. § 5596, another money-mandating statute. 7
Our predecessor court held that in suits brought for
improper discharge for federal employment, damages
had to be reduced by the amount earned by the federal
employee in the private sector under a mitigation
theory. 8 See Craft v. United States, 589 F.2d 1057,
1068 (Ct. Cl. 1978) (“Unless there is a regulation or a
statute that provides otherwise, cases in this court
routinely require the deduction of civilian earnings
[from a back pay award] on an analogy to the principle
of mitigation of damages.”). Laningham v. United
States, 5 Cl. Ct. 146, 158 (Ct. Cl. 1984) (“This rule has
been utilized as an analog to the private contract law
principle of mitigation of damages.”); see also Motto v.
United States, 360 F.2d 643, 645 (Ct. Cl. 1966); Borak
v. United States, 78 F. Supp. 123, 125 (Ct. Cl. 1948).
designed to compensate for completed labors.” Me. Cmty., 140 S.
Ct. at 1330-31.
See Bowen, 487 U.S. at 905 n.42 (“To construe statutes such
as the Back Pay Act . . . as ‘mandating compensation by the
Federal Government for the damage sustained,’ . . . one must
imply from the language of such statutes a cause of action.”
(quoting Eastport S.S. Corp. v. United States, 372 F.2d 1002,
1009 (Ct. Cl. 1967))); Hambsch v. United States, 848 F.2d 1228,
1231 (Fed. Cir. 1988) (“By the Back Pay Act’s own terms, a
tribunal must also look for an ‘applicable law, rule, regulation, or
collective bargaining agreement’ as the source of an employee
entitlement which an ‘unjustified or unwarranted personnel
action’ has denied or impaired.”).
7

8 The Back Pay Act was later amended to expressly provide for
such offsets. See 5 U.S.C. § 5596(b)(1). That amendment to the
statute, however, does not change the principles underlying the
previous decisions.

App-18
Here the contract-law analogy applies because the
statute “contains no express remedies” at all with
respect to the government’s obligation. Barnes, 536
U.S. at 187. While the ACA provides specific remedies
for failure of the insurers or insured to comply with
their obligations, see 42 U.S.C. §§ 300gg-22, 18081(h),
“the [ACA] did not establish a [statutory] remedial
scheme” for the government’s noncompliance, Me.
Cmty., 140 S. Ct. at 1330. Section 1402’s silence as to
remedies in this respect suggests that “forms of relief
traditionally available in suits for breach of contract”
are appropriate. Barnes, 536 U.S. at 187; see also Me.
Cmty., 140 S. Ct. at 1330. We therefore look to
government contract law to determine the scope of the
insurers’ damages remedy.
With respect to contract claims, the government
is “to be held liable only within the same limits that
any other defendant would be in any other court,” and
“its rights and duties . . . are governed generally by
the law applicable to contracts between private
individuals.” United States v. Winstar Corp., 518 U.S.
839, 892, 895 (1996) (first quoting Horowitz v. United
States, 267 U.S. 458, 461 (1925), and then quoting
Lynch v. United States, 292 U.S. 571, 579 (1934)).
B
The traditional damages remedy under contract
law is compensatory in nature. Restatement (Second)
of Contracts § 347 (1981); Barnes v. Gorman, 536 U.S.
at 187-90.
The fundamental principle that underlies the
availability of contract damages is that of
compensation. That is, the disappointed
promisee is generally entitled to an award of

App-19
money damages in an amount reasonably
calculated to make him or her whole and
neither more nor less; any greater sum
operates to punish the breaching promisor
and results in an unwarranted windfall to the
promisee, while any lesser sum rewards the
promisor for his or her wrongful act in
breaching the contract and fails to provide the
promisee with the benefit of the bargain he or
she made.
24 Samuel Williston & Richard A. Lord, Williston on
Contracts § 64:1 (4th ed. 2020); see also 11 Joseph M.
Perillo & Helen Hadjiyannakis Bender, Corbin on
Contracts § 55.3 (2020) (“[I]t is a basic tenet of contract
law that the aggrieved party will not be placed in a
better position than it would have occupied had the
contract been fully performed.”).
Thus, courts have uniformly held—as a matter of
both state and federal law—that a plaintiff suing for
breach of contract is not entitled to a windfall, i.e., the
non-breaching party “[i]s not entitled to be put in a
better position by the recovery than if the [breaching
party] had fully performed the contract.” Miller v.
Robertson, 266 U.S. 243, 260 (1924); Bluebonnet Sav.
Bank, F.S.B. v. United States, 339 F.3d 1341, 1345
(Fed. Cir. 2003) (“[T]he non-breaching party should
not be placed in a better position through the award of
damages than if there had been no breach.”); LaSalle,
317 F.3d at 1372 (“[T]he non-breaching party is not
entitled, through the award of damages, to achieve a
position superior to the one it would reasonably have
occupied had the breach not occurred.” (citing 3 E.

App-20
Allan Farnsworth, Farnsworth on Contracts 193 (2d
ed. 1998)). 9
This concern to limit contract damages to
compensatory amounts is embodied, in part, in the
doctrine of mitigation, which ensures that the nonbreaching party will not benefit from a breach. The
mitigation doctrine has two aspects. First, the nonbreaching party is expected to take reasonable steps
to mitigate his or her damages. Restatement (Second)
of Contracts § 350 cmt. b (“Once a party has reason to
know that performance by the other party will not be
forthcoming, . . . he is expected to take such
affirmative steps as are appropriate in the
circumstances to avoid loss by making substitute
arrangements or otherwise.”). Under common-law
principles, the injured party may not recover damages
for any “loss that the injured party could have avoided
without undue risk, burden or humiliation.” Id.
§ 350(1); 3 Dan B. Dobbs, Law of Remedies § 12.6(1),
at 127 (2d ed. 1993) (“[T]he damage recovery is
reduced to the extent that the plaintiff could
reasonably have avoided damages he claims and is
otherwise entitled to.”); Roehm v. Horst, 178 U.S. 1, 11
(1900) (explaining that a plaintiff for breach of
See, e.g., John Hancock Life Ins. Co. v. Abbott Labs., 863 F.3d
23, 44 (1st Cir. 2017) (same under Illinois law); VICI Racing, LLC
v. T-Mobile USA, Inc., 763 F.3d 273, 303 (3d Cir. 2014) (same
under Delaware law); Hess Mgmt. Firm, LLC v. Bankston (In re
Bankston), 749 F.3d 399, 403 (5th Cir. 2014) (same under
Louisiana law); Westlake Petrochemicals, L.L.C. v. United
Polychem, Inc., 688 F.3d 232, 243-44 (5th Cir. 2012) (same under
the Uniform Commercial Code); Ed S. Michelson, Inc. v. Neb. Tire
& Rubber Co., 63 F.2d 597, 601 (8th Cir. 1933) (treating the issue
as a general matter of contract law).
9

App-21
contract is entitled to “damages as would have arisen
from the nonperformance of the contract at the
appointed time, subject, however, to abatement in
respect of any circumstances which may have afforded
him the means of mitigating his loss” (quoting Frost v.
Knight, L.R. 7 Exch. 111 (1872))). We need not
determine whether this first aspect of the mitigation
doctrine applies here—such that the insurers were
obligated to increase premiums to secure increased
premium credits.
Rather, here we look to a second aspect of the
mitigation doctrine, which recognizes that there must
be a reduction in damages equal to the amount of
benefit that resulted from the mitigation efforts that
the non-breaching party in fact undertook. 10 Kansas
A related principle is that, when the non-breaching party
indirectly benefits from the defendant’s breach, “in order to avoid
overcompensating the promisee, any savings realized by the
plaintiff as a result of the . . . breach . . . must be deducted from
the recovery.” 24 Williston on Contracts § 64:3; 11 Corbin on
Contracts § 57.10 (“A breach of contract may prevent a loss as
well as cause one. In so far as it prevents loss, the amount will be
credited in favor of the wrongdoer.”); Charles T. McCormick,
Handbook on the Law of Damages 146 (1935) (“Where the
defendant’s wrong or breach of contract has not only caused
damage, but has also conferred a benefit upon [the]
plaintiff . . . which he would not otherwise have reaped, the value
of this benefit must be credited to [the] defendant in assessing
the damages.”); LaSalle, 317 F.3d at 1372 (citing McCormick);
Kansas Gas & Elec., 685 F.3d at 1367 (same); Stern v. Satra
Corp., 539 F.2d 1305, 1312 (2d Cir. 1976) (same); see also DPJ
Co. P’ship v. F.D.I.C., 30 F.3d 247, 250 (1st Cir. 1994) (holding
that, with respect to reliance damages for breach of contract, “a
‘deduction’ is appropriate ‘for any benefit received [by the
claimant] for salvage or otherwise’” (alteration in original)
(quoting A. Farnsworth, Contracts § 12.16 (2d ed. 1990))).
10

App-22
Gas & Elec. Co. v. United States, 685 F.3d 1361, 1366
(Fed. Cir. 2012) (“[M]itigation efforts may result in
direct savings that reduce the damages claim.”);
Restatement (Second) of Contracts § 350 cmt. h
(explaining that the calculation of mitigation should
reflect “[a]ctual efforts to mitigate damages”);
11 Corbin on Contracts § 57.11 (explaining that, in the
case of a buyer breaching a contract for the sale of
goods, the rule “measures the seller’s damages by the
contract price less the market price—the price
actually obtained . . . by a new sale”).
For example, in Kansas Gas and Electric, the
government breached a contract to dispose of the
plaintiff utility companies’ nuclear waste. Kansas Gas
& Elec., 685 F.3d at 1364. Anticipating that the
government would breach the contract, the utility
companies began a “rerack project” to increase its
storage capacity and mitigate the effects of a
government breach. Id. We held that the plaintiffs
were entitled to the costs of its rerack project taken in
mitigation of the government’s breach. Id. at 1365,
1371. We also held, however, that the plaintiffs’
recovery was to be reduced by the “real-world benefit”
realized by the plaintiff’s rerack project. Id. at 136768. Namely, “[w]hile conducting the rerack, the
[plaintiffs] both . . . used racks that could support
higher enrichment fuel assemblies,” which “allowed
[them] to achieve the same energy output from [their]
reactor with fewer fuel assemblies,” thereby
increasing the efficiency of their plant. Id. at 1364.
The plaintiffs argued that the efficiency benefits
of the rerack project were “too remote and not directly
related to the breach because the decision to ‘pursue

App-23
more highly enriched fresh nuclear fuel’ was an
‘independent business decision’ and influenced
by . . . market price[s].” Id. at 1367. We rejected that
argument, holding that the rerack project was “part
and parcel of the [plaintiffs]’ mitigation efforts.” Id.
We stated that “[t]he long-term benefit of fuel cost
savings [influenced by market forces] does not sever
its connection to the [plaintiffs]’ mitigation efforts,”
and that the appropriate inquiry was whether, “[b]y
enhancing the racks to accommodate high-enrichment
fuel assemblies, the [plaintiffs] mitigated the
[g]overnment’s breach in a way that produced a
benefit.” Id. at 1368. We concluded that the plaintiffs’
damages were correctly reduced “by the amount of the
benefit received in mitigating the [g]overnment’s
partial breach of the . . . [c]ontract.” Id.
Here, each insurer mitigated the effects of the
government’s breach by applying for increased
premiums and, as a result, received additional
premium tax credits in 2018 as a direct result of the
government’s nonpayment of cost-sharing reduction
reimbursements. Notably, the government does not
argue that it is entitled to offset the premium
increases in the damages calculation, but it does argue
that it is entitled to offset the additional payments
made by the government in the form of premium tax
credits.
The insurers appear not to dispute that if the
elimination of cost sharing-reduction payments
directly triggered increased premium tax credits, an
offset would be appropriate under a contract theory.
But they argue that the premium tax credits were not
“direct benefits” of the breach because they depend on

App-24
actions by the insurers—the decision to pursue
increased premiums. These payments were not, in the
appellees’ phrasing, received in the “first step.” We
think the relationship is no less direct because the
insured’s tax credits did not automatically flow from
the elimination of cost sharing reduction payments,
and the insurers played a role by securing the
increased premiums that in turn resulted in the
increased tax credits.
There is thus a direct relationship between costsharing reductions and premiums, and between
premiums and tax credits. The text of the ACA
recognizes the relationship between premiums and
cost-sharing reductions. Section 1412 of the ACA
provides for the “[a]dvance determination and
payment of premium tax credits and cost-sharing
reductions.” 42 U.S.C. § 18082 (codifying ACA section
1412). Section 1412(a)(3) states: “the Secretary of the
Treasury makes advance payments of [premium tax]
credits or [cost-sharing] reductions to the
[insurers] . . . in order to reduce the premiums payable
by individuals eligible for such credit.” Id.
§ 18082(a)(3). As we noted in Sanford, this section
may be understood to indicate that the statute
recognizes that, without cost-sharing reduction
reimbursements, “insurers might otherwise seek
higher premiums to enable them to pay healthcare
providers the amounts enrollees are not paying due to
cost-sharing reductions.” Sanford, No. 19-1290, slip
op. at 22.
The Claims Court’s findings show that the
premium tax credits flowed directly from the insurers’
mitigation efforts. As the Claims Court found, the

App-25
plaintiffs themselves recognized this connection. They
negotiated for increased premiums (leading to the
increased tax credits) in direct response to the
cessation of cost-sharing reduction payments:
The Trump administration’s termination of
cost-sharing reduction payments did not
come as a surprise to insurers: “Anticipating
that the Administration would terminate
[cost-sharing reduction] payments, most
states began working with the insurance
companies to develop a plan for how to
respond. . . . And the states came up with an
idea: allow the insurers to make up the
deficiency through premium increases . . . .”
California, 267 F. Supp. 3d at 1134-35 . . . . In
other words, by raising premiums for silverlevel qualified health plans, the insurers
would obtain more money from the premium
tax credit program, which would help
mitigate the loss of the cost-sharing reduction
payments.
Cmty., 141 Fed. Cl. at 754-55 (first alteration in
original); id. at 755 n.10 (noting that “increasing
silver-level qualified health plan premiums would not
harm most consumers who qualify for the premium
tax credit because the credit increases as the premium
increases”).
The practice of silver loading—and the resulting
premium tax credits received by each insurer—”was a
direct consequence of the government’s breach” of its
obligations, and “indeed was an extreme measure
forced” by the government’s nonpayment. LaSalle, 317
F.3d at 1372. The government’s payment of the

App-26
premium tax credits is directly traceable to the
premium increase, and the premium increase is
directly traceable to the government’s breach. The
insurers “received a benefit as a direct result of their
mitigation activity.” Kansas Gas & Elec., 685 F.3d at
1368. The argument for an offset is particularly strong
here because the insurers received direct payments
(rather than indirect benefits, such as efficiency gains)
from the government due to their mitigation efforts.
The insurers argue, however, that there are two
exceptions to the mitigation principle that defeat the
government’s claim to an offset: (1) the prohibition on
so-called “pass-through” defenses and (2) the
collateral source rule. As to the “pass-through”
defense, the insurers argue that the government, as a
breaching party, may not claim mitigation of damages
when the non-breaching party “passe[s] through” its
losses to its customers. Appellees’ Suppl. Damages.
Br. 15 (citing Hughes Commc’ns Galaxy, Inc. v. United
States, 271 F.3d 1060, 1072 (Fed. Cir. 2001)). 11 The
insurers assert that the cases stand for the proposition
that mitigation may only be considered in the “first
step,” and that “later-step” recoveries such as passthrough are “irrelevant” to the calculation of damages.
Id. at 10. But this is not a case where a third-party
customer pays for the insurers’ losses, as was the case
in Hughes. 12 The complexity of the process cannot
In addition to Hughes, the appellees also rely on cases arising
under antitrust law, see Hanover Shoe, Inc. v. United Shoe Mach.
Corp., 392 U.S. 481 (1968), RICO, see Carter v. Berger, 777 F.2d
1173 (7th Cir. 1985), and utility overcharges, see S. Pac. Co. v.
Darnell-Taenzer Lumber Co., 245 U.S. 531 (1918).
11

12 The antitrust, RICO, and utility cases too are distinguishable
because they concern situations where costs are passed to a third-

App-27
obscure the underlying economic reality that the
government is paying at least some of the increased
costs that the insurers incurred as a result of the
government’s failure to make cost-sharing reduction
payments. See Gov’t Suppl. Damages Br. 24 (“[T]he
government is not urging that [the] plaintiffs’
damages should be reduced merely because [the]
plaintiffs passed on their cost-sharing reduction
expenses to customers. The crucial point is that [the]
plaintiffs . . . passed these expenses on to the
government itself, which by virtue of the ACA’s
structure is paying the cost-sharing reduction
expenses . . . in the form of higher premium tax
credits.”).
The government’s claim is not that damages
should be reduced because the insurers passed on the
increased costs to their customers, but that “the
insurers . . . obtain[ed] more money from the premium
tax credit program, which would help mitigate the loss
of the cost-sharing reduction payments.” Cmty., 141
Fed. Cl. at 755 & n.10. The pass-through exception, to
the extent that it is applicable to contract damages,
does not apply here.
Second, the insurers invoke the collateral source
rule, arguing that the additional premium tax credits
were collateral benefits that should not be credited
against their damages. The collateral source rule is a
party. See, e.g., S. Pac., 245 U.S. at 534 (explaining that the passthrough doctrine is concerned with the lack of privity between the
defendant railroad company and the “consumer who . . . paid [the]
increased price”); Adams v. Mills, 286 U.S. 397, 407 (1932)
(similar); Hanover Shoe, 392 U.S. at 490 (similar in the antitrust
context).

App-28
generally recognized principle of tort law that “bars a
tortfeasor from reducing the damages it owes to a
plaintiff ‘by the amount of recovery the plaintiff
receives from other sources of compensation that are
independent of (or collateral to) the tortfeasor.’”
Johnson v. Cenac Towing, Inc., 544 F.3d 296, 304 (5th
Cir. 2008) (quoting Davis v. Odeco, Inc., 18 F.3d 1237,
1243 (5th Cir. 1994)); see, e.g., Chisholm v. UHP
Projects, Inc., 205 F.3d 731, 737 (4th Cir. 2000);
Fitzgerald v. Expressway Sewerage Constr., Inc., 177
F.3d 71, 73 (1st Cir. 1999). Thus, the collateral source
rule bars a reduction of damages due to “insurance
policies and other forms of protection purchased by
[the] plaintiff,” Johnson, 544 F.3d at 305, or
unemployment benefits in the case of a wrongfuldischarge case, Craig v. Y & Y Snacks, Inc., 721 F.2d
77, 83 (3d Cir. 1983).
As with the insurers’ pass-through argument,
their collateral source rule argument fails. We are
aware of no authority, and the insurers cite none,
holding that the collateral source rule applies to
contract damages, and the prevailing authority rejects
any such limitation. See, e.g., United States v. Twin
Falls, 806 F.2d 862, 873 (9th Cir. 1986) (“We have
found no authority to support the application of the
collateral source rule in the contracts field.” (collecting
cases rejecting the application of the collateral source
rule to contract-based damages)), overruled on other
grounds as recognized by Ass’n of Flight Attendants v.
Horizon Air Indus., Inc., 976 F.2d 541, 551-52 (9th Cir.
1992); Star Ins. Co. v. Sunwest Metals Inc., 691 F.
App’x 358, 361 (9th Cir. 2017) (noting that “California
courts have declined to extend the collateral source
rule to contract-based claims” and that contract

App-29
damages rules are “[u]nlike” those in tort damages);
LaSalle, 317 F.3d at 1372 (declining to apply the
collateral source rule to government contracts). In any
event, even if that rule applied here, the “source of
compensation” is the not “independent” of the
government. The source is the government itself. See
Phillips v. W. Co. of N. Am., 953 F.2d 923, 931 (5th Cir.
1992) (“The [collateral source] rule is intended to
ensure that the availability of outside sources of
income does not diminish the plaintiff’s recovery, not
make the tortfeasor pay twice.”). The collateral source
rule does not bar the reduction in damages.
We conclude that additional premium tax credits
were received by Community and Maine Community
in 2018 as a direct consequence of their mitigation
efforts following the government’s nonpayment of
2018 cost-sharing reduction reimbursements, and the
Claims Court was required to credit the government
with such tax credit payments in determining
damages.
IV
Determining the amount of premium tax credits
paid to each insurer is necessarily a fact-intensive
task. Because the Claims Court rejected the
government’s mitigation theory on a limited summary
judgment record, it did not address these calculation
issues. And as the insurers conceded in their briefing
before the Claims Court, to the extent that the
insurers’ premium changes are “relevant . . . to [the]
quantum,” they involve “factual questions that cannot
be resolved on [the existing motion for summary
judgment].” Community Reply in Supp. of Mot. for
Summ. J. 15, Cmty. Health Choice, Inc. v. United

App-30
States, No. 18-cv-00005, 141 Fed. Cl. 744, ECF No. 20
(Nov. 30, 2018); Maine Community Mot. for Summ. J.
1, Me. Cmty Health Options v. United States, No. 17cv-02057, 143 Fed. Cl. 381, ECF No. 31 (Apr. 8, 2019)
(adopting “all of the arguments regarding benefit year
2018 raised by . . . Community . . . in [its] brief[]”). We
therefore remand to the Claims Court for a
determination of the amount of premium increases
(and resultant premium tax credits) attributable to
the government’s failure to make cost-sharing
reduction payments. This will require either new
summary judgment motions or a trial.
We note that three principles will govern the
remand proceedings.
First, as the insurers argue, some of the silverlevel premium increases (and resulting tax credits)
may be caused by other factors, such as market forces
or increased medical costs. To the extent that this is
the case, the government’s liability is not reduced by
the tax credits attributable to these other factors.
Second, as previously mentioned, increasing the
premium rates for silver plans resulted in an increase
in premium tax credits for all plans on the exchange.
In some states, state regulators have also allowed
insurers to recoup part of their lost cost-sharing
reduction reimbursements by increasing premiums
for other, non-silver plans on the exchange. In these
circumstances, the tax credits for these other plans
(attributable to the silver plan premium increase) are
still caused by the elimination of cost-sharing
reduction payments and will, of course, reduce the
government’s liability. But we do not address whether
in situations where, as here, there have been no

App-31
premium increases for other plans, the government’s
liability should be reduced for the increased tax credit
payments with respect to other plans. We leave that
issue to the Claims Court in the first instance.
Finally, the insurers will bear the burden of
persuasion with respect to the amount of the taxcredit increase attributable to the loss of cost-sharing
reduction reimbursements. Other circuit courts and
state courts applying state law are inconsistent as to
which party bears the burden of persuasion with
respect to the amount of mitigation. 13 But in the
federal context the rule is clear. The plaintiffs bear the
burden of proof:
[A] non-breaching plaintiff bears the burden
of persuasion to establish both the costs that
it incurred and the costs that it avoided as a
result of a breach of contract. The breaching
party may be responsible for affirmatively
Compare VICI Racing, LLC v. T-Mobile USA, Inc., 763 F.3d
273, 301 (3d Cir. 2014) (holding that, under Delaware law, “[a]
defendant need not provide an accounting of the costs a plaintiff
should have avoided, but the burden is properly on a defendant
to articulate the actions that would have been reasonable under
the circumstances to mitigate loss”), with John Morrell & Co. v.
Local Union 304A of United Food & Commercial Workers, AFLCIO, 913 F.2d 544, 557 (8th Cir. 1990) (“[T]he breaching party[]
ha[s] the burden of proving that ‘the breach resulted in a direct
and immediate savings to the plaintiff,’ . . . . [T]he defendant
must prove the amount of the offset with reasonable certainty.”);
Amigo Broad., LP v. Spanish Broad. Sys., Inc., 521 F.3d 472, 486
(5th Cir. 2008) (holding that, under Texas law, “it is the burden
of [the defendants], not [the plaintiff], to show that [the plaintiff]
received a benefit from its expenditures that reduce or offset the
amount of reliance damages to which [the plaintiff] claims it is
entitled”).
13

App-32
pointing out costs that were avoided, but once
such costs have been identified, the plaintiff
must incorporate them into a plausible model
of the damages that it would have incurred
absent the breach.
Bos. Edison Co. v. United States, 658 F.3d 1361, 1369
(Fed. Cir. 2011) (citing S. Nuclear Operating Co. v.
United States, 637 F.3d 1297, 1304 (Fed. Cir. 2011));
see also Sys. Fuels, Inc. v. United States, 666 F.3d
1306, 1312 (Fed. Cir. 2012) (collecting cases). Here,
the government has affirmatively pointed out the
insurers’ avoided costs (due to increased premium tax
credits). Therefore, it was the insurers burden to
incorporate those benefits into their damages
calculations. Energy Nw. v. United States, 641 F.3d
1300, 1309 (Fed. Cir. 2011) (explaining that, to
establish damages, “a plaintiff [must] show what it
would have done in the non-breach world, and what it
did post-breach”). We think that this allocation of the
burden of proof is particularly appropriate here
because the insurers were already required by section
1003 of the ACA to provide “justification[s]” for
premium rate increases. 42 U.S.C. § 300gg-94(a)(2).
Thus, Community and Maine Community—having
previously justified their silver-level premium
increases—are “in the best position to adduce and
establish such proof.” S. Nuclear, 637 F.3d at 1304
(quoting 11 Corbin on Contracts § 57.10 n.15 (2005)).
According to the insurers, they cannot be expected
to bear this burden of proof by comparing “each
insurer’s financial picture now in relation to what it
hypothetically might have been if [the cost-sharing
reduction reimbursements] had been timely paid.”

App-33
Appellees’ Suppl. Damages Br. 9. Specifically, the
insurers argue that they cannot “submit a
hypothetical model establishing what their costs
would have been in the absence of breach.” Id. at n.9
(quoting Gov’t Suppl. Damages Br. 8). Given the
explicit arguments that the insurers here have made
for rate increases, we doubt that proof will be as
difficult as the insurers’ claim. In any event, as we
have discussed, our cases make clear that the plaintiff
seeking to recover damages must “prov[e] causation by
comparing a hypothetical ‘but for’ world to a plaintiff’s
actual costs.” Energy Nw., 641 F.3d at 1306 (quoting
Yankee Atomic Elec. Co. v. United States, 536 F.3d
1268, 1273-74 (Fed. Cir. 2008)). The insurers here
cannot avoid their burden to prove damages.
V
Although we do not address the Claims Court’s
holding with respect to the insurers’ implied-in-fact
contract theory, the same damages analysis would
apply to that claim as well, since, as the Claims Court
recognized, a claim for breach of an implied-in-fact
contract is subject to the same damages limitations as
an ordinary contract. See Cmty., 141 Fed Cl. at 767-70
(analyzing damages for breach of an implied-in-fact
contract under “[t]he general rule in common law
breach of contract cases” (quoting Estate of Berg v.
United States, 687 F.2d 377, 379 (Ct. Cl. 1982)); see,
e.g., Lindquist Ford, Inc. v. Middleton Motors, Inc.,
557 F.3d 469, 481 (7th Cir. 2009), as amended (Mar.
18, 2009) (“[A]n implied-in-fact contract is governed by
general contract principles.”); Hill v. Waxberg, 237
F.2d 936, 939 (9th Cir. 1956) (explaining that “the
general contract theory of compensatory damages

App-34
should be applied” in an action for breach of an
implied-in-fact contract). There is thus no need on
remand to separately address the insurers’ implied-infact contract claim.
AFFIRMED IN PART, REVERSED AND
REMANDED IN PART
COSTS

No costs.

App-35
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________
No. 19-1633
________________
COMMUNITY HEALTH CHOICE, INC.,
v.

Plaintiff-Appellee,

UNITED STATES,
Defendant-Appellant.
________________
Filed: Nov. 10, 2020
________________
Before PROST, Chief Judge, NEWMAN, LOURIE,
BRYSON 1, DYK, MOORE, O’MALLEY, REYNA,
WALLACH, TARANTO, CHEN, HUGHES, and STOLL,
Circuit Judges.
________________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
________________
ORDER
________________

1 Circuit Judge Bryson participated only in the decisions on
petitions for panel rehearing.

App-36
PER CURIAM.
Community Health Choice, Inc. filed a combined
petition for panel rehearing and rehearing en banc. At
the court’s invitation and with leave of the court, the
United States filed a response to the petition and
incorporated a conditional cross-petition for rehearing
en banc. The petitions were first referred to the panel
that heard the appeal, and thereafter the petitions for
rehearing en banc were referred to the circuit judges
who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petitions for panel rehearing are denied.
The petitions for en banc rehearing are denied.
The mandate of the court will issue on November
17, 2020.
For the Court
November 10, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of the Court

App-37
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________
No. 19-2102
________________
MAINE COMMUNITY HEALTH OPTIONS,
v.

Plaintiff-Appellee,

UNITED STATES,
Defendant-Appellant.
________________
Filed: Nov. 10, 2020
________________
Before PROST, Chief Judge, NEWMAN, LOURIE,
BRYSON 1, DYK, MOORE, O’MALLEY, REYNA,
WALLACH, TARANTO, CHEN, HUGHES, and STOLL,
Circuit Judges.
________________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
________________
ORDER
________________

1 Circuit Judge Bryson participated only in the decisions on
petitions for panel rehearing.

App-38
PER CURIAM.
Maine Community Health Options filed a petition
for rehearing en banc. Anthem, Inc., Local Initiative
Health Authority for Los Angeles County, and Molina
Healthcare of California, Inc. filed a brief as amici
curiae in support of the petition. At the court’s
invitation and with leave of the court, the United
States filed a response to the petition and incorporated
a conditional cross-petition for rehearing en banc. The
petitions were first referred as petitions for rehearing
to the panel that heard the appeal, and thereafter the
petitions for rehearing en banc were referred to the
circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petitions for panel rehearing are denied.
The petitions for en banc rehearing are denied.
The mandate of the court will issue on November
17, 2020.
For the Court
November 10, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of the Court

App-39
Appendix D
UNITED STATES COURT OF
FEDERAL CLAIMS
________________
No. 18-5C
________________
COMMUNITY HEALTH CHOICE, INC.,
v.

Plaintiff,

UNITED STATES,
Defendant.
________________
Filed: Feb. 15, 2019
________________
OPINION AND ORDER
________________
SWEENEY, Chief Judge
Plaintiff Community Health Choice, Inc. contends
that the federal government ceased making the costsharing reduction payments to which it and other
insurers are entitled under the Patient Protection and
Affordable Care Act (“Affordable Care Act”), Pub. L.
No. 111-148, 124 Stat. 119 (2010), and its
implementing regulations. Currently before the court
are plaintiff’s motion for summary judgment and
defendant’s cross-motion to dismiss for failure to state
a claim upon which relief can be granted. For the
reasons set forth below, the court finds that plaintiff
is entitled to recover the unpaid cost-sharing
reduction reimbursements under two of the three

App-40
theories it advances. Therefore, it grants in part and
denies in part the parties’ motions.
I.

BACKGROUND

A. The Affordable Care Act
Congress enacted the Affordable Care Act as part
of a comprehensive scheme of health insurance
reform. 1 See generally King v. Burwell, 135 S. Ct. 2480
(2015). Specifically, the Act includes “a series of
interlocking reforms designed to expand coverage in
the individual health insurance market.” Id. at 2485.
In conjunction with these reforms, the Act provided for
the establishment of an American Health Benefit
Exchange (“exchange”) in each state by January 1,
2014, to facilitate the purchase of “qualified health
plans” by individuals and small businesses. 42 U.S.C.
§§ 18031, 18041 (2012); accord King, 135 S. Ct. at 2485
(describing an exchange as “a marketplace that allows
people to compare and purchase insurance plans”).
Qualified health plans can be offered at four levels
(bronze, silver, gold, and platinum) that differ based
on how much of a plan’s benefits an insurer must cover
under the plan. 2 42 U.S.C. § 18022(d)(1).
Among the reforms included in the Affordable
Care Act were two aimed at ensuring that individuals
Seven days after enacting the Affordable Care Act, Congress
enacted the Health Care and Education Reconciliation Act of
2010, Pub. L. No. 111-152, 124 Stat. 1029, which included
additional provisions related to health insurance reform.
1

2 For example, for a silver-level qualified health plan, insurers
are required to provide coverage for 70% of the benefits offered
under the plan. 42 U.S.C. § 18022(d)(1)(B). Insurers offering
qualified health plans on an exchange must offer at least one
silver-level plan and one gold-level plan. Id. § 18021(a)(1)(C)(ii).

App-41
have access to affordable insurance coverage and
health care: the premium tax credit enacted in section
1401 of the Act, 26 U.S.C. § 36B (2012), and the costsharing reduction program enacted in section 1402 of
the Act, 42 U.S.C. § 18071. “The premium tax credits
and the cost-sharing reductions work together: the tax
credits help people obtain insurance, and the costsharing reductions help people get treatment once
they have insurance.” California v. Trump, 267 F.
Supp. 3d 1119, 1123 (N.D. Cal. 2017).
1.

Premium Tax Credit

The first of these two reforms, the premium tax
credit, is designed to reduce the insurance premiums
paid by individuals whose household income is
between 100% and 400% of the poverty line. See 26
U.S.C. § 36B(c)(1)(A); 42 U.S.C. § 18082(c)(2)(B)(i);
accord 26 C.F.R. § 1.36B-2(a) to (b) (2017); 45 C.F.R.
§ 156.460(a)(1) (2017). The Secretary of the
Department of Health and Human Services
(“Secretary of HHS”) is required to determine whether
individuals enrolling in qualified health plans on an
exchange are eligible for the premium tax credit and,
if so, to notify the Secretary of the United States
Department of the Treasury (“Treasury Secretary”) of
that fact. 42 U.S.C. § 18082(c)(1). The Treasury
Secretary, in turn, is required to make periodic
advance payments of the premium tax credit to the
insurers offering the qualified health plans in which
the eligible individuals enrolled. Id. § 18082(c)(2)(A).
The insurers are required to use these advance
payments to reduce the premiums of the eligible
individuals. Id. § 18082(c)(2)(B)(i); see also 26 U.S.C.
§ 36B(f) (describing the process for annually

App-42
reconciling an individual’s actual premium tax credit
with the advance payments of the credit). To fund the
premium tax credit, Congress amended a preexisting
permanent appropriation to allow for the payment of
refunds arising from the credit. See 31 U.S.C. § 1324
(2012) (“Necessary amounts are appropriated . . . for
refunding internal revenue collections as provided by
law . . . . Disbursements may be made from the
appropriation
made
by
this
section
only
for . . . refunds due from credit provisions of [26 U.S.C.
§ 36B].”).
2.

Cost-Sharing Reductions

The other reform, cost-sharing reductions, is
designed to reduce the out-of-pocket expenses (such as
deductibles, copayments, and coinsurance 3) paid by
individuals whose household income is between 100%
and 250% of the poverty line. See 42 U.S.C.
§§ 18022(c)(3), 18071(c)(2); accord 45 C.F.R.
§§ 155.305(g), 156.410(a). Insurers offering qualified
health plans are required to reduce eligible
individuals’ cost-sharing obligations by specified
amounts, 4 42 U.S.C. § 18071(a), and the Secretary of
“The term ‘cost-sharing’ includes . . . deductibles, coinsurance,
copayments, or similar charges,” but not “premiums, balance
billing amounts for non-network providers, or spending for noncovered services.” 42 U.S.C. § 18022(c)(3).
3

4 To be eligible for cost-sharing reductions, an individual must
enroll in a silver-level qualified health plan. 42 U.S.C.
§ 18071(b)(1). Under a standard silver-level plan, insurers are
required to provide coverage for 70% of the benefits offered under
the plan. Id. § 18022(d)(1)(B). However, for eligible individuals,
that percentage increases to 73% (when household income is
between 200% and 250% of the poverty line), 87% (when
household income is between 150% and 200% of the poverty line),

App-43
HHS is required to reimburse the insurers for the costsharing reductions they make, see id. § 18071(c)(3)(A)
(“[T]he Secretary [of HHS] shall make periodic and
timely payments to the issuer equal to the value of the
reductions.”).
The Secretary of HHS is afforded some discretion
in the timing of the reimbursements: once he
determines which individuals are eligible for costsharing reductions, he must notify the Treasury
Secretary “if an advance payment of the cost-sharing
reductions . . . is to be made to the issuer of any
qualified health plan” and, if so, the time and amount
of such advance payment. Id. § 18082(c)(3). Pursuant
to this authority, the Secretary of HHS established a
reimbursement schedule by which the government
“would make monthly advance payments to issuers to
cover projected cost-sharing reduction amounts, and
then reconcile those advance payments at the end of
the benefit year to the actual cost-sharing reduction
amounts.” Patient Protection and Affordable Care Act;
HHS Notice of Benefit and Payment Parameters for
2014, 78 Fed. Reg. 15,410, 15,486 (Mar. 11, 2013) (to
be codified at 45 C.F.R. § 156.430); see also 45 C.F.R.
§ 156.430(b)(1) (“A [qualified health plan] issuer will
receive periodic advance payments [for cost sharing
reductions].”). The amount of the cost-sharing
reduction payments owed to insurers is based on
information provided to HHS by the insurers. See 45
C.F.R. § 156.430(c) (requiring insurers to report to
HHS, “for each policy, the total allowed costs for
essential health benefits charged for the policy for the
or 94% (when household income is between 100% and 150% of the
poverty line). Id. § 18071(c)(2).

App-44
benefit year, broken down by . . . (i) [t]he amount the
[insurer] paid[,] (ii) [t]he amount the enrollee(s) paid[,
and] (iii) [t]he amount the enrollee(s) would have paid
under the standard plan without cost-sharing
reductions”).
The Affordable Care Act did not include any
language appropriating funds to make the costsharing reduction payments.
3.

Requirements for Insurers

To offer a health insurance plan on an exchange
in any given year—and become eligible to receive
payments for the premium tax credit and cost-sharing
reductions—an insurer must satisfy certain
requirements established by the Secretary of HHS.
See, e.g., 42 U.S.C. § 18041(a)(1) (authorizing the
Secretary of HHS to “issue regulations setting
standards for meeting the requirements under [title I
of the Affordable Care Act] with respect to—(A) the
establishment and operation of Exchanges . . . ; (B)
the offering of qualified health plans through such
Exchanges; . . . and (D) such other requirements as
the Secretary determines appropriate”). The
requirements include (1) obtaining certification that
any plan it intends to offer is a qualified health plan,
see, e.g., 45 C.F.R. §§ 155.1000, .1010, 156.200;
(2) submitting rate and benefit information before the
open enrollment period for the applicable year, see,
e.g., id. §§ 155.1020, 156.210; and (3) executing a
standard Qualified Health Plan Issuer Agreement
(“QHPI Agreement”) with the Centers for Medicare

App-45
and Medicaid Services (“CMS”), an agency of HHS, 5
for that year, 6 see id. § 155.260(b) (requiring
exchanges to execute agreements with entities that
will gain access to personally identifiable information
submitted to the exchanges that address privacy and
security standards and obligations); see also id.
§ 155.20 (defining “exchange” to include exchanges
established and operated by either a state or HHS).
With respect to the latter requirement, each
QHPI Agreement includes the following recitals:
WHEREAS:
1.

Section 1301(a) of the Affordable Care
Act . . . provides that [Qualified Health
Plans] are health plans that are certified
by an Exchange and, among other things,
comply with the regulations developed by
the Secretary of the Department of
Health and Human Services under

The Secretary of HHS delegated to the Administrator of CMS
(1) his authority—granted in section 1301 of the Affordable Care
Act—”pertaining to defining qualified health plans”; (2) his
authority—granted in section 1311 of the Affordable Care Act—
”pertaining to affordable choices of health benefit plans”; and
(3) his authority—granted in section 1321 of the Affordable Care
Act—”pertaining to the State’s flexibility in operation and
enforcement of [exchanges] and related requirements.”
Delegation of Authorities, 76 Fed. Reg. 53,903, 53,903 (Aug. 30,
2011); see also 42 U.S.C. §§ 18021 (codifying section 1301 of the
Affordable Care Act), 18031 (codifying section 1311 of the
Affordable Care Act), 18041 (codifying section 1321 of the
Affordable Care Act).
5

6 The QHPI Agreements for 2017 and 2018 include, as relevant
in this case, identical language. See Decl. of Kenneth Janda
(“Janda Decl.”), Exs. A-B (collectively, “Agreements”).

App-46
section 1321(a) and other requirements
that an applicable Exchange may
establish.
2.

[Qualified Health Plan Issuer] is an
entity licensed by an applicable State
Department of Insurance . . . as an
Issuer and seeks to offer through the
[Federally-facilitated Exchange] in such
State one or more plans that are certified
to be [Qualified Health Plans].

3.

It is anticipated that periodic [Advance
Payments of the Premium Tax Credit],
advance payments of [Cost-Sharing
Reductions], and payments of [Federallyfacilitated Exchange] user fees will be
due between CMS and [Qualified Health
Plan Issuer].

4.

[Qualified Health Plan Issuer] and CMS
are entering into this Agreement to
memorialize the duties and obligations of
the parties, including to satisfy the
requirements
under
45
CFR
155.260(b)(2).

Now, therefore, in consideration of the
promises and covenants herein contained, the
adequacy of which the Parties acknowledge,
[Qualified Health Plan Issuer] and CMS
agree as follows . . . .
Agreements 1. Section I of each agreement is titled
“Definitions.” Id. at 1-3. Section II of each agreement,
titled “Acceptance of Standard Rules of Conduct,”
addresses standards related to personally identifiable
information (as set forth in 45 C.F.R. § 155.260) and

App-47
communications with CMS’s Data Services Hub. Id. at
3-6. Section III of each agreement is titled “CMS
Obligations” and provides, in its entirety:
a.

CMS will undertake all reasonable
efforts to implement systems and
processes that will support [Qualified
Health Plan Issuer] functions. In the
event of a major failure of CMS systems
and/or processes, CMS will work with
[Qualified Health Plan Issuer] in good
faith to mitigate any harm caused by
such failure.

b.

As part of a monthly payments and
collections reconciliation process, CMS
will recoup or net payments due to
[Qualified Health Plan Issuer] against
amounts owed to CMS by [Qualified
Health Plan Issuer] in relation to offering
of [Qualified Health Plans] or any entity
operating
under
the
same
tax
identification number as [Qualified
Health
Plan
Issuer]
(including
overpayments
previously
made),
including the following types of
payments: [Advance Payments of the
Premium Tax Credit], advance payments
of [Cost- Sharing Reductions], and
payment
of
Federally-facilitated
Exchange user fees.

Id. at 6. The remaining sections of the agreements
contain various boilerplate provisions, see id. at 6-9,
including several related to the termination of the

App-48
agreements, id. at 6-7. One termination-related clause
provides:
[Qualified Health Plan Issuer] acknowledges
that termination of this Agreement 1) may
affect its ability to continue to offer [Qualified
Health Plans] through the [Federallyfacilitated Exchange]; 2) does not relieve
[Qualified Health Plan Issuer] of applicable
obligations to continue providing coverage to
enrollees; and 3) specifically does not relieve
[Qualified Health Plan Issuer] of any
obligation under applicable State law to
continue to offer coverage for a full plan year.
Id. at 7. Each agreement is to be executed by
authorized representatives of the insurer and CMS.
Id. at 10-11 (2017 agreement 7), 9-10 (2018
agreement).
In addition, in most circumstances, insurers must
make their qualified health plans available on the
exchanges for the entire year for which the plans were
certified. 45 C.F.R. § 156.272(a).
B. Termination of Cost-Sharing Reduction
Payments
On April 10, 2013, before the exchanges opened
for business, President Barack H. Obama submitted
to Congress his budget for fiscal year 2014. See Office
of Mgmt. & Budget, Exec. Office of the President,
Fiscal Year 2014 Budget of the United States
Government to Congress (2013). The budget included a
request for a line-item appropriation for cost-sharing
7 The signature pages in the 2017 agreement executed by
plaintiff are both numbered “10.”

App-49
reduction payments. See id. at App. 448; accord Ctrs.
for Medicare & Medicaid Servs., Dep’t of Health &
Human Servs., Fiscal Year 2014 Justification of
Estimates for Appropriations Committees 184 (2013).
However, Congress did not provide the requested
appropriation. See Consolidated Appropriations Act,
2014, Pub. L. No. 113-76, 128 Stat. 5; see also S. Rep.
No. 113-71, at 123 (2013) (“The Committee
recommendation does not include a mandatory
appropriation, requested by the administration, for
reduced cost sharing assistance . . . as provided for in
sections 1402 and 1412 of the [Affordable Care Act].”).
In fact, it is undisputed by the parties that Congress
has never specifically appropriated funds to reimburse
insurers for their cost-sharing reductions. 8 It is
further undisputed that Congress has never
(1) expressly prevented—in an appropriations act or
otherwise—the Secretary of HHS or the Treasury
Secretary from expending funds to make cost-sharing
reduction payments or (2) amended the Affordable
Care Act to eliminate the cost-sharing reduction
payment obligation.
Although
Congress
did
not
specifically
appropriate funds for cost-sharing reduction
payments, the Obama administration began making
advance payments to insurers for cost-sharing
reductions in January 2014. See Ctrs. for Medicare &
8 Whether Congress will appropriate funds for cost-sharing
reduction payments in the future is an open question. Cf. Patient
Protection and Affordable Care Act; HHS Notice of Benefit and
Payment Parameters for 2020, 84 Fed. Reg. 227, 283 (Jan. 24,
2019) (“The Administration supports a legislative solution that
would appropriate [cost-sharing reduction] payments . . . .”).

App-50
Medicaid Servs., Dep’t of Health & Human Servs.,
Guidance Related to Reconciliation of the CostSharing Reduction Component of Advance Payments
for Benefit Years 2014 and 2015 27 (2016). It made the
payments from “the same account from which the
premium tax credit” advance payments were made—
in other words, from the permanent appropriation
described in 31 U.S.C. § 1324. Letter from Sylvia M.
Burwell, Director of the Office of Mgmt. & Budget, to
Ted Cruz and Michael S. Lee, U.S. Senators 4 (May
21, 2014), http://www.cruz.senate.gov/files/docum
ents/Letters/20140521_ Burwell_Response.pdf.
On November 21, 2014, the United States House
of Representatives (“House”) sued the Obama
administration in the United States District Court for
the District of Columbia (“D.C. district court”) to stop
the
payment
of
cost-sharing
reduction
reimbursements to insurers. See generally U.S. House
of Representatives v. Burwell, No. 1:14-cv-01967-RMC
(D.D.C. filed Nov. 21, 2014). The D.C. district court
ruled for the House, holding:
The Affordable Care Act unambiguously
appropriates money for Section 1401
premium tax credits but not for Section 1402
reimbursements to insurers. Such an
appropriation cannot be inferred. None of
Secretaries’
extra-textual
arguments—
whether based on economics, “unintended”
results, or legislative history—is persuasive.
The Court will enter judgment in favor of the
House of Representatives and enjoin the use
of
unappropriated
monies
to
fund
reimbursements due to insurers under

App-51
Section 1402. The Court will stay its
injunction, however, pending appeal by either
or both parties.
U.S. House of Representatives v. Burwell, 185 F. Supp.
3d 165, 168 (D.D.C. 2016). The Obama administration
appealed the ruling. See generally U.S. House of
Representatives v. Azar (“Azar”), No. 16-5202 (D.C.
Cir. filed July 6, 2016). However, the United States
Court of Appeals for the District of Columbia Circuit
(“D.C. Circuit”) stayed the appeal to allow Presidentelect Donald J. Trump and his future administration
time to determine how to proceed. See Mot. Hold
Briefing Abeyance 1-2, Azar, No. 16-5202 (Nov. 21,
2016); Order, Azar, No. 16- 5202 (Nov. 21, 2016).
The Trump administration continued the
previous administration’s practice of making advance
cost-sharing reduction payments to insurers.
However, on October 11, 2017, the United States
Attorney General sent a letter to the Treasury
Secretary and the Acting Secretary of HHS advising
that “the best interpretation of the law is that the
permanent appropriation for ‘refunding internal
revenue collections,’ 31 U.S.C. § 1324, cannot be used
to fund the [cost-sharing reduction] payments to
insurers authorized by 42 U.S.C. § 18071.” Letter from
Jefferson B. Sessions III, U.S. Attorney General, to
Steven Mnuchin, Sec’y of the Treasury, and Don
Wright, M.D., M.P.H., Acting Sec’y of HHS 1 (Oct. 11,
2017), http://www.hhs.gov/sites/default/files/ csrpayment-memo.pdf. Based on this guidance, the
Acting Secretary of HHS directed, the following day,
that “[cost-sharing reduction] payments to issuers
must stop, effective immediately,” and that such

App-52
“payments are prohibited unless and until a valid
appropriation exists.” Memorandum from Eric
Hargan, Acting Sec’y of HHS, 9 to Seema Verma,
Administrator of the Ctrs. for Medicare & Medicaid
Servs.
(Oct.
12,
2017),
http://www.hhs.gov/
sites/default/files/csr-payment-memo.pdf.
C. Reaction to the Termination of CostSharing Reduction Payments
The Trump administration’s termination of costsharing reduction payments did not come as a surprise
to insurers:
Anticipating that the Administration would
terminate [cost-sharing reduction] payments,
most states began working with the
insurance companies to develop a plan for
how to respond. Because the Affordable Care
Act requires insurance companies to offer
plans with cost-sharing reductions to
customers, the federal government’s failure
to meet its [cost-sharing reduction] payment
obligations meant the insurance companies
would be losing that money. So most of the
states set out to find ways for the insurance
companies to increase premiums for 2018
(with open enrollment beginning in
November 2017) in a fashion that would avoid
harm to consumers. And the states came up
9 Eric Hargan was named Acting Secretary of HHS on October
10, 2017. See Press Release, The White House, President Donald
J. Trump Announces Intent to Nominate Personnel to Key
Administration Posts (Oct. 10, 2017), https://www.whitehouse.
gov/presidentialactions/president-donald-j-trump-announcesintent-nominate-personnel-key-administrationposts-22/.

App-53
with an idea: allow the insurers to make up
the deficiency through premium increases for
silver plans only. In other words, allow a
relatively large premium increase for silver
plans, but no increase for bronze, gold, or
platinum plans.
As a result, in these states, for everyone
between 100% and 400% of the federal
poverty level who wishes to purchase
insurance on the exchanges, the available tax
credits rise substantially. Not just for people
who purchase the silver plans, but for people
who purchase other plans too.
California, 267 F. Supp. 3d at 1134-35 (footnote
omitted). In other words, by raising premiums for
silver-level qualified health plans, the insurers would
obtain more money from the premium tax credit
program, which would help mitigate the loss of the
cost-sharing reduction payments. 10 Accord id. at 1139
(agreeing with the states “that the widespread
Notably, increasing silver-level qualified health plan
premiums would not harm most consumers who qualify for the
premium tax credit because the credit increases as the premium
increases. See California, 267 F. Supp. 3d at 1134 (“[T]he amount
[of the premium tax credit] is based on the cost of the secondcheapest silver plan available on the exchange in your geographic
area, and then adjusted based on your income (that is, based on
where you fall on the spectrum between 100% and 400% of the
federal poverty level). So, if premiums for the second-cheapest
silver plan in your area go up, the amount of your tax credit will
go up by a corresponding amount. See 26 U.S.C. § 36B.”); see also
id. at 1122 (“[M]ost state regulators have devised responses that
give millions of lower-income people better health coverage
options than they would otherwise have had.”).
10

App-54
increase in silver plan premiums will qualify many
people for higher tax credits, and that the increased
federal expenditure for tax credits will be far more
significant than the decreased federal expenditure for
[cost-sharing reduction] payments”). This approach is
commonly referred to as “silver loading,” and many
states appear to have endorsed it, see id. at 1137
(“Even before the Administration announced its
decision, 38 states accounted for the possible
termination of [cost-sharing reduction] payments in
setting their 2018 premium rates. And now that the
announcement has been made, even more states are
adopting [the] strategy [of increasing silver-level plan
premiums to obtain additional premium tax credit
payments].” (footnote omitted)).
D. Other Litigation
While the states and insurers were working on
ways to mitigate the loss of cost-sharing reduction
payments, the parties in the case on appeal at the D.C.
Circuit began discussing that case’s disposition. Joint
Status Report 1-2, Azar, No. 16-5202 (Nov. 30, 2017).
Ultimately, at the request of the parties, the D.C.
Circuit dismissed the appeal, Order, Azar, No. 165202 (May 16, 2018), and the D.C. district court
vacated the portion of its ruling in which it provided
that “reimbursements paid to issuers of qualified
health plans for the cost-sharing reductions mandated
by Section 1402 of the Affordable Care Act, Pub. L.
111-148, are ENJOINED pending an appropriation for
such payments,” Order, Azar, No. 1:14-cv-01967-RMC
(May 18, 2018).
A separate lawsuit was filed by seventeen states
and the District of Columbia in the United States

App-55
District Court for the Northern District of California
(“California district court”) to compel the Trump
administration to continue making the advance costsharing reduction payments to insurers. See generally
California v. Trump, No. 3:17-cv-05895-VC (N.D. Cal.
filed Oct. 13, 2017). The California district court
denied the states’ motion for a preliminary injunction.
California, 267 F. Supp. 3d at 1121-22, 1140.
Eventually, the states requested a stay of the
proceedings or, alternatively, dismissal of the suit
without prejudice, explaining:
[S]taying the proceedings is warranted to
avoid disturbing the status quo given the
general success of the practice commonly
referred to as “silver-loading” which mostly
curbed the harm caused by the federal
government’s unjustified cessation of costsharing reduction (CSR) subsidies mandated
by Section 1402 of the Patient Protection and
Affordable Care Act (ACA). At the same time,
because of the real threat of the federal
government taking action to prohibit silverloading, the Court should retain jurisdiction,
thus allowing the Plaintiff States to
expeditiously seek appropriate remedies from
this Court for the protection of their citizens.
Alternatively, if the Court determines that a
stay is not appropriate at this time, the
Plaintiff States respectfully request that the
Court dismiss the action without prejudice.
Mot. for Order Staying Proceedings or, in the
Alternative, Dismissing Action Without Prejudice 2,
California, No. 3:17-cv-05895-VC (July 16, 2018); cf.

App-56
HHS Notice of Benefit and Payment Parameters for
2020, 84 Fed. Reg. at 283 (“The Administration
supports a legislative solution that would appropriate
CSR payments and end silver loading. In the absence
of Congressional action, we seek comment on ways in
which HHS might address silver loading, for potential
action in future rulemaking applicable not sooner
than plan year 2021.”). The California district court
dismissed the case without prejudice on July 18, 2018.
Order Dismissing Case Without Prejudice, California,
No. 3:17-cv-05895-VC (July 18, 2018).
E. Effect of Cost-Sharing Reduction Payment
Termination on Plaintiff
Plaintiff is a nonprofit corporation that offers
qualified health plans on Texas’s exchange. Janda
Decl. ¶¶ 2-3. It began offering qualified health plans
on the exchange in 2014, and continued to offer such
plans thereafter. Id. ¶ 3. Indeed, for each year,
plaintiff executed a Qualified Health Plan Issuer
Agreement with CMS. Id. Of particular relevance,
plaintiff and CMS executed the agreement for 2017 on
September 21, 2016, id. ¶ 4, and the agreement for
2018 on October 2, 2017, id. ¶ 6. In 2017,
approximately 58% of plaintiff’s insured population—
over 80,000 individuals—received cost-sharing
reductions, and plaintiff continued to reduce the costsharing obligations of its eligible insured population in
2018. Id. ¶¶ 13, 15. Plaintiff began receiving monthly
advance cost-sharing reduction payments in January
2014, id. ¶ 16, and, as with every other insurer
offering qualified health plans on the exchanges,
stopped receiving these payments effective October
12, 2017, id. ¶¶ 17-18. Had the government not ceased

App-57
these payments, plaintiff avers that it would have
received another $11,174,299.10 in 2017, id. ¶ 19, and
even more money in 2018, id. ¶ 20.
F. Procedural History
Plaintiff filed a complaint in this court on January
2, 2018, to recover unpaid risk corridors payments for
2014, 2015, and 2016. 11 It then filed an amended
complaint on February 27, 2018, to add three claims
aimed at recovering the cost-sharing reduction
payments that the government has not made since
September 2017. 12 In the latter claims, plaintiff
asserts that in failing to make the cost-sharing
reduction payments to insurers, the government
violated the statutory and regulatory mandate,
breached the QHPI Agreements, and breached an
Proceedings on the risk corridors claims are currently stayed
pending final, nonappealable judgments in Moda Health Plan,
Inc. v. United States, No. 16-649C, and Land of Lincoln Mutual
Health Insurance Co. v. United States, No. 16-744C.
11

A number of other insurers have filed suit in this court
seeking
to
recover
unpaid
cost-sharing
reduction
reimbursements. See, e.g., Common Ground Healthcare Coop. v.
United States, No. 17-877C (Chief Judge Sweeney); Local
Initiative Health Auth. for L.A. Cty. v. United States, No. 171542C (Judge Wheeler); Me. Cmty. Health Options v. United
States, No. 17-2057C (Chief Judge Sweeney); Sanford Health
Plan v. United States, No. 18-136C (Judge Kaplan); Montana
Health Co-op v. United States, No. 18-143C (Judge Kaplan);
Molina Healthcare of Cal., Inc. v. United States, No. 18-333C
(Judge Wheeler); Health Alliance Med. Plans, Inc. v. United
States, No. 18-334C (Judge Campbell-Smith); Blue Cross & Blue
Shield of Vt. v. United States, No. 18-373C (Judge Horn);
Guidewell Mut. Holding Corp. v. United States, No. 18-1791C
(Judge Griggsby); Harvard Pilgrim Health Care, Inc. v. United
States, No. 18- 1820C (Judge Smith).
12

App-58
implied-infact contract. Plaintiff moves for summary
judgment on the issue of liability and defendant crossmoves to dismiss the complaint. The parties completed
briefing, and after hearing argument on February 14,
2019, the court is prepared to rule. 13
II. STANDARDS OF REVIEW
A. Motions for Summary Judgment
Plaintiff moves for summary judgment pursuant
to Rule 56 of the Rules of the United States Court of
Federal Claims (“RCFC”). Summary judgment is
appropriate when there is no genuine issue of material
fact and the moving party is entitled to a judgment as
a matter of law. RCFC 56(a); Celotex Corp. v. Catrett,
477 U.S. 317, 322 (1986). A fact is material if it “might
affect the outcome of the suit under the governing
law.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (1986). An issue is genuine if it “may reasonably
be resolved in favor of either party.” Id. at 250. Entry
of summary judgment is mandated against a party
who fails to establish “an element essential to that
party’s case, and on which that party will bear the
burden of proof at trial.” Celotex Corp., 477 U.S. at
322.
Statutory
construction
and
contract
The court has had the benefit of full briefing and oral
argument in three cost-sharing reduction cases: Common Ground
Healthcare Cooperative v. United States, No. 17-877C, Maine
Community Health Options v. United States, No. 17-2057C, and
Community Health Choice, Inc. v. United States, No. 18-5C. The
plaintiffs in all three cases allege that the government violated
the cost-sharing reduction statutes and regulations, and the
plaintiffs in two of the cases allege a breach of an implied-in-fact
contract. Thus, in ruling on the parties’ motions in this case, the
court has, when applicable, considered the parties’ arguments in
all three cases.
13

App-59
interpretation “are questions of law amenable to
resolution through summary judgment.” Stathis v.
United States, 120 Fed. Cl. 552, 561 (2015); accord
Varilease Tech. Group, Inc. v. United States, 289 F.3d
795, 798 (Fed. Cir. 2002) (“Contract interpretation is
a question of law generally amenable to summary
judgment.”); Anderson v. United States, 54 Fed. Cl.
620, 629 (2002) (“The plaintiff’s entitlement . . . rests
solely upon interpretation of the cited statute and is
thus amenable to resolution by summary judgment.”),
aff’d, 70 F. App’x 572 (Fed. Cir. 2003) (unpublished
opinion).
B. Motions to Dismiss for Failure to State a
Claim Upon Which Relief Can Be Granted
Defendant cross-moves to dismiss plaintiff’s costsharing reduction claims for failure to state a claim
upon which relief can be granted pursuant to RCFC
12(b)(6). To survive such a motion, a plaintiff must
include in its complaint “enough facts to state a claim
to relief that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). In other words, a
plaintiff must “plead[] factual content that allows the
court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citing Bell
Atl. Corp., 550 U.S. at 556). Indeed, “[t]he issue is not
whether a plaintiff will ultimately prevail but whether
the claimant is entitled to offer evidence to support the
claims.” Scheuer v. Rhodes, 416 U.S. 232, 236 (1974),
overruled on other grounds by Harlow v. Fitzgerald,
457 U.S. 800, 814-19 (1982).

App-60
III. DISCUSSION
As noted above, in seeking to recover the costsharing reduction payments not made by the
government, plaintiff asserts three claims for relief.
The court addresses each in turn.
A. Violation of Statute
Plaintiff first contends that the government’s
failure to make the payments was a violation of the
cost-sharing reduction provisions of the Affordable
Care Act and its implementing regulations. Plaintiff
further contends that Congress’s failure to specifically
appropriate funds for cost-sharing reduction
payments does not suspend or terminate the
government’s obligation to make the payments.
Defendant disagrees, arguing that Congress
expressed its intent that cost-sharing reduction
payments should not be made absent a specific
appropriation for that purpose by not appropriating
funds for cost-sharing reductions in the Affordable
Care Act or thereafter. Consequently, defendant
contends, monetary damages—payable from the
Judgment Fund—are unavailable from this court.
1.

The Government Is Obligated to Make CostSharing Reduction Payments to Plaintiff
Notwithstanding the Absence of a Specific
Appropriation for That Purpose

To determine whether Congress intended the
government to make cost-sharing reduction payments
to insurers, the court first turns to the language of the
Affordable Care Act. See Lamie v. U.S. Tr., 540 U.S.
526, 534 (2004) (“The starting point in discerning
congressional intent is the existing statutory text.”);
see also Conn. Nat’l Bank v. Germain, 503 U.S. 249,

App-61
253-54 (1992) (“[C]ourts must presume that a
legislature says in a statute what it means and means
in a statute what it says there.”). In addition to
evaluating the specific provision of the Affordable
Care Act establishing the cost-sharing reduction
program, the court must read that provision in the
context of the Affordable Care Act as a whole. See King
v. St. Vincent’s Hosp., 502 U.S. 215, 221 (1991)
(following “the cardinal rule that a statute is to be read
as a whole, since the meaning of statutory language,
plain or not, depends on context” (citation omitted));
Crandon v. United States, 494 U.S. 152, 158 (1990)
(“In determining the meaning of the statute, we look
not only to the particular statutory language, but to
the design of the statute as a whole and to its object
and policy.”); Kokoszka v. Belford, 417 U.S. 642, 650
(1974) (“When ‘interpreting a statute, the court will
not look merely to a particular clause in which general
words may be used, but will take in connection with it
the whole statute (or statutes on the same subject) and
the objects and policy of the law, as indicated by its
various provisions, and give to it such a construction
as will carry into execution the will of the
Legislature . . . .’” (quoting Brown v. Duchesne, 60
U.S. 183, 194 (1856))); see also Chevron, U.S.A., Inc. v.
Nat. Res. Def. Council, Inc., 467 U.S. 837, 843 n.9
(1984) (“If a court, employing traditional tools of
statutory construction, ascertains that Congress had
an intention on the precise question at issue, that
intention is the law and must be given effect.”);
Kilpatrick v. Principi, 327 F.3d 1375, 1384 (Fed. Cir.
2003) (“[I]n determining whether Congress has
directly spoken to the point at issue, a court should
attempt to discern congressional intent either from

App-62
the plain language of the statute or, if necessary, by
resort to the applicable tools of statutory
construction[.]”). If congressional intent regarding the
obligation to make cost-sharing reduction payments
can be ascertained from evaluating the text of the
Affordable Care Act, then the court’s inquiry on this
issue is complete. See Conn. Nat’l Bank, 503 U.S. at
254.
The statutory provision governing cost-sharing
reductions sets forth an unambiguous mandate: “the
Secretary [of HHS] shall make periodic and timely
payments” to insurers “equal to the value of the
reductions” made by the insurers. 42 U.S.C.
§ 18071(c)(3)(A); accord Montana Health Co-op v.
United States, 139 Fed. Cl. 213, 218 (2018) 14 (“[T]he
statutory language clearly and unambiguously
imposes an obligation on the Secretary of HHS to
make payments to health insurers that have
implemented cost-sharing reductions on their covered
plans as required by the [Affordable Care Act].”); see
also SAS Inst., Inc. v. Iancu, 138 S. Ct. 1348, 1354
(2018) (“The word ‘shall’ generally imposes a
nondiscretionary duty.”); Gilda Indus., Inc. v. United
States, 622 F.3d 1358, 1364 (Fed. Cir. 2010) (“When a
statute directs that a certain consequence ‘shall’ follow
from specified contingencies, the provision is
mandatory and leaves no room for discretion.”); cf.
Moda Health Plan, Inc. v. United States, 892 F.3d
1311, 1320 (2018) (concluding that similar language in
14 The judge who decided Montana Health Co-op—the
Honorable Elaine D. Kaplan—subsequently issued a
substantively identical ruling in another case. See Samford
Health Plan v. United States, 139 Fed. Cl. 701 (2018).

App-63
section 1342 of the Affordable Care Act—indicating
that the Secretary of HHS “shall establish” a risk
corridors program pursuant to which the Secretary of
HHS “shall pay” risk corridors payments—is
“unambiguously
mandatory”).
Moreover,
the
mandatory payment obligation fits logically within the
statutory scheme established by Congress. The costsharing reduction payments were meant to reimburse
insurers for paying an increased share of their
insureds’ cost-sharing obligations, 42 U.S.C.
§ 18071(a)(2), (c)(3)(A), and the reduction of insureds’
cost-sharing obligations was meant to make obtaining
health care more affordable, see, e.g., id.
§ 18071(c)(1)(A)
(describing
how
cost-sharing
reductions would be achieved by reducing insureds’
out-of-pocket limits). In short, the plain language,
structure, and purpose of the Affordable Care Act
reflect the intent of Congress to require the Secretary
of HHS to make cost-sharing reduction payments to
insurers.
Defendant does not dispute this conclusion.
Rather, it contends that the cost-sharing reduction
payment obligation is unenforceable because Congress
never specifically appropriated funds—either in the
Affordable Care Act or thereafter—to make costsharing reduction payments.
a.

The Lack of Specific Appropriating
Language in the Affordable Care Act

As defendant observes, the Affordable Care Act
does not include any language specifically
appropriating funds for cost-sharing reduction
payments. Defendant also correctly observes that the
Act’s cost-sharing reduction provision lacks any

App-64
appropriating language, while its companion
provision—the premium tax credit—included an
explicit funding mechanism. 15 Compare Affordable
Care Act § 1401(d) (amending the permanent
appropriation set forth in 31 U.S.C. § 1324 to allow for
the payment of the premium tax credit), with id.
§ 1402 (containing no appropriating language).
According to defendant, the absence of any funding
mechanism for cost-sharing reduction payments, and
Congress’s decision to provide a funding mechanism
for premium tax credit payments and not cost-sharing
reduction payments, reflect the intent of Congress,
when enacting the Affordable Care Act, to preclude
liability for cost-sharing reduction payments.
Defendant is mistaken for several reasons.
First, it is well settled that the government can
create a liability without providing for the means to
pay for it. See, e.g., Moda Health Plan, 892 F.3d at
1321 (“[I]t has long been the law that the government
may incur a debt independent of an appropriation to
satisfy that debt, at least in certain circumstances.”);
Collins v. United States, 15 Ct. Cl. 22, 35 (1879) (“[T]he
legal liabilities incurred by the United States
under . . . the laws of Congress . . . may be created
where there is no appropriation of money to meet
them . . . .”). Thus, the absence of a specific
appropriation for cost-sharing reduction payments in
the Affordable Care Act does not, on its own,
extinguish the government’s obligation to make the
payments.
15 Both provisions appear in subpart A of part I of subtitle E of
the Affordable Care Act, which is titled “Premium Tax Credits
and Cost-Sharing Reductions.” 124 Stat. at 213-24.

App-65
Second, that Congress provided a funding
mechanism for premium tax credit payments and not
for cost-sharing reduction payments does not reflect
congressional intent to foreclose liability for the latter.
Defendant relies on the proposition that when
“Congress includes particular language in one section
of a statute but omits it in another section of the same
Act, it is generally presumed that Congress acts
intentionally and purposely in the disparate inclusion
or exclusion.” Russello v. United States, 464 U.S. 16,
23 (1983) (quoting United States v. Wong Kim Bo, 472
F.2d 720, 722 (5th Cir. 1972)); accord Digital Realty
Trust, Inc. v. Somers, 138 S. Ct. 767, 777 (2018). Here,
although Congress may have acted intentionally by
treating the two related provisions differently, 16 it is
difficult to discern what that intent might be. In
addition to the intent inferred by defendant, there are
other reasonable explanations for the disparity. One
possible explanation is that it was a simple matter to
add the premium tax credit to a preexisting
permanent appropriation in the Internal Revenue
Code for the payment of tax credits, whereas no such
permanent appropriation existed that would apply to
cost-sharing reduction payments. Another possible
explanation is that Congress understood that other
funds available to HHS could be used to make the costsharing reduction payments; indeed, the cost-sharing
Alternatively, it is possible that the disparate treatment does
not reflect any intent at all. As the United States Supreme Court
(“Supreme Court”) recognized in King, “[t]he Affordable Care Act
contains more than a few examples of inartful drafting.” 135 S.
Ct. at 2492. Thus, Congress’s failure to include any appropriating
language in the cost-sharing reduction provision may simply
have been an oversight.
16

App-66
reduction provision lacks any language, such as
“subject to the availability of appropriations,”
reflecting Congress’s recognition that appropriations
were unavailable, see Greenlee Cty., Ariz. v. United
States, 487 F.3d 871, 878 (Fed. Cir. 2007) (observing
that “in some instances the statute creating the right
to compensation . . . may restrict the government’s
liability . . . to the amount appropriated by Congress”
with language such as “subject to the availability of
appropriations”). A third possible explanation is that
Congress intended to defer appropriating funds for
cost-sharing reduction payments until 2014, when
insurers began to offer qualified health plans on the
exchanges and incur cost-sharing reduction liabilities.
Because it is unclear which of these explanations—if
any—is correct, the court declines to ascribe any
particular intent to Congress based on Congress’s
disparate treatment of the two provisions.
Third, the court is unpersuaded by defendant’s
related contention that insurers’ ability to increase
premiums for their silver-level qualified health plans
to obtain greater premium tax credit payments, and
thus offset any losses from the government’s
nonpayment
of
cost-sharing
reduction
reimbursements, is evidence that Congress did not
intend to provide a statutory damages remedy for the
government’s failure to make the cost-sharing
reduction payments. Accord Montana Health Co-op,
139 Fed. Cl. at 221. Defendant does not identify any
statutory provision permitting the government to use
premium tax credit payments to offset its cost-sharing
reduction payment obligation (even if insurers
intentionally increased premiums to obtain larger
premium tax credit payments to make up for lost cost-

App-67
sharing reduction payments). Nor does defendant
identify any evidence in the Affordable Care Act’s
legislative history suggesting that Congress intended
to limit its liability to make cost-sharing reduction
payments by increasing its premium tax credit
payments. That insurers and states discovered a way
to mitigate the insurers’ losses from the government’s
failure to make cost-sharing reduction payments does
not mean that Congress intended this result.
Moreover, defendant’s concern that Congress could
not have intended to allow a double recovery of costsharing reduction payments is not well taken. The
increased amount of premium tax credit payments
that insurers receive from increasing silver-level plan
premiums are still premium tax credit payments, not
cost-sharing reduction payments. Indeed, under the
statutory scheme as it exists, even if the government
were making the required cost-sharing reduction
payments, insurers could (to the extent permitted by
their state insurance regulators) increase their silverlevel plan premiums; in such circumstances, it could
not credibly be argued that the insurers were
obtaining a double recovery of cost-sharing reduction
payments. While the premium tax credit and costsharing reduction provisions were enacted to reduce
an individual’s health-care-related costs (to obtain
insurance and to obtain health care, respectively),
they are not substitutes for each other. 17
17 The California district court’s decision in California v. Trump
does not assist defendant. Although the court described how
insurers are coping with the lost cost-sharing reduction
payments by raising silver-level qualified health plan premiums
to obtain larger premium tax credit payments, nowhere in its
decision does the court hold that the government’s liability for

App-68
Fourth, it would defy common sense to conclude
that Congress obligated the Secretary of HHS to
reimburse insurers for their mandatory cost-sharing
reductions without intending to actually reimburse
the insurers. If Congress did not intend to create such
an obligation, it would not have included any provision
for reimbursing cost-sharing reductions in the Act.
In sum, Congress’s failure to include any
appropriating language in the Affordable Care Act
does not reflect congressional intent to preclude
liability for cost-sharing reduction payments. This
conclusion, however, does not end the court’s analysis
because defendant also argues that Congress’s
subsequent failure to appropriate funds to make costsharing reduction payments through annual
appropriations acts or otherwise signals congressional
intent to foreclose liability.
b.

The Lack of Specific Appropriating
Language in Subsequent
Appropriations Acts

cost-sharing reduction payments is lessened or eliminated by the
government making larger premium tax credit payments to
insurers. Indeed, the court very clearly emphasized that the
premium tax credit program and the cost-sharing reduction
program were separate and distinct. See California, 267 F. Supp.
3d at 1131. Moreover, the court’s discussion of the approach
taken by insurers to obtain increased premium tax credit
payments was included within its analysis of “whether the
absence of a preliminary injunction would harm the public and
impede the objectives of health care reform.” Id. at 1133. In other
words, the court’s focus was on how the increase in premiums
would affect the public, and not on the government’s obligation to
make payments to insurers.

App-69
The Appropriations Clause of the United States
Constitution provides that “[n]o Money shall be drawn
from the Treasury, but in Consequence of
Appropriations made by Law[.]” U.S. Const. art. I, § 9,
cl. 7. The statute commonly referred to as the
Antideficiency Act further provides that “[a]n officer
or employee of the United States Government . . . may
not . . . make or authorize an expenditure or
obligation exceeding an amount available in an
appropriation or fund for the expenditure or
obligation[.]” 31 U.S.C. § 1341(a)(1)(A). These
directives are unambiguous: disbursements from the
United States Treasury require an appropriation from
Congress. However, “the mere failure of Congress to
appropriate funds, without further words modifying or
repealing, expressly or by clear implication, the
substantive law, does not in and of itself defeat a
Government obligation created by statute.” N.Y.
Airways, Inc. v. United States, 369 F.2d 743, 748 (Ct.
Cl. 1966) (per curiam), cited in Moda Health Plan, 892
F.3d at 1321-22; cf. Moda Health Plan, 892 F.3d at
1322 (recognizing that the Supreme Court “rejected
the notion that the Anti-Deficiency Act’s requirements
somehow defeat the obligations of the government”).
Defendant does not contend that any
appropriations acts—or, indeed, any statutes at all—
enacted after the Affordable Care Act contain
language that “expressly or by clear implication”
modifies or repeals the Act’s cost-sharing reduction
payment obligation. Rather, it relies on Congress’s
complete failure to appropriate funds for cost-sharing
reduction payments as evidence that Congress
intended to suspend the cost-sharing reduction
payment obligation. Defendant’s reliance is

App-70
misplaced. None of the appropriations acts enacted
after the Affordable Care Act expressly or impliedly
disavowed the payment obligation; they were
completely silent on the issue. Thus, this case is
distinguishable from those relied upon by defendant—
Mitchell v. United States, 109 U.S. 146 (1883),
Dickerson v. United States, 310 U.S. 554 (1940), and
United States v. Will, 449 U.S. 200 (1980)—that
concerned situations in which Congress made
affirmative statements in appropriations acts that
reflected an intent to suspend the underlying
substantive law.
Here, Congress has had ample opportunity to
modify, suspend, or eliminate the statutory obligation
to make cost-sharing reduction payments but has not
done so. Congress’s inaction stands in stark contrast
to its treatment of the Affordable Care Act’s risk
corridors program. Under that program, which was
established in section 1342 of the Affordable Care Act,
the Secretary of HHS was required to make annual
payments to insurers pursuant to a statutory formula.
42 U.S.C. § 18062; Moda Health Plan, 892 F.3d at
1320. However, Congress included riders in two
appropriations acts enacted after the Affordable Care
Act that prohibited appropriated funds from being
used to make risk corridors payments. See
Consolidated Appropriations Act, 2016, Pub. L.
No. 114-113, div. H, tit. II, § 225, 129 Stat. 2242, 2624;
Consolidated and Further Continuing Appropriations
Act, 2015, Pub. L. No. 113-235, div. G, tit. II, § 227,
128 Stat. 2130, 2491. These riders have been
interpreted to suspend the government’s obligation to
make risk corridors payments from appropriated
funds. Moda Health Plan, 892 F.3d at 1322-29.

App-71
Congress has never enacted any such appropriations
riders with respect to cost-sharing reductions
payments, even when cost-sharing reduction
payments were being made—during both the Obama
and Trump administrations—from the permanent
appropriation for tax credits described in 31 U.S.C.
§ 1324. Thus, the congressional inaction in this case
may be interpreted, contrary to defendant’s
contention, as a decision not to suspend or terminate
the government’s cost-sharing reduction payment
obligation. 18
In short, Congress’s failure to appropriate funds
to make cost-sharing reduction payments through
annual appropriations acts or otherwise does not
reflect a congressional intent to foreclose, either
temporarily or permanently, the government’s
liability to make those payments.
2.

Plaintiff Can Recover Unpaid Cost-Sharing
Reduction Reimbursements in the United
States Court of Federal Claims

Plaintiff asserts that because the government has
breached its statutory obligation to make cost-sharing
reduction payments, recovery is available in the
United States Court of Federal Claims (“Court of
The court recognizes that drawing inferences from
congressional inaction can be highly problematic. See Pension
Benefit Guar. Corp. v. LTV Corp., 496 U.S. 633, 650 (1990)
(“Congressional inaction lacks ‘persuasive significance’ because
‘several equally tenable inferences’ may be drawn from such
inaction . . . .” (quoting United States v. Wise, 370 U.S. 405, 411
(1962)); Schneidewind v. ANR Pipeline Co., 485 U.S. 293, 306
(1988) (“This Court generally is reluctant to draw inferences from
Congress’ failure to act.”).
18

App-72
Federal Claims”) under the Tucker Act. The Tucker
Act, the principal statute governing the jurisdiction of
this court, waives sovereign immunity for claims
against the United States, not sounding in tort, that
are founded upon the United States Constitution, a
federal statute or regulation, or an express or implied
contract with the United States. 28 U.S.C. § 1491(a)(1)
(2012). It is merely a jurisdictional statute and “does
not create any substantive right enforceable against
the United States for money damages.” United States
v. Testan, 424 U.S. 392, 398 (1976). Instead, the
substantive right must appear in another source of
law, such as a “money-mandating constitutional
provision, statute or regulation that has been violated,
or an express or implied contract with the United
States.” Loveladies Harbor, Inc. v. United States, 27
F.3d 1545, 1554 (Fed. Cir. 1994) (en banc). It is well
accepted that a statute “is money-mandating for
jurisdictional purposes if it ‘can fairly be interpreted
as mandating compensation for damages sustained as
a result of the breach of the duties [it] impose[s].’”
Fisher v. United States, 402 F.3d 1167, 1173 (Fed. Cir.
2005) (panel portion) (quoting United States v.
Mitchell, 463 U.S. 206, 219 (1983)). Under this rule,
“[i]t is enough . . . that a statute creating a Tucker Act
right be reasonably amenable to the reading that it
mandates a right of recovery in damages. While the
premise to a Tucker Act claim will not be ‘lightly
inferred,’ a fair inference will do.” United States v.
White Mountain Apache Tribe, 537 U.S. 465, 473
(2003) (citation omitted).
The cost-sharing reduction provision of the
Affordable Care Act, codified at 42 U.S.C. § 18071, is
a money-mandating statute for Tucker Act purposes:

App-73
the Secretary of HHS is required to reimburse
insurers for their mandatory cost-sharing reductions,
42 U.S.C. § 18071(c)(3)(A), and his failure to make
such payments is a violation of that duty that deprives
the insurers of money to which they are statutorily
entitled. Accord Montana Health Co-op, 139 Fed. Cl.
at 217; see also Moda Health Plan, 892 F.3d at 1320
n.2 (holding that the statute providing for risk
corridors payments “is money-mandating for
jurisdictional purposes”). Consequently, an insurer
that establishes that the government failed to make
the cost-sharing reduction payments to which the
insurer was entitled can recover the amount due in
this court. 19
Defendant appears to contend that for plaintiffs to recover
under a money-mandating statute, they must separately
establish that the statute authorizes a damages remedy for its
violation. Defendant is incorrect. Although some moneymandating statutes include a separate provision authorizing a
damages remedy, see, e.g., 41 U.S.C. § 7104(b) (2012) (allowing
contractors to bring claims arising under the Contract Disputes
Act of 1978 in the Court of Federal Claims), other moneymandating statutes pursuant to which the Court of Federal
Claims can enter judgment do not, see, e.g., 5 U.S.C. § 5942 (2012)
(governing federal employees’ entitlement to a remote duty
allowance); 37 U.S.C. § 204 (2012) (governing military service
members’ entitlement to basic pay). Indeed, “[t]o the extent that
the Government would demand an explicit provision for money
damages to support every claim that might be brought under the
Tucker Act, it would substitute a plain and explicit statement
standard for the less demanding requirement of fair inference
that the law was meant to provide a damages remedy for breach
of a duty.” White Mountain Apache Tribe, 537 U.S. at 477; accord
Fisher, 402 F.3d at 1173 (en banc portion) (“[T]he determination
that the source is money-mandating shall be determinative both
as to the question of the court’s jurisdiction and thereafter as to
19

App-74
Moreover, the lack of a specific appropriation for
cost-sharing reduction payments does not preclude
such a recovery. Appropriations merely constrain
government officials’ ability to obligate or disburse
funds. See Moda Health Plan, 892 F.3d at 1322 (“The
Anti-Deficiency Act simply constrains government
officials. . . . Budget authority is not necessary to
create an obligation of the government; it is a means
by which an officer is afforded that authority.”); Ferris
v. United States, 27 Ct. Cl. 542, 546 (1892) (“An
appropriation per se merely imposes limitations upon
the Government’s own agents; it is a definite amount
of money intrusted to them for distribution; but its
insufficiency does not pay the Government’s debts, nor
cancel its obligations, nor defeat the rights of other
parties.”). Thus, the lack of an appropriation, standing
alone, does not constrain the court’s ability to
entertain a claim that the government has not
discharged the underlying statutory obligation or to
enter judgment for the plaintiff on that claim. See
Slattery v. United States, 635 F.3d 1298, 1321 (Fed.
Cir. 2011) (en banc) (“[T]he jurisdictional foundation
of the Tucker Act is not limited by the appropriation
status of the agency’s funds or the source of funds by
which any judgment may be paid.”); N.Y. Airways, 369
F.2d at 752 (“[T]he failure of Congress or an agency to
appropriate or make available sufficient funds does
the question of whether, on the merits, plaintiff has a moneymandating source on which to base his cause of action.”);
Montana Health Co-op, 139 Fed. Cl. at 217 n.5 (“Plaintiffs have
never been required to make some separate showing that the
money-mandating statute that establishes this court’s
jurisdiction over their monetary claims also grants them an
express (or implied) cause of action for damages.”).

App-75
not repudiate the obligation; it merely bars the
accounting agents of the Government from disbursing
funds and forces the carrier to a recovery in the Court
of Claims.”); Collins, 15 Ct. Cl. at 35 (remarking that
a legal liability “incurred by the United States
under . . . the laws of Congress,” such as “[t]he
compensation to which public officers are legally
entitled . . . ,
exists
independently
of
the
appropriation, and may be enforced by proceedings in
this court”).
In fact, judgments of this court are payable from
the Judgment Fund, see 31 U.S.C. § 1304(a)(3)(A),
which “is a permanent, indefinite appropriation . . .
available to pay many judicially and administratively
ordered monetary awards against the United States,”
31 C.F.R. § 256.1 (2016); accord Bath Iron Works Corp.
v. United States, 20 F.3d 1567, 1583 (Fed. Cir. 1994)
(stating that 31 U.S.C. § 1304 “was intended to
establish a central, government-wide judgment fund
from which judicial tribunals administering or
ordering judgments, awards, or settlements may order
payments without being constrained by concerns of
whether adequate funds existed at the agency level to
satisfy the judgment”). Indeed, as applicable here,
“funds may be paid out [of the Judgment Fund] only
on the basis of a judgment based on a substantive
right to compensation based on the express terms of a
specific statute.” Office of Pers. Mgmt. v. Richmond,
496 U.S. 414, 432 (1990); accord Moda Health Plan,
892 F.3d at 1326 (“[A]ccess to the Judgment Fund
presupposes liability.”); cf. 31 U.S.C. § 1304(a)(1)
(indicating that the Judgment Fund is available when
“payment is not otherwise provided for”). Because
plaintiff’s claim arises from a statute mandating the

App-76
payment of money damages in the event of its
violation, the Judgment Fund is available to pay a
judgment entered by the court on that claim. 20

Defendant acknowledged this possibility in other litigation.
See Defs.’ Mem. Supp. Mot. Summ. J. 20, Burwell, 185 F. Supp.
3d at 165 (No. 1:14-cv-01967-RMC) (“The [Affordable Care] Act
requires the government to pay cost-sharing reductions to
issuers. The absence of an appropriation would not prevent the
insurers from seeking to enforce that statutory right through
litigation. Under the Tucker Act, a plaintiff may bring suit
against the United States in the Court of Federal Claims to
obtain monetary payments based on statutes that impose certain
types of payment obligations on the government. If the plaintiff
is successful, it can receive the amount to which it is entitled from
the permanent appropriation Congress has made in the
Judgment Fund. The mere absence of a more specific
appropriation is not necessarily a defense to recovery from that
Fund.” (citations omitted)); Defs.’ Mem. Opp’n Pl.’s Mot. Summ.
J. 12-13, Burwell, 185 F. Supp. 3d at 165 (No. 1:14-cv-01967RMC) (“Indeed, had Congress not permanently funded the costsharing reductions, it would have exposed the government to
litigation by insurers, who could bring damages actions under the
Tucker Act premised on the government’s failure to make the
mandatory cost-sharing reduction payments that the Act
requires.”); Defs.’ Reply Mem. Supp. Mot. Summ. J. 9, Burwell,
185 F. Supp. 3d at 165 (No. 1:14-cv-01967-RMC) (“[T]he House’s
interpretation of the [Affordable Care Act]—under which the Act
would require the government to make the cost-sharing
payments but provide no appropriation for doing so directly—
would invite potentially costly lawsuits under the Tucker Act.
The House asserts that insurers could not prevail in such suits
‘[a]bsent a valid appropriation.’ But courts have held that the
absence of an appropriation does not necessarily preclude
recovery from the Judgment Fund in a Tucker Act suit. The
House does not explain how, given this precedent, the
government could avoid Tucker Act litigation by insurers in the
wake of a ruling that the ACA did not permanently fund the cost20

App-77
3.

Plaintiff Is Entitled to Recover Unpaid
Cost-Sharing Reduction Reimbursements

Plaintiff seeks to recover the cost-sharing
reduction payments that it has not received since the
government decided to stop making them in October
2017. As noted above, plaintiff has established that
the government is obligated to reimburse it for its costsharing reductions pursuant to 42 U.S.C.
§ 18071(c)(3)(A) and that the government stopped
making such reimbursements in October 2017.
Accordingly, at a minimum, it is entitled to recover the
cost-sharing reduction payments that the government
did not make for 2017.
With respect to 2018, defendant contends—as
discussed above, albeit in the course of arguing that
the structure of the Affordable Care Act reflects a
congressional intent to preclude cost-sharing
reduction payments absent an appropriation for that
purpose—that plaintiff’s ability to increase the
premiums for its silver-level qualified health plans to
obtain greater premium tax credit payments
precludes recovery under the Act’s cost-sharing
reduction provision. Specifically, defendant asserts
that the statutory scheme enacted by Congress
permits insurers to make up any lost cost-sharing
reduction payments by increasing silver-level plan
premiums, which would prevent monetary injury to
insurers. Defendant also expresses concern that
allowing insurers to both obtain greater premium tax
credits and obtain a judgment for their lost costsharing reduction payments that the Act directs the government
to make.” (citations omitted)).

App-78
sharing reduction payments would provide an
unwarranted windfall for insurers. As noted above,
the court is not convinced by defendant’s arguments.
Accordingly, it finds that plaintiff may recover the
cost-sharing reduction payments that the government
did not make for 2018.
B. Breach of an Express Contract
In addition to alleging that the government
violated its statutory obligation to make cost-sharing
reduction payments, plaintiff asserts that the
government’s failure to make such payments amounts
to a breach of the QHPI Agreements. Specifically,
plaintiff contends that the government was obligated
to make cost-sharing reduction payments pursuant to
the following provision, set forth under the heading
“CMS Obligations”: “As part of a monthly payments
and collections reconciliation process, CMS will recoup
or net payments due to [plaintiff] against amounts
owed to CMS by [plaintiff] in relation to offering of
[Qualified Health Plans] . . . including the . . . advance
payments
of
[Cost-Sharing
Reductions] . . . .”
Agreements 6. That this provision obligates CMS to
make monthly cost-sharing reduction payments is
buttressed, plaintiff contends, by the agreements’
recitals, which declare that “[i]t is anticipated that
periodic . . . advance payments of [Cost-Sharing
Reductions] . . . will be due between CMS and
[plaintiff]” and that “[plaintiff] and CMS are entering
into this Agreement to memorialize the duties and
obligations of the parties . . . .” Id. at 1. Plaintiff
argues that because CMS failed to make the monthly
cost-sharing reduction payments after October 2017,

App-79
it breached the QHPI Agreements, causing plaintiff
damages.
“To recover for breach of contract, a party must
allege and establish: (1) a valid contract between the
parties, (2) an obligation or duty arising out of the
contract, (3) a breach of that duty, and (4) damages
caused by the breach.” San Carlos Irrigation &
Drainage Dist. v. United States, 877 F.2d 957, 959
(Fed. Cir. 1989); accord Trauma Serv. Grp. v. United
States, 104 F.3d 1321, 1325 (Fed. Cir. 1997) (“To
prevail, [plaintiff] must allege facts showing both the
formation of an express contract and its breach.”).
Defendant does not dispute that the QHPI
Agreements are valid contracts between plaintiff and
CMS. Rather, it argues that plaintiff has failed to
establish that the QHPI Agreements create an
obligation for CMS to make monthly cost-sharing
reduction payments. Specifically, with respect to the
provision set forth under the “CMS Obligations”
heading, defendant asserts that the provision merely
requires CMS to “recoup or net” cost-sharing reduction
payments as part of a reconciliation process and does
not require CMS to make monthly advance costsharing reduction payments to insurers. And, with
respect to the recitals identified by plaintiff, defendant
asserts that such recitals are merely statements of
intention, not enforceable promises. Defendant is
correct on both points.
Turning first to the provision set forth under the
“CMS Obligations” heading, the court is guided by the
principles of contract interpretation, namely: “The
interpretation of a contract begins with the language
of the written agreement,” Agility Pub. Warehousing

App-80
Co. KSCP v. Mattis, 852 F.3d 1370, 1380 (Fed. Cir.
2017), and if “the contract’s language is unambiguous
it must be given its ‘plain and ordinary’ meaning,” Nw.
Title Agency, Inc. v. United States, 855 F.3d 1344, 1347
(Fed. Cir. 2017) (quoting Coast Fed. Bank, FSB v.
United States, 323 F.3d 1035, 1040 (Fed. Cir. 2003) (en
banc)). The provision at issue, by its plain language,
requires CMS, as part of a monthly reconciliation
process, to make payments to insurers that
underestimated their cost-sharing obligations and
collect payments from insurers who overestimated
their cost-sharing obligations. Indeed, CMS could not
“recoup or net payments” to an insurer unless the
government had already made an advance costsharing reduction payment to the insurer. That
separate obligation to make advance cost-sharing
reduction payments in the first instance is not set
forth in the QHPI Agreements.
The QHPI Agreements’ recitals also do not assist
plaintiff. A recital is “[a] preliminary statement in a
contract . . . explaining the reasons for entering into it
or the background of the transaction, or showing the
existence of particular facts,” and often “begins with
the word whereas.” Recital, Black’s Law Dictionary
(10th ed. 2014). Recitals “generally are not considered
‘contractual’ and cannot be permitted to control the
express provisions of the contract.” KMS Fusion, Inc.
v. United States, 36 Fed. Cl. 68, 77 (1996), aff’d, 108
F.3d 1393 (Fed. Cir. 1997) (unpublished table
decision); accord Barsebäck Kraft AB v. United States,
121 F.3d 1475, 1481 (Fed. Cir. 1997) (concluding that
two recital clauses in the contracts at issue—one
providing that the federal agency “intends to serve”
and the other providing that the federal agency

App-81
“desires to operate”—”facially . . . express only desires,
not binding commitments”); see also Nat’l By-Prod.,
Inc. v. United States, 405 F.2d 1256, 1263 (Ct. Cl.
1969) (“Before a representation can be contractually
binding, it must be in the form of a promise or
undertaking. . . and not a mere statement of intention,
opinion, or prediction.”); Restatement (Second) of
Contracts § 2 cmt. e (Am. Law Inst. 1981) (“Even if a
present intention is manifested, the reservation of an
option to change that intention means that there can
be no promisee who is justified in an expectation of
performance.”). However, they can “be read in
conjunction with the operative portions of a contract
in order to ascertain the intention of the parties.” KMS
Fusion, 36 Fed. Cl. at 77.
The first recital relied upon by plaintiff indicates
that it was “anticipated that periodic . . . advance
payments of [Cost-Sharing Reductions] . . . will be due
between CMS and [plaintiff].” Agreements 6. This
statement is not a promise to make advanced costsharing reduction payments but merely an expression
that such payments were expected. Indeed, it forms
the factual predicate for the provision in the QHPI
Agreements requiring CMS, as part of a monthly
reconciliation process, to make payments to insurers
that underestimated their cost-sharing obligations
and
collect
payments
from
insurers
who
overestimated their cost-sharing obligations. The
second recital relied upon by plaintiff—that plaintiff
and CMS were “entering into this Agreement to
memorialize the duties and obligations of the parties,”
id. at 1, merely indicates the purpose of the QHPI
Agreements, which does not include obligating CMS to

App-82
make monthly
payments.

advance

cost-sharing

reduction

In sum, plaintiff has not established that the
QHPI Agreements obligated the government to make
cost-sharing reduction payments. Thus, its claim for
breach of an express contract must be dismissed.
C. Breach of an Implied-in-Fact Contract
Finally, plaintiff alleges that the government’s
failure to make cost-sharing reduction payments
amounts to a breach of an implied-in-fact contract. “An
agreement implied in fact is ‘founded upon a meeting
of minds, which, although not embodied in an express
contract, is inferred, as a fact, from conduct of the
parties showing, in the light of the surrounding
circumstances, their tacit understanding.’” Hercules,
Inc. v. United States, 516 U.S. 417, 424 (1996) (quoting
Balt. & Ohio R. Co. v. United States, 261 U.S. 592, 597
(1923)). To establish the existence of an implied-infact contract with the United States, a plaintiff must
demonstrate “(1) mutuality of intent to contract,
(2) consideration, (3) lack of ambiguity in offer and
acceptance, and (4) authority on the part of the
government agent entering the contract.” Suess v.
United States, 535 F.3d 1348, 1359 (Fed. Cir. 2008);
accord Trauma Serv. Grp., 104 F.3d at 1326. Here,
plaintiff generally alleges that the promise of costsharing reduction payments set forth in 42 U.S.C.
§ 18071(c)(3)(A) induced it to offer qualified health
plans on the exchange, and that by offering such
plans, it accepted the government’s offer. In response,
defendant argues that plaintiff has not established the
existence of a valid implied-in-fact contract with the
government for three reasons: the Affordable Care Act

App-83
did not create an implied-in-fact contract to make costsharing reduction payments, HHS lacks the authority
to enter into a contract to make cost-sharing reduction
payments, and the QHPI Agreements preclude the
existence of an implied-in-fact contract to make costsharing reduction payments.
The court first addresses plaintiff’s contention
that 42 U.S.C. § 18071(c)(3)(A) is an offer to make costsharing reduction payments to insurers that offered
qualified health plans on the exchanges. The Supreme
Court has provided the following guidance:
[A]bsent some clear indication that the
legislature
intends
to
bind
itself
contractually, the presumption is that “a law
is not intended to create private contractual
or vested rights but merely declares a policy
to be pursued until the legislature shall
ordain otherwise.” This well-established
presumption is grounded in the elementary
proposition that the principal function of a
legislature is not to make contracts, but to
make laws that establish the policy of the
state. Policies, unlike contracts, are
inherently subject to revision and repeal, and
to construe laws as contracts when the
obligation is not clearly and unequivocally
expressed would be to limit drastically the
essential powers of a legislative body. . . .
Thus, the party asserting the creation of a
contract must overcome this well-founded
presumption, and we proceed cautiously both
in identifying a contract within the language

App-84
of a regulatory statute and in defining the
contours of any contractual obligation.
Nat’l R.R. Passenger Corp. v. Atchison, Topeka &
Santa Fe Ry. Co., 470 U.S. 451, 465-66 (1985)
(citations omitted) (quoting Dodge v. Bd. of Educ., 302
U.S. 74, 79 (1937)); accord Moda Health Plan, 892
F.3d at 1329; Brooks v. Dunlop Mfg. Inc., 706 F.3d 624,
630-31 (Fed. Cir. 2012).
To determine whether 42 U.S.C. § 18071(c)(3)(A)
“gives rise to a contractual obligation, ‘it is of first
importance to examine the language of the statute.’”
Nat’l R.R. Passenger Corp., 470 U.S. at 466 (quoting
Dodge, 302 U.S. at 78); accord Brooks, 706 F.3d at 631.
Plaintiff does not, and cannot, contend that the statute
alone contains language manifesting an intent to
contract. Rather, it asserts that the combination of the
statute, the implementing regulations, and the
government’s conduct in making cost-sharing
reduction payments until October 2017 reflects the
parties’ intent to contract. In support of its position,
plaintiff relies primarily on Radium Mines, Inc. v.
United States, 153 F. Supp. 403 (Ct. Cl. 1957). In that
case, the United States Atomic Energy Commission
issued a regulation titled “Ten Year Guaranteed
Minimum Price,” which provided:
To stimulate domestic production of uranium
and in the interest of the common defense and
security the United States Atomic Energy
Commission
hereby
establishes
the
guaranteed minimum prices specified in
paragraph (b) of this section, for the delivery
to the Commission, in accordance with the
terms of this section during the ten calendar

App-85
years following its effective date . . . , of
domestic refined uranium, high-grade
uranium-bearing ores and mechanical
concentrates, in not less than the quantity
and grade specified in paragraph (e) of this
section.
Id. at 404 (quoting 10 C.F.R. § 60.1(a) (1949)). The
court rejected the defendant’s contention that the
regulation was “a mere invitation to the industry to
make offers to the Government” and instead agreed
with the plaintiff that the regulation “was an offer,
which ripened into a contract when it was accepted by
the plaintiff’s putting itself in a position to supply the
ore or the refined uranium described in it.” Id. at 405.
The argument raised by plaintiff here is similar to
the one advanced by the plaintiff in Moda Health Plan
with respect to the risk corridors program. The risk
corridors program was one of three programs
established in the Affordable Care Act to mitigate the
risk faced by insurers “and discourage insurers from
setting higher premiums to offset that risk,” Moda
Health Plan, 892 F.3d at 1314, pursuant to which the
Secretary of HHS was required to make annual
payments to insurers in accordance with a statutory
formula, id. at 1320; 42 U.S.C. § 18062. The United
States Court of Appeals for the Federal Circuit
concluded in Moda Health Plan that “the overall
scheme of the risk corridors program lacks the
trappings of a contractual arrangement that drove the
result in Radium Mines,” explaining:
[In Radium Mines], the government made a
“guarantee,” it invited uranium dealers to
make an “offer,” and it promised to “offer a

App-86
form of contract” setting forth “terms” of
acceptance. Not so here.
The risk corridors program is an incentive
program designed to encourage the provision
of affordable health care to third parties
without a risk premium to account for the
unreliability of data relating to participation
of the exchanges—not the traditional quid pro
quo contemplated in Radium Mines. Indeed,
an insurer that included that risk premium,
but nevertheless suffered losses for a benefit
year as calculated by the statutory and
regulatory formulas would still be entitled to
seek risk corridors payments.
892 F.3d at 1330 (citations omitted). It further
observed that the dispute in Radium Mines was
distinguishable:
[T]he parties in Radium Mines, one of which
was the government, never disputed that the
government intended to form some
contractual relationship at some time
throughout the exchange. The only question
there
was
whether
the
regulations
themselves constituted an offer, or merely an
invitation to make offers. Radium Mines is
only precedent for what it decided.
Id. Accordingly, it concluded that “no statement by the
government evinced an intention to form a contract”
to make risk corridors payments, and that “[t]he
statute, its regulations, and HHS’s conduct all simply
worked towards crafting an incentive program.” Id.
The risk corridors program differs from the costsharing reduction program in one significant manner:

App-87
in the risk corridors program, insurers receive
payments as an incentive to lower their premiums,
while in the cost-sharing reduction program, insurers
are reimbursed by the government for cost-sharing
reductions that they are statutorily required to make.
In other words, the cost-sharing reduction program is
less of an incentive program and more of a quid pro
quo. Accordingly, that aspect of Moda Health Plan’s
analysis is inapplicable in this case. 21
In fact, although 42 U.S.C. § 18071(c)(3)(A) and
its implementing regulation (45 C.F.R. § 156.430) do
not include language traditionally associated with
contracting,
such
as
“offer,”
“acceptance,”
“consideration,” or “contract,” the parties’ intent to
enter into a contractual relationship can be implied
from the quid pro quo nature of the cost-sharing
reduction program, plaintiff’s offering of qualified
health plans on the exchange with the mandated costsharing
reductions,
and
the
government’s
reimbursement of plaintiff’s cost-sharing reductions
from January 2014, when the payments first became
due, until October 2017. Accord Aycock- Lindsey Corp.
v. United States, 171 F.2d 518, 521 (5th Cir. 1948)
(holding that when the head of the pertinent agency
“published bulletins and promulgated rules providing
for the payment of subsidies to those . . . who accepted
the offer by voluntarily coming under, and complying
with, the [relevant] Act, there was revealed the
21 Nevertheless, Moda Health Plan precludes the court from
relying on Radium Mines because, unlike in Radium Mines, the
parties in this case dispute whether the government intended to
form a contractual relationship for the reimbursement of
insurers’ cost-sharing reductions.

App-88
traditional essentials of a contract, namely, an offer
and an acceptance, to the extent that we should
hesitate to hold that there was not at least an implied
contract to pay subsidies,” and further holding that
“[i]n view of the numerous requirements for the
[plaintiff] to put himself in position to receive the
payments, we regard the subsidies not as gratuities
but as compensatory in nature”), cited in Army & Air
Force Exch. Serv. v. Sheehan, 456 U.S. 728, 740 n.11
(1982) (identifying Aycock-Lindsey as a decision in
which a contract was “inferred from regulations
promising payment”). In other words, the government
offered to reimburse insurers for their mandated costsharing reductions, plaintiff accepted that offer by
offering the qualified health plans with reduced costsharing obligations, and consideration was exchanged
(plaintiff supplied qualified health plans that helped
the government reduce the number of uninsured
individuals, and the government made cost-sharing
reduction payments to plaintiff). 22
Moreover, contrary to defendant’s contention, the
Secretary of HHS and his delegate, the Administrator
of CMS, possessed the authority to enter into a
contract with insurers to make cost-sharing reduction
payments. Implied-in-fact contracts with the United
States can only be made by “an authorized agent of the
government.” Trauma Serv. Grp., 104 F.3d at 1326;
accord Kania v. United States, 650 F.2d 264, 268 (Ct.
Cl. 1981) (“The claimant for money damages for
breach of an express or implied in fact contract must
show that the officer who supposedly made the
22 Defendant does not contend that there was a lack of
consideration.

App-89
contract had authority to obligate appropriated
funds.”). Specifically, “the Government representative
‘whose conduct is relied upon must have actual
authority to bind the government in contract.’” City of
El Centro v. United States, 922 F.2d 816, 820 (Fed. Cir.
1990) (quoting Juda v. United States, 6 Cl. Ct. 441,
452 (1984)). Actual authority may be express or
implied. See Salles v. United States, 156 F.3d 1383,
1384 (Fed. Cir. 1998); H. Landau & Co. v. United
States, 886 F.2d 322, 324 (Fed. Cir. 1989). “Authority
to bind the [g]overnment is generally implied when
such authority is considered to be an integral part of
the duties assigned to a [g]overnment employee.” H.
Landau & Co., 886 F.2d at 324 (quoting John Cibinic,
Jr. & Ralph C. Nash, Jr., Formation of Government
Contracts 43 (1982)) (alteration in original); see also
United States v. Winstar Corp., 518 U.S. 839, 890 n.36
(1996) (“The authority of the executive to use contracts
in carrying out authorized programs is . . . generally
assumed in the absence of express statutory
prohibitions or limitations” (quoting 1 Ralph C. Nash,
Jr.& John Cibinic, Jr., Federal Procurement Law 5 (3d
ed. 1977))).
There can be no doubt that making cost-sharing
reduction payments is an integral part of the duties
assigned to the Secretary of HHS because the
Secretary of HHS is required to make such payments
pursuant to 42 U.S.C. § 18071(c)(3)(A). Defendant
contends, however, that in accordance with the
Antideficiency Act, the Secretary of HHS lacks actual
authority to contract for the reimbursement for costsharing reductions. The court is not persuaded. The
Antideficiency Act provides that a government “officer
or employee . . . may not . . . involve [the] government

App-90
in a contract or obligation for the payment of money
before an appropriation is made unless authorized by
law[.]” 31 U.S.C. § 1341(a)(1)(B). The reimbursement
of cost-sharing reductions is authorized by law—42
U.S.C. § 18071(c)(3)(A). Thus, the Antideficiency Act’s
prohibition is inapplicable in this case. Accord N.Y.
Airways, 369 F.2d at 752 (“Since it has been found that
the [agency’s] action created a ‘contract or obligation
(which) is authorized by law’, obviously the statute
[prohibiting contract obligations in excess of
appropriated funds] has no application to the present
situation . . . .”). In short, the Secretary of HHS
possesses at least the implied actual authority to
contractually bind the government to make costsharing reduction payments.
Defendant further contends that the QHPI
Agreements executed by plaintiff and CMS preclude
the existence of an implied-in-fact contract to make
cost-sharing reduction payments. As defendant notes,
“[t]he existence of an express contract precludes the
existence of an implied contract dealing with the same
subject, unless the implied contract is entirely
unrelated to the express contract.” Atlas Corp. v.
United States, 895 F.2d 745, 754-55 (Fed. Cir. 1990),
cited in Schism v. United States, 316 F.3d 1259, 1278
(Fed. Cir. 2002) (en banc); see also Klebe v. United
States, 263 U.S. 188, 192 (1923) (“A contract implied
in fact is one inferred from the circumstances or acts
of the parties; but an express contract speaks for itself
and leaves no place for implications.”). As noted above,
the QHPI Agreements only address the reconciliation
of cost-sharing reduction payments, and do not create
any duties or obligations to make cost-sharing
reduction payments in the first instance.

App-91
Furthermore, the QHPI Agreements mostly address
the privacy and security obligations set forth in 45
C.F.R. § 155.260. Accordingly, the QHPI Agreements
concern a subject entirely unrelated to the purported
implied-in-fact contract, and therefore do not preclude
the finding of an implied-in-fact contract.
In sum, plaintiff has established the existence of
an implied-in-fact contract to make cost-sharing
reduction payments. Thus, the court must determine
whether plaintiff also has established that the
government has breached the implied-in-fact contract.
As noted above, “[t]o recover for breach of contract, a
party must allege and establish: (1) a valid contract
between the parties, (2) an obligation or duty arising
out of the contract, (3) a breach of that duty, and
(4) damages caused by the breach.” San Carlos
Irrigation & Drainage Dist., 877 F.2d at 959; accord
Trauma Serv. Grp., 104 F.3d at 1325. Plaintiff has
established the existence of a valid contract, a
government obligation to make cost-sharing reduction
payments, and the government’s failure to make such
payments, leaving only the issue of damages.
“The general rule in common law breach of
contract cases is to award damages that will place the
injured party in as good a position as he or she would
have been [in] had the breaching party fully
performed.” Estate of Berg v. United States, 687 F.2d
377, 379 (Ct. Cl. 1982). Thus, the injured party “must
show that but for the breach, the damages alleged
would not have been suffered.” San Carlos Irrigation
& Drainage Dist., 111 F.3d at 1563; accord Boyajian
v. United States, 423 F.2d 1231, 1235 (Ct. Cl. 1970)
(per curiam) (“Recovery of damages for a breach of

App-92
contract is not allowed unless acceptable evidence
demonstrates that the damages claimed resulted from
and were caused by the breach.”). “One way the law
makes the non-breaching party whole is to give him
the benefits he expected to receive had the breach not
occurred.” Glendale Fed. Bank, FSB v. United States,
239 F.3d 1374, 1380 (Fed. Cir. 2001). These expected
benefits—expectancy damages—”are recoverable
provided they are actually foreseen or reasonably
foreseeable, are caused by the breach of the promisor,
and are proved with reasonable certainty.” Bluebonnet
Sav. Bank, F.S.B. v. United States, 266 F.3d 1348,
1355 (Fed. Cir. 2001); accord Fifth Third Bank v.
United States, 518 F.3d 1368, 1374-75 (Fed. Cir. 2008).
The injured party has the burden of proving
damages caused by the breach of contract. See
Northrop Grumman Computing Sys., Inc. v. United
States, 823 F.3d 1364, 1368 (Fed. Cir. 2016); accord
Bluebonnet Sav. Bank FSB v. United States, 67 Fed.
Cl. 231, 238 (2005) (explaining that a plaintiff has the
burden
to
prove
expectancy
damages
by
demonstrating what would have happened but for
defendant’s breach of contract), aff’d, 466 F.3d 1349
(Fed. Cir. 2006). The burden then shifts to the
breaching party to establish “that plaintiff’s damages
claims should be reduced or denied.” Duke Energy
Progress, Inc. v. United States, 135 Fed. Cl. 279, 287
(2017). Here, plaintiff has shown that but for the
government’s breach, it would have received the full
amount of the cost-sharing reduction payments to
which it was entitled; there is no dispute that
plaintiff’s damages were foreseen, caused by the
government’s breach, and can be determined with
reasonable certainty. Defendant has not attempted to

App-93
rebut plaintiff’s claim of breach-of-contract damages,
either through argument or evidence. 23 Accordingly,
plaintiff has established its entitlement to breach-ofcontract damages in the amount of the unpaid costsharing reduction reimbursements.
IV. CONCLUSION
For the reasons set forth above, the court
concludes that the government’s failure to make costsharing reduction payments to plaintiff violates 42
U.S.C. § 18071 and constitutes a breach of an impliedin-fact contract, but does not constitute a breach of an
express contract. Therefore, it GRANTS IN PART
and DENIES IN PART plaintiff’s motion for
summary judgment and GRANTS IN PART and
DENIES IN PART defendant’s motion to dismiss. By
no later than Thursday, February 28, 2019, the
parties shall file a joint status report indicating the
amount due to plaintiff for its unpaid cost-sharing
reduction reimbursements, taking care to separately
indicate the amount due for 2017 and the amount due
for 2018. If the parties are unable to provide the
amount due for 2018, they shall (1) suggest a deadline
for providing the court with that information and
(2) indicate whether an RCFC 54(b) judgment limited
In arguing that the government did not violate 42 U.S.C.
§ 18071(c)(3)(A), defendant asserts that insurers’ ability to
increase premiums for their silver-level qualified health plans to
obtain greater premium tax credit payments, and thus offset any
losses resulting from the nonpayment of cost-sharing reduction
reimbursements, is evidence that Congress did not intend to
provide a statutory damages remedy for the government’s failure
to make the cost-sharing reduction payments. However,
defendant did not advance a similar argument in responding to
plaintiff’s breach-of-contract claim.
23

App-94
to the cost-sharing reduction claim for 2017 would be
appropriate. If the parties are able to provide the
amount due for 2018, the court will direct the entry of
judgment on plaintiff’s cost-sharing reduction claim
for 2017 and 2018 pursuant to RCFC 54(b).
IT IS SO ORDERED.
s/ Margaret M. Sweeny
MARGARET M. SWEENY
Chief Judge

App-95
Appendix E
UNITED STATES COURT OF
FEDERAL CLAIMS
________________
No. 17-2057C
________________
MAINE COMMUNITY HEALTH OPTIONS,
v.

Plaintiff,

UNITED STATES,
Defendant.
________________
Filed: June 10, 2019
________________
OPINION AND ORDER
________________
SWEENEY, Chief Judge
Plaintiff Maine Community Health Options
contends that the federal government ceased making
the cost-sharing reduction payments to which it and
other insurers are entitled under the Patient
Protection and Affordable Care Act (“Affordable Care
Act”), Pub. L. No. 111-148, 124 Stat. 119 (2010), and
its implementing regulations. In its February 15, 2019
Opinion and Order, the court determined that plaintiff
was entitled to recover the cost-sharing reduction
payments that the government did not make for 2017.
Plaintiff subsequently amended its complaint to add
claims for the payments that the government did not
make for 2018 and moved for summary judgment on

App-96
those claims. For the reasons set forth below, the court
grants plaintiff’s motion. 1
I.

BACKGROUND

A. The Affordable Care Act
Congress enacted the Affordable Care Act as part
of a comprehensive scheme of health insurance
reform. 2 See generally King v. Burwell, 135 S. Ct. 2480
(2015). Specifically, the Act includes “a series of
interlocking reforms designed to expand coverage in
the individual health insurance market.” Id. at 2485.
In conjunction with these reforms, the Act provided for
the establishment of an American Health Benefit
Exchange (“exchange”) in each state by January 1,
2014, to facilitate the purchase of “qualified health
plans” by individuals and small businesses. 42 U.S.C.
§§ 18031, 18041 (2012); accord King, 135 S. Ct. at 2485
(describing an exchange as “a marketplace that allows
people to compare and purchase insurance plans”).
Qualified health plans can be offered at four levels
(bronze, silver, gold, and platinum) that differ based
on how much of a plan’s benefits an insurer must cover
under the plan. 3 42 U.S.C. § 18022(d)(1).

For simplicity, and to facilitate any appellate review, this
decision includes the background and analysis previously set
forth in the court’s February 15, 2019 Opinion and Order.
1

Seven days after enacting the Affordable Care Act, Congress
enacted the Health Care and Education Reconciliation Act of
2010, Pub. L. No. 111-152, 124 Stat. 1029, which included
additional provisions related to health insurance reform.
2

3 For example, for a silver-level qualified health plan, insurers
are required to provide coverage for 70% of the benefits offered
under the plan. 42 U.S.C. § 18022(d)(1)(B). Insurers offering

App-97
Among the reforms included in the Affordable
Care Act were two aimed at ensuring that individuals
have access to affordable insurance coverage and
health care: the premium tax credit enacted in section
1401 of the Act, 26 U.S.C. § 36B (2012), and the costsharing reduction program enacted in section 1402 of
the Act, 42 U.S.C. § 18071. “The premium tax credits
and the cost-sharing reductions work together: the tax
credits help people obtain insurance, and the costsharing reductions help people get treatment once
they have insurance.” California v. Trump, 267 F.
Supp. 3d 1119, 1123 (N.D. Cal. 2017).
1.

Premium Tax Credit

The first of these two reforms, the premium tax
credit, is designed to reduce the insurance premiums
paid by individuals whose household income is
between 100% and 400% of the poverty line. See 26
U.S.C. § 36B(c)(1)(A); 42 U.S.C. § 18082(c)(2)(B)(i);
accord 26 C.F.R. § 1.36B-2(a) to (b) (2017); 45 C.F.R.
§ 156.460(a)(1) (2017). The Secretary of the
Department of Health and Human Services
(“Secretary of HHS”) is required to determine whether
individuals enrolling in qualified health plans on an
exchange are eligible for the premium tax credit and,
if so, to notify the Secretary of the United States
Department of the Treasury (“Treasury Secretary”) of
that fact. 42 U.S.C. § 18082(c)(1). The Treasury
Secretary, in turn, is required to make periodic
advance payments of the premium tax credit to the
insurers offering the qualified health plans in which
qualified health plans on an exchange must offer at least one
silver-level plan and one gold-level plan. Id. § 18021(a)(1)(C)(ii).

App-98
the eligible individuals enrolled. Id. § 18082(c)(2)(A).
The insurers are required to use these advance
payments to reduce the premiums of the eligible
individuals. Id. § 18082(c)(2)(B)(i); see also 26 U.S.C.
§ 36B(f) (describing the process for annually
reconciling an individual’s actual premium tax credit
with the advance payments of the credit). To fund the
premium tax credit, Congress amended a preexisting
permanent appropriation to allow for the payment of
refunds arising from the credit. See 31 U.S.C. § 1324
(2012) (“Necessary amounts are appropriated . . . for
refunding internal revenue collections as provided by
law . . . . Disbursements may be made from the
appropriation
made
by
this
section
only
for . . . refunds due from credit provisions of [26 U.S.C.
§ 36B].”).
2.

Cost-Sharing Reductions

The other reform, cost-sharing reductions, is
designed to reduce the out-of-pocket expenses (such as
deductibles, copayments, and coinsurance 4) paid by
individuals whose household income is between 100%
and 250% of the poverty line. See 42 U.S.C.
§§ 18022(c)(3), 18071(c)(2); accord 45 C.F.R.
§§ 155.305(g), 156.410(a). Insurers offering qualified
health plans are required to reduce eligible
individuals’ cost-sharing obligations by specified
amounts, 5 42 U.S.C. § 18071(a), and the Secretary of
4 “The term ‘cost-sharing’ includes . . . deductibles, coinsurance,
copayments, or similar charges,” but not “premiums, balance
billing amounts for non-network providers, or spending for noncovered services.” 42 U.S.C. § 18022(c)(3).
5 To be eligible for cost-sharing reductions, an individual must
enroll in a silver-level qualified health plan. 42 U.S.C.

App-99
HHS is required to reimburse the insurers for the costsharing reductions they make, see id. § 18071(c)(3)(A)
(“[T]he Secretary [of HHS] shall make periodic and
timely payments to the issuer equal to the value of the
reductions.”).
The Secretary of HHS is afforded some discretion
in the timing of the reimbursements: once he
determines which individuals are eligible for costsharing reductions, he must notify the Treasury
Secretary “if an advance payment of the cost-sharing
reductions . . . is to be made to the issuer of any
qualified health plan” and, if so, the time and amount
of such advance payment. Id. § 18082(c)(3). Pursuant
to this authority, the Secretary of HHS established a
reimbursement schedule by which the government
“would make monthly advance payments to issuers to
cover projected cost-sharing reduction amounts, and
then reconcile those advance payments at the end of
the benefit year to the actual cost-sharing reduction
amounts.” Patient Protection and Affordable Care Act;
HHS Notice of Benefit and Payment Parameters for
2014, 78 Fed. Reg. 15,410, 15,486 (Mar. 11, 2013) (to
be codified at 45 C.F.R. § 156.430); see also 45 C.F.R.
§ 156.430(b)(1) (“A [qualified health plan] issuer will
receive periodic advance payments [for cost sharing
reductions].”). The amount of the cost-sharing
§ 18071(b)(1). Under a standard silver-level plan, insurers are
required to provide coverage for 70% of the benefits offered under
the plan. Id. § 18022(d)(1)(B). However, for eligible individuals,
that percentage increases to 73% (when household income is
between 200% and 250% of the poverty line), 87% (when
household income is between 150% and 200% of the poverty line),
or 94% (when household income is between 100% and 150% of the
poverty line). Id. § 18071(c)(2).

App-100
reduction payments owed to insurers is based on
information provided to HHS by the insurers. See 45
C.F.R. § 156.430(c) (requiring insurers to report to
HHS, “for each policy, the total allowed costs for
essential health benefits charged for the policy for the
benefit year, broken down by . . . (i) [t]he amount the
[insurer] paid[,] (ii) [t]he amount the enrollee(s) paid[,
and] (iii) [t]he amount the enrollee(s) would have paid
under the standard plan without cost-sharing
reductions”).
The Affordable Care Act did not include any
language appropriating funds to make the costsharing reduction payments.
3.

Requirements for Insurers

To offer a health insurance plan on an exchange
in any given year—and become eligible to receive
payments for the premium tax credit and cost-sharing
reductions—an insurer must satisfy certain
requirements established by the Secretary of HHS.
See, e.g., 42 U.S.C. § 18041(a)(1) (authorizing the
Secretary of HHS to “issue regulations setting
standards for meeting the requirements under [title I
of the Affordable Care Act] with respect to—(A) the
establishment and operation of Exchanges . . . ; (B)
the offering of qualified health plans through such
Exchanges; . . . and (D) such other requirements as
the Secretary determines appropriate”). The
requirements include (1) obtaining certification that
any plan it intends to offer is a qualified health plan,
see, e.g., 45 C.F.R. §§ 155.1000, .1010, 156.200; (2)
submitting rate and benefit information before the
open enrollment period for the applicable year, see,
e.g., id. §§ 155.1020, 156.210; and (3) executing a

App-101
standard Qualified Health Plan Issuer Agreement
(“QHPI Agreement”) with the Centers for Medicare
and Medicaid Services (“CMS”), an agency of HHS, 6
for that year, 7 see id. § 155.260(b) (requiring
exchanges to execute agreements with entities that
will gain access to personally identifiable information
submitted to the exchanges that address privacy and
security standards and obligations); see also id.
§ 155.20 (defining “exchange” to include exchanges
established and operated by either a state or HHS).
With respect to the latter requirement, each
QHPI Agreement includes the following recitals:
The Secretary of HHS delegated to the Administrator of CMS
(1) his authority—granted in section 1301 of the Affordable Care
Act—”pertaining to defining qualified health plans”; (2) his
authority—granted in section 1311 of the Affordable Care Act—
”pertaining to affordable choices of health benefit plans”; and (3)
his authority—granted in section 1321 of the Affordable Care
Act—”pertaining to the State’s flexibility in operation and
enforcement of [exchanges] and related requirements.”
Delegation of Authorities, 76 Fed. Reg. 53,903, 53,903 (Aug. 30,
2011); see also 42 U.S.C. §§ 18021 (codifying section 1301 of the
Affordable Care Act), 18031 (codifying section 1311 of the
Affordable Care Act), 18041 (codifying section 1321 of the
Affordable Care Act).
6

The QHPI Agreements for 2017 and 2018 include, as relevant
in this case, identical language. See Ctrs. for Medicare &
Medicaid Servs., Dep’t of Health & Human Servs., Plan Year
2017
QHP
Issuer
Agreement,
https://www.cms.gov/
CCIIO/Resources/Regulations-and-Guidance/Downloads/PlanYear-2017-QHP-Issuer-Agreement.pdf (last visited Feb. 1, 2019);
Ctrs. for Medicare & Medicaid Servs., Dep’t of Health & Human
Servs.,
Plan
Year
2018
QHP
Issuer
Agreement,
https://www.qhpcertification.cms.gov/s/PlanYear2018_QHPIssu
erAgreement_FFMSPM.pdf (last visited Feb. 1, 2019)
(collectively, “Agreements”).
7

App-102
WHEREAS:
1.

Section 1301(a) of the Affordable Care
Act . . . provides that [Qualified Health
Plans] are health plans that are certified
by an Exchange and, among other things,
comply with the regulations developed by
the Secretary of the Department of
Health and Human Services under
section 1321(a) and other requirements
that an applicable Exchange may
establish.

2.

[Qualified Health Plan Issuer] is an
entity licensed by an applicable State
Department of Insurance . . . as an
Issuer and seeks to offer through the
[Federally-facilitated Exchange] in such
State one or more plans that are certified
to be [Qualified Health Plans].

3.

It is anticipated that periodic [Advance
Payments of the Premium Tax Credit],
advance payments of [Cost-Sharing
Reductions], and payments of [Federallyfacilitated Exchange] user fees will be
due between CMS and [Qualified Health
Plan Issuer].

4.

[Qualified Health Plan Issuer] and CMS
are entering into this Agreement to
memorialize the duties and obligations of
the parties, including to satisfy the
requirements
under
45
CFR
155.260(b)(2).

Now, therefore, in consideration of the
promises and covenants herein contained, the

App-103
adequacy of which the Parties acknowledge,
[Qualified Health Plan Issuer] and CMS
agree as follows . . . .
Agreements 1. Section I of each agreement is titled
“Definitions.” Id. at 1-3. Section II of each agreement,
titled “Acceptance of Standard Rules of Conduct,”
addresses standards related to personally identifiable
information (as set forth in 45 C.F.R. § 155.260) and
communications with CMS’s Data Services Hub. Id. at
3-6. Section III of each agreement is titled “CMS
Obligations” and provides, in its entirety:
a.

CMS will undertake all reasonable
efforts to implement systems and
processes that will support [Qualified
Health Plan Issuer] functions. In the
event of a major failure of CMS systems
and/or processes, CMS will work with
[Qualified Health Plan Issuer] in good
faith to mitigate any harm caused by
such failure.

b.

As part of a monthly payments and
collections reconciliation process, CMS
will recoup or net payments due to
[Qualified Health Plan Issuer] against
amounts owed to CMS by [Qualified
Health Plan Issuer] in relation to offering
of [Qualified Health Plans] or any entity
operating
under
the
same
tax
identification number as [Qualified
Health
Plan
Issuer]
(including
overpayments
previously
made),
including the following types of
payments: [Advance Payments of the

App-104
Premium Tax Credit], advance payments
of [Cost-Sharing Reductions], and
payment
of
Federally-facilitated
Exchange user fees.
Id. at 6. The remaining sections of the agreements
contain various boilerplate provisions, see id. at 6-9,
including several related to the termination of the
agreements, id. at 6-7. One termination-related clause
provides:
[Qualified Health Plan Issuer] acknowledges
that termination of this Agreement 1) may
affect its ability to continue to offer [Qualified
Health Plans] through the [Federallyfacilitated Exchange]; 2) does not relieve
[Qualified Health Plan Issuer] of applicable
obligations to continue providing coverage to
enrollees; and 3) specifically does not relieve
[Qualified Health Plan Issuer] of any
obligation under applicable State law to
continue to offer coverage for a full plan year.
Id. at 7. Each agreement is to be executed by
authorized representatives of the insurer and CMS.
Id. at 10-11 (2017 agreement), 9-10 (2018 agreement).
In addition, in most circumstances, insurers must
make their qualified health plans available on the
exchanges for the entire year for which the plans were
certified. 45 C.F.R. § 156.272(a).
B. Termination of Cost-Sharing Reduction
Payments
On April 10, 2013, before the exchanges opened
for business, President Barack H. Obama submitted
to Congress his budget for fiscal year 2014. See Office

App-105
of Mgmt. & Budget, Exec. Office of the President,
Fiscal Year 2014 Budget of the United States
Government to Congress (2013). The budget included a
request for a line-item appropriation for cost-sharing
reduction payments. See id. at App. 448; accord Ctrs.
for Medicare & Medicaid Servs., Dep’t of Health &
Human Servs., Fiscal Year 2014 Justification of
Estimates for Appropriations Committees 184 (2013).
However, Congress did not provide the requested
appropriation. See Consolidated Appropriations Act,
2014, Pub. L. No. 113-76, 128 Stat. 5; see also S. Rep.
No. 113-71, at 123 (2013) (“The Committee
recommendation does not include a mandatory
appropriation, requested by the administration, for
reduced cost sharing assistance . . . as provided for in
sections 1402 and 1412 of the [Affordable Care Act].”).
In fact, it is undisputed by the parties that Congress
has never specifically appropriated funds to reimburse
insurers for their cost-sharing reductions. 8 It is
further undisputed that Congress has never
(1) expressly prevented—in an appropriations act or
otherwise—the Secretary of HHS or the Treasury
Secretary from expending funds to make cost-sharing
reduction payments or (2) amended the Affordable
Care Act to eliminate the cost-sharing reduction
payment obligation.

8 Whether Congress will appropriate funds for cost-sharing
reduction payments in the future is an open question. Cf. Patient
Protection and Affordable Care Act; HHS Notice of Benefit and
Payment Parameters for 2020, 84 Fed. Reg. 227, 283 (Jan. 24,
2019) (“The Administration supports a legislative solution that
would appropriate [cost-sharing reduction] payments . . . .”).

App-106
Although
Congress
did
not
specifically
appropriate funds for cost-sharing reduction
payments, the Obama administration began making
advance payments to insurers for cost-sharing
reductions in January 2014. See Ctrs. for Medicare &
Medicaid Servs., Dep’t of Health & Human Servs.,
Guidance Related to Reconciliation of the CostSharing Reduction Component of Advance Payments
for Benefit Years 2014 and 2015 27 (2016). It made the
payments from “the same account from which the
premium tax credit” advance payments were made—
in other words, from the permanent appropriation
described in 31 U.S.C. § 1324. Letter from Sylvia M.
Burwell, Director of the Office of Mgmt. & Budget, to
Ted Cruz and Michael S. Lee, U.S. Senators 4 (May
21,
2014),
http://www.cruz.senate.gov/files/docu
ments/Letters/20140521_ Burwell_Response.pdf.
On November 21, 2014, the United States House
of Representatives (“House”) sued the Obama
administration in the United States District Court for
the District of Columbia (“D.C. district court”) to stop
the
payment
of
cost-sharing
reduction
reimbursements to insurers. See generally U.S. House
of Representatives v. Burwell, No. 1:14-cv-01967-RMC
(D.D.C. filed Nov. 21, 2014). The D.C. district court
ruled for the House, holding:
The Affordable Care Act unambiguously
appropriates money for Section 1401
premium tax credits but not for Section 1402
reimbursements to insurers. Such an
appropriation cannot be inferred. None of
Secretaries’
extra-textual
arguments—
whether based on economics, “unintended”

App-107
results, or legislative history—is persuasive.
The Court will enter judgment in favor of the
House of Representatives and enjoin the use
of
unappropriated
monies
to
fund
reimbursements due to insurers under
Section 1402. The Court will stay its
injunction, however, pending appeal by either
or both parties.
U.S. House of Representatives v. Burwell, 185 F. Supp.
3d 165, 168 (D.D.C. 2016). The Obama administration
appealed the ruling. See generally U.S. House of
Representatives v. Azar (“Azar”), No. 16-5202 (D.C.
Cir. filed July 6, 2016). However, the United States
Court of Appeals for the District of Columbia Circuit
(“D.C. Circuit”) stayed the appeal to allow Presidentelect Donald J. Trump and his future administration
time to determine how to proceed. See Mot. Hold
Briefing Abeyance 1-2, Azar, No. 16-5202 (Nov. 21,
2016); Order, Azar, No. 16- 5202 (Nov. 21, 2016).
The Trump administration continued the
previous administration’s practice of making advance
cost-sharing reduction payments to insurers.
However, on October 11, 2017, the United States
Attorney General sent a letter to the Treasury
Secretary and the Acting Secretary of HHS advising
that “the best interpretation of the law is that the
permanent appropriation for ‘refunding internal
revenue collections,’ 31 U.S.C. § 1324, cannot be used
to fund the [cost-sharing reduction] payments to
insurers authorized by 42 U.S.C. § 18071.” Letter from
Jefferson B. Sessions III, U.S. Attorney General, to
Steven Mnuchin, Sec’y of the Treasury, and Don
Wright, M.D., M.P.H., Acting Sec’y of HHS 1 (Oct. 11,

App-108
2017), http://www.hhs.gov/sites/default/files/ csrpayment-memo.pdf. Based on this guidance, the
Acting Secretary of HHS directed, the following day,
that “[cost-sharing reduction] payments to issuers
must stop, effective immediately,” and that such
“payments are prohibited unless and until a valid
appropriation exists.” Memorandum from Eric
Hargan, Acting Sec’y of HHS, 9 to Seema Verma,
Administrator of the Ctrs. for Medicare & Medicaid
Servs.
(Oct.
12,
2017),
http://www.hhs.gov/
sites/default/files/csr-payment-memo.pdf.
C. Reaction to the Termination of CostSharing Reduction Payments
The Trump administration’s termination of costsharing reduction payments did not come as a surprise
to insurers:
Anticipating that the Administration would
terminate [cost-sharing reduction] payments,
most states began working with the
insurance companies to develop a plan for
how to respond. Because the Affordable Care
Act requires insurance companies to offer
plans with cost-sharing reductions to
customers, the federal government’s failure
to meet its [cost-sharing reduction] payment
obligations meant the insurance companies
would be losing that money. So most of the
9 Eric Hargan was named Acting Secretary of HHS on October
10, 2017. See Press Release, The White House, President Donald
J. Trump Announces Intent to Nominate Personnel to Key
Administration Posts (Oct. 10, 2017), https://www.whitehouse
.gov/presidentialactions/president-donald-j-trump-announcesintent-nominate-personnel-key-administrationposts-22/.

App-109
states set out to find ways for the insurance
companies to increase premiums for 2018
(with open enrollment beginning in
November 2017) in a fashion that would avoid
harm to consumers. And the states came up
with an idea: allow the insurers to make up
the deficiency through premium increases for
silver plans only. In other words, allow a
relatively large premium increase for silver
plans, but no increase for bronze, gold, or
platinum plans.
As a result, in these states, for everyone
between 100% and 400% of the federal
poverty level who wishes to purchase
insurance on the exchanges, the available tax
credits rise substantially. Not just for people
who purchase the silver plans, but for people
who purchase other plans too.
California, 267 F. Supp. 3d at 1134-35 (footnote
omitted). In other words, by raising premiums for
silver-level qualified health plans, the insurers would
obtain more money from the premium tax credit
program, which would help mitigate the loss of the
cost-sharing reduction payments. 10 Accord id. at 1139
Notably, increasing silver-level qualified health plan
premiums would not harm most consumers who qualify for the
premium tax credit because the credit increases as the premium
increases. See California, 267 F. Supp. 3d at 1134 (“[T]he amount
[of the premium tax credit] is based on the cost of the secondcheapest silver plan available on the exchange in your geographic
area, and then adjusted based on your income (that is, based on
where you fall on the spectrum between 100% and 400% of the
federal poverty level). So, if premiums for the second-cheapest
silver plan in your area go up, the amount of your tax credit will
10

App-110
(agreeing with the states “that the widespread
increase in silver plan premiums will qualify many
people for higher tax credits, and that the increased
federal expenditure for tax credits will be far more
significant than the decreased federal expenditure for
[cost-sharing reduction] payments”). This approach is
commonly referred to as “silver loading,” and many
states appear to have endorsed it, see id. at 1137
(“Even before the Administration announced its
decision, 38 states accounted for the possible
termination of [cost-sharing reduction] payments in
setting their 2018 premium rates. And now that the
announcement has been made, even more states are
adopting [the] strategy [of increasing silver-level plan
premiums to obtain additional premium tax credit
payments].” (footnote omitted)).
D. Other Litigation
While the states and insurers were working on
ways to mitigate the loss of cost-sharing reduction
payments, the parties in the case on appeal at the D.C.
Circuit began discussing that case’s disposition. Joint
Status Report 1-2, Azar, No. 16-5202 (Nov. 30, 2017).
Ultimately, at the request of the parties, the D.C.
Circuit dismissed the appeal, Order, Azar, No. 165202 (May 16, 2018), and the D.C. district court
vacated the portion of its ruling in which it provided
that “reimbursements paid to issuers of qualified
health plans for the cost-sharing reductions mandated
by Section 1402 of the Affordable Care Act, Pub. L.
go up by a corresponding amount. See 26 U.S.C. § 36B.”); see also
id. at 1122 (“[M]ost state regulators have devised responses that
give millions of lower-income people better health coverage
options than they would otherwise have had.”).

App-111
111-148, are ENJOINED pending an appropriation for
such payments,” Order, Azar, No. 1:14-cv-01967-RMC
(May 18, 2018).
A separate lawsuit was filed by seventeen states
and the District of Columbia in the United States
District Court for the Northern District of California
(“California district court”) to compel the Trump
administration to continue making the advance costsharing reduction payments to insurers. See generally
California v. Trump, No. 3:17-cv-05895-VC (N.D. Cal.
filed Oct. 13, 2017). The California district court
denied the states’ motion for a preliminary injunction.
California, 267 F. Supp. 3d at 1121-22, 1140.
Eventually, the states requested a stay of the
proceedings or, alternatively, dismissal of the suit
without prejudice, explaining:
[S]taying the proceedings is warranted to
avoid disturbing the status quo given the
general success of the practice commonly
referred to as “silver-loading” which mostly
curbed the harm caused by the federal
government’s unjustified cessation of costsharing reduction (CSR) subsidies mandated
by Section 1402 of the Patient Protection and
Affordable Care Act (ACA). At the same time,
because of the real threat of the federal
government taking action to prohibit silverloading, the Court should retain jurisdiction,
thus allowing the Plaintiff States to
expeditiously seek appropriate remedies from
this Court for the protection of their citizens.
Alternatively, if the Court determines that a
stay is not appropriate at this time, the

App-112
Plaintiff States respectfully request that the
Court dismiss the action without prejudice.
Mot. for Order Staying Proceedings or, in the
Alternative, Dismissing Action Without Prejudice 2,
California, No. 3:17-cv-05895-VC (July 16, 2018); cf.
HHS Notice of Benefit and Payment Parameters for
2020, 84 Fed. Reg. at 283 (“The Administration
supports a legislative solution that would appropriate
CSR payments and end silver loading. In the absence
of Congressional action, we seek comment on ways in
which HHS might address silver loading, for potential
action in future rulemaking applicable not sooner
than plan year 2021.”). The California district court
dismissed the case without prejudice on July 18, 2018.
Order Dismissing Case Without Prejudice, California,
No. 3:17-cv-05895-VC (July 18, 2018).
E. Effect of Cost-Sharing Reduction Payment
Termination on Plaintiff
Plaintiff is a nonprofit corporation, organized as a
Consumer Operated and Oriented Plan under section
1332 of the Affordable Care Act, that offers qualified
health plans on Maine’s exchange. 11 It began offering
qualified health plans on the exchange in 2014, and
continued to offer such plans in 2015, 2016, 2017, and
2018. As of the end of 2017, plaintiff had the largest
number of exchange-insured individuals in Maine.
Plaintiff began receiving monthly advance costsharing reduction payments in January 2014 and, as
with every other insurer offering qualified health
plans on the exchanges, stopped receiving these
11 It appears that the facts in this subsection, which are derived
from the allegations in plaintiff’s complaint, are undisputed.

App-113
payments effective October 12, 2017. Plaintiff asserts
that this cessation of payments has caused it to suffer
large financial losses.
F. Procedural History
Plaintiff filed a complaint in this court on
December 28, 2017, to recover the cost-sharing
reduction payments that the government has not
made for 2017. 12 It asserted two claims for relief,
contending that in failing to make the cost-sharing
reduction payments to insurers, the government
violated the statutory and regulatory mandate and
breached an implied-in-fact contract. Plaintiff moved
for summary judgment and defendant cross-moved to
dismiss the complaint. In its February 15, 2019
Opinion and Order, the court determined that plaintiff
was entitled to recover the unpaid cost-sharing
reduction reimbursements for 2017 under both the
violation-of-statute and breach-of-an-implied-in-factA number of other insurers have filed suit in this court
seeking
to
recover
unpaid
cost-sharing
reduction
reimbursements. See, e.g., Common Ground Healthcare Coop. v.
United States, No. 17-877C (Chief Judge Sweeney); Local
Initiative Health Auth. for L.A. Cty. v. United States, No. 171542C (Judge Wheeler); Cmty. Health Choice, Inc. v. United
States, No. 18-5C (Chief Judge Sweeney); Sanford Health Plan v.
United States, Nos. 18-136C and 19-569C (Judge Kaplan); Mont.
Health Co-op v. United States, Nos. 18-143C and 19-568C (Judge
Kaplan); Molina Healthcare of Cal., Inc. v. United States, No. 18333C (Judge Wheeler); Health Alliance Med. Plans, Inc. v. United
States, No. 18-334C (Judge Campbell-Smith); Blue Cross & Blue
Shield of Vt. v. United States, No. 18-373C (Judge Horn);
Guidewell Mut. Holding Corp. v. United States, No. 18-1791C
(Judge Griggsby); Harvard Pilgrim Health Care, Inc. v. United
States, No. 18-1820C (Judge Smith); Blue Cross & Blue Shield of
N.D. v. United States, No. 18- 1983C (Judge Horn).
12

App-114
contract claims, and directed the parties to file a joint
status report indicating the amount due to plaintiff. 13
See generally Me. Cmty. Health Options v. United
States, 142 Fed. Cl. 53 (2019).
The court also issued decisions in two other costsharing reduction cases on February 15, 2019. See
generally Common Ground Healthcare Coop. v. United
States, 142 Fed. Cl. 38 (2019); Cmty. Health Choice,
Inc. v. United States, 141 Fed. Cl. 744 (2019), appeal
docketed, No. 19-1633 (Fed. Cir. Mar. 8, 2019). In both
of those decisions, the court determined that the
plaintiffs were entitled to recover unpaid cost-sharing
reduction reimbursements for 2018. See Common
Ground, 142 Fed. Cl. at 53; Cmty. Health Choice, 141
Fed. Cl. at 770. Consequently, with the court’s
approval, plaintiff filed an amended complaint in
which it alleges that in failing to make the costsharing reduction payments to insurers for 2018, the
government violated the statutory and regulatory
mandate and breached an implied-in-fact contract.
Plaintiff then filed a motion for summary judgment in
which it adopts all of the arguments it advanced in
support of its claims for 2017 and all of the arguments
The court had the benefit of full briefing and oral argument
in three cost-sharing reduction cases: Common Ground
Healthcare Cooperative v. United States, No. 17-877C, Maine
Community Health Options v. United States, No. 17-2057C, and
Community Health Choice, Inc. v. United States, No. 18-5C. The
plaintiffs in all three cases alleged that the government violated
the cost-sharing reduction statutes and regulations, and the
plaintiffs in two of the cases alleged a breach of an implied-in-fact
contract. Thus, in ruling on the parties’ motions in this case, the
court, when applicable, considered the parties’ arguments in all
three cases.
13

App-115
advanced by the plaintiffs in Common Ground and
Community Health Choice. Similarly, in its response
in opposition to plaintiff’s motion, defendant adopts all
of the arguments it advanced in opposition to
plaintiff’s claims for 2017 and the claims for 2018
asserted by the plaintiffs in Common Ground and
Community Health Choice. Finally, in a joint status
report filed on June 7, 2019, the parties represented
that the amount due to plaintiff for 2017—in
accordance with the court’s February 15, 2019 Opinion
and Order—is $846,493.02, and the amount due to
plaintiff for 2018—in the event that the court rules in
plaintiff’s favor on its claim for 2018—is
$18,384,382.25. The court is now prepared to rule.
II. STANDARD OF REVIEW
Plaintiff moves for summary judgment pursuant
to Rule 56 of the Rules of the United States Court of
Federal Claims (“RCFC”). Summary judgment is
appropriate when there is no genuine issue of material
fact and the moving party is entitled to a judgment as
a matter of law. RCFC 56(a); Celotex Corp. v. Catrett,
477 U.S. 317, 322 (1986). A fact is material if it “might
affect the outcome of the suit under the governing
law.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (1986). An issue is genuine if it “may reasonably
be resolved in favor of either party.” Id. at 250. Entry
of summary judgment is mandated against a party
who fails to establish “an element essential to that
party’s case, and on which that party will bear the
burden of proof at trial.” Celotex Corp., 477 U.S. at
322.
Statutory
construction
and
contract
interpretation “are questions of law amenable to
resolution through summary judgment.” Stathis v.

App-116
United States, 120 Fed. Cl. 552, 561 (2015); accord
Varilease Tech. Group, Inc. v. United States, 289 F.3d
795, 798 (Fed. Cir. 2002) (“Contract interpretation is
a question of law generally amenable to summary
judgment.”); Anderson v. United States, 54 Fed. Cl.
620, 629 (2002) (“The plaintiff’s entitlement . . . rests
solely upon interpretation of the cited statute and is
thus amenable to resolution by summary judgment.”),
aff’d, 70 F. App’x 572 (Fed. Cir. 2003) (unpublished
opinion).
III. DISCUSSION
As noted above, in seeking to recover the costsharing reduction payments not made by the
government, plaintiff asserts two claims for relief. The
court addresses each in turn.
A. Violation of Statute
Plaintiff first contends that the government’s
failure to make the payments was a violation of the
cost-sharing reduction provisions of the Affordable
Care Act and its implementing regulations. Plaintiff
further contends that Congress’s failure to specifically
appropriate funds for cost-sharing reduction
payments does not suspend or terminate the
government’s obligation to make the payments.
Defendant disagrees, arguing that Congress
expressed its intent that cost-sharing reduction
payments should not be made absent a specific
appropriation for that purpose by not appropriating
funds for cost-sharing reductions in the Affordable
Care Act or thereafter. Consequently, defendant
contends, monetary damages—payable from the
Judgment Fund—are unavailable from this court.

App-117
1.

The Government Is Obligated to Make CostSharing Reduction Payments to Plaintiff
Notwithstanding the Absence of a Specific
Appropriation for That Purpose

To determine whether Congress intended the
government to make cost-sharing reduction payments
to insurers, the court first turns to the language of the
Affordable Care Act. See Lamie v. U.S. Tr., 540 U.S.
526, 534 (2004) (“The starting point in discerning
congressional intent is the existing statutory text.”);
see also Conn. Nat’l Bank v. Germain, 503 U.S. 249,
253-54 (1992) (“[C]ourts must presume that a
legislature says in a statute what it means and means
in a statute what it says there.”). In addition to
evaluating the specific provision of the Affordable
Care Act establishing the cost-sharing reduction
program, the court must read that provision in the
context of the Affordable Care Act as a whole. See King
v. St. Vincent’s Hosp., 502 U.S. 215, 221 (1991)
(following “the cardinal rule that a statute is to be read
as a whole, since the meaning of statutory language,
plain or not, depends on context” (citation omitted));
Crandon v. United States, 494 U.S. 152, 158 (1990)
(“In determining the meaning of the statute, we look
not only to the particular statutory language, but to
the design of the statute as a whole and to its object
and policy.”); Kokoszka v. Belford, 417 U.S. 642, 650
(1974) (“When ‘interpreting a statute, the court will
not look merely to a particular clause in which general
words may be used, but will take in connection with it
the whole statute (or statutes on the same subject) and
the objects and policy of the law, as indicated by its
various provisions, and give to it such a construction
as will carry into execution the will of the

App-118
Legislature . . . .’” (quoting Brown v. Duchesne, 60
U.S. 183, 194 (1856))); see also Chevron, U.S.A., Inc. v.
Nat. Res. Def. Council, Inc., 467 U.S. 837, 843 n.9
(1984) (“If a court, employing traditional tools of
statutory construction, ascertains that Congress had
an intention on the precise question at issue, that
intention is the law and must be given effect.”);
Kilpatrick v. Principi, 327 F.3d 1375, 1384 (Fed. Cir.
2003) (“[I]n determining whether Congress has
directly spoken to the point at issue, a court should
attempt to discern congressional intent either from
the plain language of the statute or, if necessary, by
resort to the applicable tools of statutory
construction[.]”). If congressional intent regarding the
obligation to make cost-sharing reduction payments
can be ascertained from evaluating the text of the
Affordable Care Act, then the court’s inquiry on this
issue is complete. See Conn. Nat’l Bank, 503 U.S. at
254.
The statutory provision governing cost-sharing
reductions sets forth an unambiguous mandate: “the
Secretary [of HHS] shall make periodic and timely
payments” to insurers “equal to the value of the
reductions” made by the insurers. 42 U.S.C.
§ 18071(c)(3)(A); accord Local Initiative Health Auth.
for L.A. Cty. v. United States, 142 Fed. Cl. 1, 11 (2019)
(“That provision can only mean one thing: the
Government must repay [Qualified Health Plans] for
their [cost-sharing reduction] expenses. The
unambiguous ‘shall make’ language indicates a
binding obligation to pay that the Court is powerless
to construe any differently.”); Mont. Health Co-op v.
United States, 139 Fed. Cl. 213, 218 (2018) (“[T]he
statutory language clearly and unambiguously

App-119
imposes an obligation on the Secretary of HHS to
make payments to health insurers that have
implemented cost-sharing reductions on their covered
plans as required by the [Affordable Care Act].”), 14
appeal docketed, No. 19-1302 (Fed. Cir. Dec. 12, 2018);
see also SAS Inst., Inc. v. Iancu, 138 S. Ct. 1348, 1354
(2018) (“The word ‘shall’ generally imposes a
nondiscretionary duty.”); Gilda Indus., Inc. v. United
States, 622 F.3d 1358, 1364 (Fed. Cir. 2010) (“When a
statute directs that a certain consequence ‘shall’ follow
from specified contingencies, the provision is
mandatory and leaves no room for discretion.”); cf.
Moda Health Plan, Inc. v. United States, 892 F.3d
1311, 1320 (2018) (concluding that similar language in
section 1342 of the Affordable Care Act—indicating
that the Secretary of HHS “shall establish” a risk
corridors program pursuant to which the Secretary of
HHS “shall pay” risk corridors payments—is
“unambiguously mandatory”), petition for cert. filed,
87 U.S.L.W. 3330 (U.S. Feb. 4, 2019). Moreover, the
mandatory payment obligation fits logically within the
statutory scheme established by Congress. The costsharing reduction payments were meant to reimburse
insurers for paying an increased share of their
insureds’ cost-sharing obligations, 42 U.S.C.
§ 18071(a)(2), (c)(3)(A), and the reduction of insureds’
cost-sharing obligations was meant to make obtaining
health care more affordable, see, e.g., id.
14 The judge who decided Montana Health Co-op—the
Honorable Elaine D. Kaplan—subsequently issued a
substantively identical ruling in another case. See Sanford
Health Plan v. United States, 139 Fed. Cl. 701 (2018), appeal
docketed, No. 19-1290 (Fed. Cir. Dec. 11, 2018).

App-120
§ 18071(c)(1)(A)
(describing
how
cost-sharing
reductions would be achieved by reducing insureds’
out-of-pocket limits). In short, the plain language,
structure, and purpose of the Affordable Care Act
reflect the intent of Congress to require the Secretary
of HHS to make cost-sharing reduction payments to
insurers.
Defendant does not dispute this conclusion.
Rather, it contends that the cost-sharing reduction
payment obligation is unenforceable because Congress
never specifically appropriated funds—either in the
Affordable Care Act or thereafter—to make costsharing reduction payments.
a.

The Lack of Specific Appropriating
Language in the Affordable Care Act

As defendant observes, the Affordable Care Act
does not include any language specifically
appropriating funds for cost-sharing reduction
payments. Defendant also correctly observes that the
Act’s cost-sharing reduction provision lacks any
appropriating language, while its companion
provision—the premium tax credit—included an
explicit funding mechanism. 15 Compare Affordable
Care Act § 1401(d) (amending the permanent
appropriation set forth in 31 U.S.C. § 1324 to allow for
the payment of the premium tax credit), with id.
§ 1402 (containing no appropriating language).
According to defendant, the absence of any funding
mechanism for cost-sharing reduction payments, and
15 Both provisions appear in subpart A of part I of subtitle E of
the Affordable Care Act, which is titled “Premium Tax Credits
and Cost-Sharing Reductions.” 124 Stat. at 213-24.

App-121
Congress’s decision to provide a funding mechanism
for premium tax credit payments and not cost-sharing
reduction payments, reflect the intent of Congress,
when enacting the Affordable Care Act, to preclude
liability for cost-sharing reduction payments.
Defendant is mistaken for several reasons.
First, it is well settled that the government can
create a liability without providing for the means to
pay for it. See, e.g., Moda Health Plan, 892 F.3d at
1321 (“[I]t has long been the law that the government
may incur a debt independent of an appropriation to
satisfy that debt, at least in certain circumstances.”);
Collins v. United States, 15 Ct. Cl. 22, 35 (1879) (“[T]he
legal liabilities incurred by the United States
under . . . the laws of Congress . . . may be created
where there is no appropriation of money to meet
them . . . .”). Thus, the absence of a specific
appropriation for cost-sharing reduction payments in
the Affordable Care Act does not, on its own,
extinguish the government’s obligation to make the
payments.
Second, that Congress provided a funding
mechanism for premium tax credit payments and not
for cost-sharing reduction payments does not reflect
congressional intent to foreclose liability for the latter.
Defendant relies on the proposition that when
“Congress includes particular language in one section
of a statute but omits it in another section of the same
Act, it is generally presumed that Congress acts
intentionally and purposely in the disparate inclusion
or exclusion.” Russello v. United States, 464 U.S. 16,
23 (1983) (quoting United States v. Wong Kim Bo, 472
F.2d 720, 722 (5th Cir. 1972)); accord Digital Realty

App-122
Trust, Inc. v. Somers, 138 S. Ct. 767, 777 (2018). Here,
although Congress may have acted intentionally by
treating the two related provisions differently, 16 it is
difficult to discern what that intent might be. In
addition to the intent inferred by defendant, there are
other reasonable explanations for the disparity. One
possible explanation is that it was a simple matter to
add the premium tax credit to a preexisting
permanent appropriation in the Internal Revenue
Code for the payment of tax credits, whereas no such
permanent appropriation existed that would apply to
cost-sharing reduction payments. Another possible
explanation is that Congress understood that other
funds available to HHS could be used to make the costsharing reduction payments; indeed, the cost-sharing
reduction provision lacks any language, such as
“subject to the availability of appropriations,”
reflecting Congress’s recognition that appropriations
were unavailable, see Greenlee Cty., Ariz. v. United
States, 487 F.3d 871, 878 (Fed. Cir. 2007) (observing
that “in some instances the statute creating the right
to compensation . . . may restrict the government’s
liability . . . to the amount appropriated by Congress”
with language such as “subject to the availability of
appropriations”). A third possible explanation is that
Congress intended to defer appropriating funds for
cost-sharing reduction payments until 2014, when
Alternatively, it is possible that the disparate treatment does
not reflect any intent at all. As the United States Supreme Court
(“Supreme Court”) recognized in King, “[t]he Affordable Care Act
contains more than a few examples of inartful drafting.” 135 S.
Ct. at 2492. Thus, Congress’s failure to include any appropriating
language in the cost-sharing reduction provision may simply
have been an oversight.
16

App-123
insurers began to offer qualified health plans on the
exchanges and incur cost-sharing reduction liabilities.
Because it is unclear which of these explanations—if
any—is correct, the court declines to ascribe any
particular intent to Congress based on Congress’s
disparate treatment of the two provisions.
Third, the court is unpersuaded by defendant’s
related contention that insurers’ ability to increase
premiums for their silver-level qualified health plans
to obtain greater premium tax credit payments, and
thus offset any losses from the government’s
nonpayment
of
cost-sharing
reduction
reimbursements, is evidence that Congress did not
intend to provide a statutory damages remedy for the
government’s failure to make the cost-sharing
reduction payments. Accord Local Initiative, 142 Fed.
Cl. at 15; Mont. Health Co-op, 139 Fed. Cl. at 221.
Defendant does not identify any statutory provision
permitting the government to use premium tax credit
payments to offset its cost-sharing reduction payment
obligation (even if insurers intentionally increased
premiums to obtain larger premium tax credit
payments to make up for lost cost-sharing reduction
payments). Nor does defendant identify any evidence
in the Affordable Care Act’s legislative history
suggesting that Congress intended to limit its liability
to make cost-sharing reduction payments by
increasing its premium tax credit payments. That
insurers and states discovered a way to mitigate the
insurers’ losses from the government’s failure to make
cost-sharing reduction payments does not mean that
Congress intended this result. Moreover, defendant’s
concern that Congress could not have intended to
allow a double recovery of cost-sharing reduction

App-124
payments is not well taken. The increased amount of
premium tax credit payments that insurers receive
from increasing silver-level plan premiums are still
premium tax credit payments, not cost-sharing
reduction payments. Indeed, under the statutory
scheme as it exists, even if the government were
making the required cost-sharing reduction payments,
insurers could (to the extent permitted by their state
insurance regulators) increase their silver-level plan
premiums; in such circumstances, it could not credibly
be argued that the insurers were obtaining a double
recovery of cost-sharing reduction payments. While
the premium tax credit and cost-sharing reduction
provisions were enacted to reduce an individual’s
health-care-related costs (to obtain insurance and to
obtain health care, respectively), they are not
substitutes for each other. 17
The California district court’s decision in California v. Trump
does not assist defendant. Although the court described how
insurers are coping with the lost cost-sharing reduction
payments by raising silver-level qualified health plan premiums
to obtain larger premium tax credit payments, nowhere in its
decision does the court hold that the government’s liability for
cost-sharing reduction payments is lessened or eliminated by the
government making larger premium tax credit payments to
insurers. Indeed, the court very clearly emphasized that the
premium tax credit program and the cost-sharing reduction
program were separate and distinct. See California, 267 F. Supp.
3d at 1131. Moreover, the court’s discussion of the approach
taken by insurers to obtain increased premium tax credit
payments was included within its analysis of “whether the
absence of a preliminary injunction would harm the public and
impede the objectives of health care reform.” Id. at 1133. In other
words, the court’s focus was on how the increase in premiums
would affect the public, and not on the government’s obligation to
make payments to insurers.
17

App-125
Fourth, it would defy common sense to conclude
that Congress obligated the Secretary of HHS to
reimburse insurers for their mandatory cost-sharing
reductions without intending to actually reimburse
the insurers. If Congress did not intend to create such
an obligation, it would not have included any provision
for reimbursing cost-sharing reductions in the Act.
In sum, Congress’s failure to include any
appropriating language in the Affordable Care Act
does not reflect congressional intent to preclude
liability for cost-sharing reduction payments. This
conclusion, however, does not end the court’s analysis
because defendant also argues that Congress’s
subsequent failure to appropriate funds to make costsharing reduction payments through annual
appropriations acts or otherwise signals congressional
intent to foreclose liability.
b. The Lack of Specific Appropriating
Language in Subsequent Appropriations
Acts
The Appropriations Clause of the United States
Constitution provides that “[n]o Money shall be drawn
from the Treasury, but in Consequence of
Appropriations made by Law[.]” U.S. Const. art. I, § 9,
cl. 7. The statute commonly referred to as the
Antideficiency Act further provides that “[a]n officer
or employee of the United States Government . . . may
not . . . make or authorize an expenditure or
obligation exceeding an amount available in an
appropriation or fund for the expenditure or
obligation[.]” 31 U.S.C. § 1341(a)(1)(A). These
directives are unambiguous: disbursements from the
United States Treasury require an appropriation from

App-126
Congress. However, “the mere failure of Congress to
appropriate funds, without further words modifying or
repealing, expressly or by clear implication, the
substantive law, does not in and of itself defeat a
Government obligation created by statute.” N.Y.
Airways, Inc. v. United States, 369 F.2d 743, 748 (Ct.
Cl. 1966) (per curiam), cited in Moda Health Plan, 892
F.3d at 1321-22; cf. Moda Health Plan, 892 F.3d at
1322 (recognizing that the Supreme Court “rejected
the notion that the Anti-Deficiency Act’s requirements
somehow defeat the obligations of the government”).
Defendant does not contend that any
appropriations acts—or, indeed, any statutes at all—
enacted after the Affordable Care Act contain
language that “expressly or by clear implication”
modifies or repeals the Act’s cost-sharing reduction
payment obligation. Rather, it relies on Congress’s
complete failure to appropriate funds for cost-sharing
reduction payments as evidence that Congress
intended to suspend the cost-sharing reduction
payment obligation. Defendant’s reliance is
misplaced. None of the appropriations acts enacted
after the Affordable Care Act expressly or impliedly
disavowed the payment obligation; they were
completely silent on the issue. Thus, this case is
distinguishable from those relied upon by defendant—
Mitchell v. United States, 109 U.S. 146 (1883),
Dickerson v. United States, 310 U.S. 554 (1940), and
United States v. Will, 449 U.S. 200 (1980)—that
concerned situations in which Congress made
affirmative statements in appropriations acts that
reflected an intent to suspend the underlying
substantive law. Accord Local Initiative, 142 Fed. Cl.
at 14.

App-127
Here, Congress has had ample opportunity to
modify, suspend, or eliminate the statutory obligation
to make cost-sharing reduction payments but has not
done so. Congress’s inaction stands in stark contrast
to its treatment of the Affordable Care Act’s risk
corridors program. Under that program, which was
established in section 1342 of the Affordable Care Act,
the Secretary of HHS was required to make annual
payments to insurers pursuant to a statutory formula.
42 U.S.C. § 18062; Moda Health Plan, 892 F.3d at
1320. However, Congress included riders in two
appropriations acts enacted after the Affordable Care
Act that prohibited appropriated funds from being
used to make risk corridors payments. See
Consolidated Appropriations Act, 2016, Pub. L. No.
114-113, div. H, tit. II, § 225, 129 Stat. 2242, 2624;
Consolidated and Further Continuing Appropriations
Act, 2015, Pub. L. No. 113-235, div. G, tit. II, § 227,
128 Stat. 2130, 2491. These riders have been
interpreted to suspend the government’s obligation to
make risk corridors payments from appropriated
funds. Moda Health Plan, 892 F.3d at 1322-29.
Congress has never enacted any such appropriations
riders with respect to cost-sharing reductions
payments, even when cost-sharing reduction
payments were being made—during both the Obama
and Trump administrations—from the permanent
appropriation for tax credits described in 31 U.S.C.
§ 1324. Thus, the congressional inaction in this case
may be interpreted, contrary to defendant’s
contention, as a decision not to suspend or terminate

App-128
the government’s cost-sharing reduction payment
obligation. 18
In short, Congress’s failure to appropriate funds
to make cost-sharing reduction payments through
annual appropriations acts or otherwise does not
reflect a congressional intent to foreclose, either
temporarily or permanently, the government’s
liability to make those payments.
2.

Plaintiff Can Recover Unpaid Cost-Sharing
Reduction Reimbursements in the United
States Court of Federal Claims

Plaintiff asserts that because the government has
breached its statutory obligation to make cost-sharing
reduction payments, recovery is available in the
United States Court of Federal Claims (“Court of
Federal Claims”) under the Tucker Act. The Tucker
Act, the principal statute governing the jurisdiction of
this court, waives sovereign immunity for claims
against the United States, not sounding in tort, that
are founded upon the United States Constitution, a
federal statute or regulation, or an express or implied
contract with the United States. 28 U.S.C. § 1491(a)(1)
(2012). It is merely a jurisdictional statute and “does
not create any substantive right enforceable against
The court recognizes that drawing inferences from
congressional inaction can be highly problematic. See Pension
Benefit Guar. Corp. v. LTV Corp., 496 U.S. 633, 650 (1990)
(“Congressional inaction lacks ‘persuasive significance’ because
‘several equally tenable inferences’ may be drawn from such
inaction . . . .” (quoting United States v. Wise, 370 U.S. 405, 411
(1962)); Schneidewind v. ANR Pipeline Co., 485 U.S. 293, 306
(1988) (“This Court generally is reluctant to draw inferences from
Congress’ failure to act.”).
18

App-129
the United States for money damages.” United States
v. Testan, 424 U.S. 392, 398 (1976). Instead, the
substantive right must appear in another source of
law, such as a “money-mandating constitutional
provision, statute or regulation that has been violated,
or an express or implied contract with the United
States.” Loveladies Harbor, Inc. v. United States, 27
F.3d 1545, 1554 (Fed. Cir. 1994) (en banc). It is well
accepted that a statute “is money-mandating for
jurisdictional purposes if it ‘can fairly be interpreted
as mandating compensation for damages sustained as
a result of the breach of the duties [it] impose[s].’”
Fisher v. United States, 402 F.3d 1167, 1173 (Fed. Cir.
2005) (panel portion) (quoting United States v.
Mitchell, 463 U.S. 206, 219 (1983)). Under this rule,
“[i]t is enough . . . that a statute creating a Tucker Act
right be reasonably amenable to the reading that it
mandates a right of recovery in damages. While the
premise to a Tucker Act claim will not be ‘lightly
inferred,’ a fair inference will do.” United States v.
White Mountain Apache Tribe, 537 U.S. 465, 473
(2003) (citation omitted).
The cost-sharing reduction provision of the
Affordable Care Act, codified at 42 U.S.C. § 18071, is
a money-mandating statute for Tucker Act purposes:
the Secretary of HHS is required to reimburse
insurers for their mandatory cost-sharing reductions,
42 U.S.C. § 18071(c)(3)(A), and his failure to make
such payments is a violation of that duty that deprives
the insurers of money to which they are statutorily
entitled. Accord Local Initiative, 142 Fed. Cl. at 10;
Mont. Health Co-op, 139 Fed. Cl. at 217; see also Moda
Health Plan, 892 F.3d at 1320 n.2 (holding that the
statute providing for risk corridors payments “is

App-130
money-mandating for jurisdictional purposes”).
Consequently, an insurer that establishes that the
government failed to make the cost-sharing reduction
payments to which the insurer was entitled can
recover the amount due in this court. 19
Moreover, the lack of a specific appropriation for
cost-sharing reduction payments does not preclude
such a recovery. Appropriations merely constrain
Defendant appears to contend that for plaintiffs to recover
under a money-mandating statute, they must separately
establish that the statute authorizes a damages remedy for its
violation. Defendant is incorrect. Although some moneymandating statutes include a separate provision authorizing a
damages remedy, see, e.g., 41 U.S.C. § 7104(b) (2012) (allowing
contractors to bring claims arising under the Contract Disputes
Act of 1978 in the Court of Federal Claims), other moneymandating statutes pursuant to which the Court of Federal
Claims can enter judgment do not, see, e.g., 5 U.S.C. § 5942 (2012)
(governing federal employees’ entitlement to a remote duty
allowance); 37 U.S.C. § 204 (2012) (governing military service
members’ entitlement to basic pay). Indeed, “[t]o the extent that
the Government would demand an explicit provision for money
damages to support every claim that might be brought under the
Tucker Act, it would substitute a plain and explicit statement
standard for the less demanding requirement of fair inference
that the law was meant to provide a damages remedy for breach
of a duty.” White Mountain Apache Tribe, 537 U.S. at 477; accord
Fisher, 402 F.3d at 1173 (en banc portion) (“[T]he determination
that the source is money-mandating shall be determinative both
as to the question of the court’s jurisdiction and thereafter as to
the question of whether, on the merits, plaintiff has a moneymandating source on which to base his cause of action.”); Mont.
Health Co-op, 139 Fed. Cl. at 217 n.5 (“Plaintiffs have never been
required to make some separate showing that the moneymandating statute that establishes this court’s jurisdiction over
their monetary claims also grants them an express (or implied)
cause of action for damages.”).
19

App-131
government officials’ ability to obligate or disburse
funds. See Moda Health Plan, 892 F.3d at 1322 (“The
Anti-Deficiency Act simply constrains government
officials. . . . Budget authority is not necessary to
create an obligation of the government; it is a means
by which an officer is afforded that authority.”); Ferris
v. United States, 27 Ct. Cl. 542, 546 (1892) (“An
appropriation per se merely imposes limitations upon
the Government’s own agents; it is a definite amount
of money intrusted to them for distribution; but its
insufficiency does not pay the Government’s debts, nor
cancel its obligations, nor defeat the rights of other
parties.”). Thus, the lack of an appropriation, standing
alone, does not constrain the court’s ability to
entertain a claim that the government has not
discharged the underlying statutory obligation or to
enter judgment for the plaintiff on that claim. See
Slattery v. United States, 635 F.3d 1298, 1321 (Fed.
Cir. 2011) (en banc) (“[T]he jurisdictional foundation
of the Tucker Act is not limited by the appropriation
status of the agency’s funds or the source of funds by
which any judgment may be paid.”); N.Y. Airways, 369
F.2d at 752 (“[T]he failure of Congress or an agency to
appropriate or make available sufficient funds does
not repudiate the obligation; it merely bars the
accounting agents of the Government from disbursing
funds and forces the carrier to a recovery in the Court
of Claims.”); Collins, 15 Ct. Cl. at 35 (remarking that
a legal liability “incurred by the United States
under . . . the laws of Congress,” such as “[t]he
compensation to which public officers are legally
entitled . . . ,
exists
independently
of
the
appropriation, and may be enforced by proceedings in
this court”).

App-132
In fact, judgments of this court are payable from
the Judgment Fund, see 31 U.S.C. § 1304(a)(3)(A),
which “is a permanent, indefinite appropriation . . .
available to pay many judicially and administratively
ordered monetary awards against the United States,”
31 C.F.R. § 256.1 (2016); accord Bath Iron Works Corp.
v. United States, 20 F.3d 1567, 1583 (Fed. Cir. 1994)
(stating that 31 U.S.C. § 1304 “was intended to
establish a central, government-wide judgment fund
from which judicial tribunals administering or
ordering judgments, awards, or settlements may order
payments without being constrained by concerns of
whether adequate funds existed at the agency level to
satisfy the judgment”). Indeed, as applicable here,
“funds may be paid out [of the Judgment Fund] only
on the basis of a judgment based on a substantive
right to compensation based on the express terms of a
specific statute.” Office of Pers. Mgmt. v. Richmond,
496 U.S. 414, 432 (1990); accord Moda Health Plan,
892 F.3d at 1326 (“[A]ccess to the Judgment Fund
presupposes liability.”); cf. 31 U.S.C. § 1304(a)(1)
(indicating that the Judgment Fund is available when
“payment is not otherwise provided for”). Because
plaintiff’s claim arises from a statute mandating the
payment of money damages in the event of its
violation, the Judgment Fund is available to pay a
judgment entered by the court on that claim. 20
20 Defendant acknowledged this possibility in other litigation.
See Defs.’ Mem. Supp. Mot. Summ. J. 20, Burwell, 185 F. Supp.
3d at 165 (No. 1:14-cv-01967-RMC) (“The [Affordable Care] Act
requires the government to pay cost-sharing reductions to
issuers. The absence of an appropriation would not prevent the
insurers from seeking to enforce that statutory right through
litigation. Under the Tucker Act, a plaintiff may bring suit

App-133
3.

Plaintiff Is Entitled to Recover Unpaid
Cost-Sharing Reduction Reimbursements

Plaintiff seeks to recover the cost-sharing
reduction payments it did not receive for 2017 and
2018. As noted above, plaintiff has established that
the government is obligated to reimburse it for its costsharing reductions pursuant to 42 U.S.C.
§ 18071(c)(3)(A) and that the government stopped
against the United States in the Court of Federal Claims to
obtain monetary payments based on statutes that impose certain
types of payment obligations on the government. If the plaintiff
is successful, it can receive the amount to which it is entitled from
the permanent appropriation Congress has made in the
Judgment Fund. The mere absence of a more specific
appropriation is not necessarily a defense to recovery from that
Fund.” (citations omitted)); Defs.’ Mem. Opp’n Pl.’s Mot. Summ.
J. 12-13, Burwell, 185 F. Supp. 3d at 165 (No. 1:14-cv-01967RMC) (“Indeed, had Congress not permanently funded the costsharing reductions, it would have exposed the government to
litigation by insurers, who could bring damages actions under the
Tucker Act premised on the government’s failure to make the
mandatory cost-sharing reduction payments that the Act
requires.”); Defs.’ Reply Mem. Supp. Mot. Summ. J. 9, Burwell,
185 F. Supp. 3d at 165 (No. 1:14-cv-01967-RMC) (“[T]he House’s
interpretation of the [Affordable Care Act]—under which the Act
would require the government to make the cost-sharing
payments but provide no appropriation for doing so directly—
would invite potentially costly lawsuits under the Tucker Act.
The House asserts that insurers could not prevail in such suits
‘[a]bsent a valid appropriation.’ But courts have held that the
absence of an appropriation does not necessarily preclude
recovery from the Judgment Fund in a Tucker Act suit. The
House does not explain how, given this precedent, the
government could avoid Tucker Act litigation by insurers in the
wake of a ruling that the ACA did not permanently fund the costsharing reduction payments that the Act directs the government
to make.” (citations omitted)).

App-134
making such reimbursements in October 2017.
Accordingly, as the court determined in its February
15, 2019 Opinion and Order, plaintiff is entitled to
recover the cost-sharing reduction payments that the
government did not make for 2017.
With respect to 2018, defendant contends—as
discussed above, albeit in the course of arguing that
the structure of the Affordable Care Act reflects a
congressional intent to preclude cost-sharing
reduction payments absent an appropriation for that
purpose—that plaintiff’s ability to increase the
premiums for its silver-level qualified health plans to
obtain greater premium tax credit payments
precludes recovery under the Act’s cost-sharing
reduction provision. Specifically, defendant asserts
that the statutory scheme enacted by Congress
permits insurers to make up any lost cost-sharing
reduction payments by increasing silver-level plan
premiums, which would prevent monetary injury to
insurers. Defendant also expresses concern that
allowing insurers to both obtain greater premium tax
credits and obtain a judgment for their lost costsharing reduction payments would provide an
unwarranted windfall for insurers. As noted above,
the court is not convinced by defendant’s arguments.
Accordingly, it finds that plaintiff may recover the
cost-sharing reduction payments that the government
did not make for 2018.
B. Breach of an Implied-in-Fact Contract
In addition to alleging that the government
violated its statutory obligation to make cost-sharing
reduction payments, plaintiff contends that the
government’s failure to make such payments amounts

App-135
to a breach of an implied-in-fact contract. “An
agreement implied in fact is ‘founded upon a meeting
of minds, which, although not embodied in an express
contract, is inferred, as a fact, from conduct of the
parties showing, in the light of the surrounding
circumstances, their tacit understanding.’” Hercules,
Inc. v. United States, 516 U.S. 417, 424 (1996) (quoting
Balt. & Ohio R. Co. v. United States, 261 U.S. 592, 597
(1923)). To establish the existence of an implied-infact contract with the United States, a plaintiff must
demonstrate “(1) mutuality of intent to contract,
(2) consideration, (3) lack of ambiguity in offer and
acceptance, and (4) authority on the part of the
government agent entering the contract.” Suess v.
United States, 535 F.3d 1348, 1359 (Fed. Cir. 2008);
accord Trauma Serv. Grp. v. United States, 104 F.3d
1321, 1326 (Fed. Cir. 1997). Here, plaintiff generally
alleges that the promise of cost-sharing reduction
payments set forth in 42 U.S.C. § 18071(c)(3)(A)
induced it to offer qualified health plans on the
exchange, and that by offering such plans, it accepted
the government’s offer and entered into unilateral
contract. Alternatively, plaintiff contends that it
entered into bilateral contracts with the government,
culminating in the execution of the QHPI Agreements,
in which the parties agreed that plaintiff was required
to offer cost-sharing reductions to its eligible
insureds. 21 In response, defendant argues that
21 The difference between unilateral and bilateral contracts
was explained in the Restatement (First) of Contracts: “A
unilateral contract is one in which no promisor receives a promise
as consideration for his promise. A bilateral contract is one in
which there are mutual promises between two parties to the
contract; each party being both a promisor and a promisee.”

App-136
plaintiff has not established the existence of a valid
implied-in-fact contract with the government for three
reasons: the Affordable Care Act did not create an
implied-in-fact contract to make cost-sharing
reduction payments, HHS lacks the authority to enter
into a contract to make cost-sharing reduction
payments, and the QHPI Agreements preclude the
existence of an implied-in-fact contract to make costsharing reduction payments.
The court first addresses plaintiff’s contention
that 42 U.S.C. § 18071(c)(3)(A) is an offer to make costsharing reduction payments to insurers that offered
qualified health plans on the exchanges. The Supreme
Court has provided the following guidance:
[A]bsent some clear indication that the
legislature
intends
to
bind
itself
contractually, the presumption is that “a law
is not intended to create private contractual
or vested rights but merely declares a policy
to be pursued until the legislature shall
ordain otherwise.” This well-established
presumption is grounded in the elementary
proposition that the principal function of a
legislature is not to make contracts, but to
make laws that establish the policy of the
Restatement (First) of Contracts § 12 (Am. Law Inst. 1931).
However, that terminology was removed from the Restatement
(Second) of Contracts. See Restatement (Second) of Contracts § 1
cmt. f (Am. Law Inst. 1981) (“Section 12 of the original
Restatement defined unilateral and bilateral contracts. It has not
been carried forward because of doubt as to the utility of the
distinction, often treated as fundamental, between the two
types.”). Given the court’s resolution of plaintiff’s claim, the
distinction is not relevant in this case.

App-137
state. Policies, unlike contracts, are
inherently subject to revision and repeal, and
to construe laws as contracts when the
obligation is not clearly and unequivocally
expressed would be to limit drastically the
essential powers of a legislative body. . . .
Thus, the party asserting the creation of a
contract must overcome this well-founded
presumption, and we proceed cautiously both
in identifying a contract within the language
of a regulatory statute and in defining the
contours of any contractual obligation.
Nat’l R.R. Passenger Corp. v. Atchison, Topeka &
Santa Fe Ry. Co., 470 U.S. 451, 465-66 (1985)
(citations omitted) (quoting Dodge v. Bd. of Educ., 302
U.S. 74, 79 (1937)); accord Moda Health Plan, 892
F.3d at 1329; Brooks v. Dunlop Mfg. Inc., 706 F.3d 624,
630-31 (Fed. Cir. 2012).
To determine whether 42 U.S.C. § 18071(c)(3)(A)
“gives rise to a contractual obligation, ‘it is of first
importance to examine the language of the statute.’”
Nat’l R.R. Passenger Corp., 470 U.S. at 466 (quoting
Dodge, 302 U.S. at 78); accord Brooks, 706 F.3d at 631.
Plaintiff does not, and cannot, contend that the statute
alone contains language manifesting an intent to
contract. Rather, it asserts that the combination of the
statute, the implementing regulations, and the
government’s conduct in making cost-sharing
reduction payments until October 2017 reflects the
parties’ intent to contract. In support of its position,
plaintiff relies primarily on Radium Mines, Inc. v.
United States, 153 F. Supp. 403 (Ct. Cl. 1957). In that
case, the United States Atomic Energy Commission

App-138
issued a regulation titled “Ten Year Guaranteed
Minimum Price,” which provided:
To stimulate domestic production of uranium
and in the interest of the common defense and
security the United States Atomic Energy
Commission
hereby
establishes
the
guaranteed minimum prices specified in
paragraph (b) of this section, for the delivery
to the Commission, in accordance with the
terms of this section during the ten calendar
years following its effective date . . . , of
domestic refined uranium, high-grade
uranium-bearing ores and mechanical
concentrates, in not less than the quantity
and grade specified in paragraph (e) of this
section.
Id. at 404 (quoting 10 C.F.R. § 60.1(a) (1949)). The
court rejected the defendant’s contention that the
regulation was “a mere invitation to the industry to
make offers to the Government” and instead agreed
with the plaintiff that the regulation “was an offer,
which ripened into a contract when it was accepted by
the plaintiff’s putting itself in a position to supply the
ore or the refined uranium described in it.” Id. at 405.
The argument raised by plaintiff here is similar to
the one advanced by the plaintiff in Moda Health Plan
with respect to the risk corridors program. The risk
corridors program was one of three programs
established in the Affordable Care Act to mitigate the
risk faced by insurers “and discourage insurers from
setting higher premiums to offset that risk,” Moda
Health Plan, 892 F.3d at 1314, pursuant to which the
Secretary of HHS was required to make annual

App-139
payments to insurers in accordance with a statutory
formula, id. at 1320; 42 U.S.C. § 18062. The United
States Court of Appeals for the Federal Circuit
concluded in Moda Health Plan that “the overall
scheme of the risk corridors program lacks the
trappings of a contractual arrangement that drove the
result in Radium Mines,” explaining:
[In Radium Mines], the government made a
“guarantee,” it invited uranium dealers to
make an “offer,” and it promised to “offer a
form of contract” setting forth “terms” of
acceptance. Not so here.
The risk corridors program is an incentive
program designed to encourage the provision
of affordable health care to third parties
without a risk premium to account for the
unreliability of data relating to participation
of the exchanges—not the traditional quid pro
quo contemplated in Radium Mines. Indeed,
an insurer that included that risk premium,
but nevertheless suffered losses for a benefit
year as calculated by the statutory and
regulatory formulas would still be entitled to
seek risk corridors payments.
892 F.3d at 1330 (citations omitted). It further
observed that the dispute in Radium Mines was
distinguishable:
[T]he parties in Radium Mines, one of which
was the government, never disputed that the
government intended to form some
contractual relationship at some time
throughout the exchange. The only question
there
was
whether
the
regulations

App-140
themselves constituted an offer, or merely an
invitation to make offers. Radium Mines is
only precedent for what it decided.
Id. Accordingly, it concluded that “no statement by the
government evinced an intention to form a contract”
to make risk corridors payments, and that “[t]he
statute, its regulations, and HHS’s conduct all simply
worked towards crafting an incentive program.” Id.
The risk corridors program differs from the costsharing reduction program in one significant manner:
in the risk corridors program, insurers receive
payments as an incentive to lower their premiums,
while in the cost-sharing reduction program, insurers
are reimbursed by the government for cost-sharing
reductions that they are statutorily required to make.
In other words, the cost-sharing reduction program is
less of an incentive program and more of a quid pro
quo. Accordingly, that aspect of Moda Health Plan’s
analysis is inapplicable in this case. 22 Accord Local
Initiative, 142 Fed. Cl. at 17.
In fact, although 42 U.S.C. § 18071(c)(3)(A) and
its implementing regulation (45 C.F.R. § 156.430) do
not include language traditionally associated with
contracting,
such
as
“offer,”
“acceptance,”
“consideration,” or “contract,” the parties’ intent to
enter into a contractual relationship can be implied
from the quid pro quo nature of the cost-sharing
reduction program, plaintiff’s offering of qualified
22 Nevertheless, Moda Health Plan precludes the court from
relying on Radium Mines because, unlike in Radium Mines, the
parties in this case dispute whether the government intended to
form a contractual relationship for the reimbursement of
insurers’ cost-sharing reductions.

App-141
health plans on the exchange with the mandated costsharing
reductions,
and
the
government’s
reimbursement of plaintiff’s cost-sharing reductions
from January 2014, when the payments first became
due, until October 2017. Accord Aycock- Lindsey Corp.
v. United States, 171 F.2d 518, 521 (5th Cir. 1948)
(holding that when the head of the pertinent agency
“published bulletins and promulgated rules providing
for the payment of subsidies to those . . . who accepted
the offer by voluntarily coming under, and complying
with, the [relevant] Act, there was revealed the
traditional essentials of a contract, namely, an offer
and an acceptance, to the extent that we should
hesitate to hold that there was not at least an implied
contract to pay subsidies,” and further holding that
“[i]n view of the numerous requirements for the
[plaintiff] to put himself in position to receive the
payments, we regard the subsidies not as gratuities
but as compensatory in nature”), cited in Army & Air
Force Exch. Serv. v. Sheehan, 456 U.S. 728, 740 n.11
(1982) (identifying Aycock-Lindsey as a decision in
which a contract was “inferred from regulations
promising payment”). In other words, the government
offered to reimburse insurers for their mandated costsharing reductions, plaintiff accepted that offer by
offering the qualified health plans with reduced costsharing obligations, and consideration was exchanged
(plaintiff supplied qualified health plans that helped
the government reduce the number of uninsured
individuals, and the government made cost-sharing
reduction payments to plaintiff). 23
23 Defendant does not contend that there was a lack of
consideration.

App-142
Moreover, contrary to defendant’s contention, the
Secretary of HHS and his delegate, the Administrator
of CMS, possessed the authority to enter into a
contract with insurers to make cost-sharing reduction
payments. Implied-in-fact contracts with the United
States can only be made by “an authorized agent of the
government.” Trauma Serv. Grp., 104 F.3d at 1326;
accord Kania v. United States, 650 F.2d 264, 268 (Ct.
Cl. 1981) (“The claimant for money damages for
breach of an express or implied in fact contract must
show that the officer who supposedly made the
contract had authority to obligate appropriated
funds.”). Specifically, “the Government representative
‘whose conduct is relied upon must have actual
authority to bind the government in contract.’” City of
El Centro v. United States, 922 F.2d 816, 820 (Fed. Cir.
1990) (quoting Juda v. United States, 6 Cl. Ct. 441,
452 (1984)). Actual authority may be express or
implied. See Salles v. United States, 156 F.3d 1383,
1384 (Fed. Cir. 1998); H. Landau & Co. v. United
States, 886 F.2d 322, 324 (Fed. Cir. 1989). “Authority
to bind the [g]overnment is generally implied when
such authority is considered to be an integral part of
the duties assigned to a [g]overnment employee.” H.
Landau & Co., 886 F.2d at 324 (quoting John Cibinic,
Jr. & Ralph C. Nash, Jr., Formation of Government
Contracts 43 (1982)) (alteration in original); see also
United States v. Winstar Corp., 518 U.S. 839, 890 n.36
(1996) (“The authority of the executive to use contracts
in carrying out authorized programs is . . . generally
assumed in the absence of express statutory
prohibitions or limitations[.]” (quoting 1 Ralph C.
Nash, Jr.& John Cibinic, Jr., Federal Procurement
Law 5 (3d ed. 1977))).

App-143
There can be no doubt that making cost-sharing
reduction payments is an integral part of the duties
assigned to the Secretary of HHS because the
Secretary of HHS is required to make such payments
pursuant to 42 U.S.C. § 18071(c)(3)(A). Defendant
contends, however, that in accordance with the
Antideficiency Act, the Secretary of HHS lacks actual
authority to contract for the reimbursement for costsharing reductions. The court is not persuaded. The
Antideficiency Act provides that a government “officer
or employee . . . may not . . . involve [the] government
in a contract or obligation for the payment of money
before an appropriation is made unless authorized by
law[.]” 31 U.S.C. § 1341(a)(1)(B). The reimbursement
of cost-sharing reductions is authorized by law—42
U.S.C. § 18071(c)(3)(A). Thus, the Antideficiency Act’s
prohibition is inapplicable in this case. Accord N.Y.
Airways, 369 F.2d at 752 (“Since it has been found that
the [agency’s] action created a ‘contract or obligation
(which) is authorized by law’, obviously the statute
[prohibiting contract obligations in excess of
appropriated funds] has no application to the present
situation . . . .”); Local Initiative, 142 Fed. Cl. at 18-19.
In short, the Secretary of HHS possesses at least the
implied actual authority to contractually bind the
government to make cost-sharing reduction payments.
Defendant further contends that the QHPI
Agreements executed by plaintiff and CMS preclude
the existence of an implied-in-fact contract to make
cost-sharing reduction payments. As defendant notes,
“[t]he existence of an express contract precludes the
existence of an implied contract dealing with the same
subject, unless the implied contract is entirely
unrelated to the express contract.” Atlas Corp. v.

App-144
United States, 895 F.2d 745, 754-55 (Fed. Cir. 1990),
cited in Schism v. United States, 316 F.3d 1259, 1278
(Fed. Cir. 2002) (en banc); see also Klebe v. United
States, 263 U.S. 188, 192 (1923) (“A contract implied
in fact is one inferred from the circumstances or acts
of the parties; but an express contract speaks for itself
and leaves no place for implications.”). However, the
QHPI Agreements only address the reconciliation of
cost-sharing reduction payments, and do not create
any duties or obligations to make cost-sharing
reduction payments in the first instance. 24 The
relevant provision set forth under the “CMS
Obligations” heading—”As part of a monthly
payments and collections reconciliation process, CMS
will recoup or net payments due to [plaintiff] against
amounts owed to CMS by [plaintiff] in relation to
offering of [Qualified Health Plans] . . . including . . .
advance payments of [Cost-Sharing Reductions],”
Agreements 6—merely requires CMS, as part of a
monthly reconciliation process, to make payments to
insurers that underestimated their cost-sharing
obligations and collect payments from insurers that
overestimated their cost-sharing obligations. See Nw.
Title Agency, Inc. v. United States, 855 F.3d 1344, 1347
(Fed. Cir. 2017) (“When the contract’s language is
unambiguous it must be given its ‘plain and ordinary’
meaning . . . .” (quoting Coast Fed. Bank, FSB v.
United States, 323 F.3d 1035, 1040 (Fed. Cir. 2003) (en
banc))). Indeed, CMS could not “recoup or net
24 Defendant ultimately concedes this point in its reply brief.
See Def.’s Reply 10 (“The Government agrees with plaintiff that
the QHP[I] Agreements do not establish a contract for the
payment of [cost-sharing reductions].”).

App-145
payments” to an insurer unless the government had
already made an advance cost-sharing reduction
payment to the insurer.
Moreover, the relevant provision in the QHPI
Agreements’ recitals—”[i]t is anticipated that
periodic . . . advance payments of [Cost-Sharing
Reductions] . . . will be due between CMS and
[plaintiff],” Agreements 1— is not a promise to make
advanced cost-sharing reduction payments but is
merely an expression that such payments were
expected. See Nat’l By-Prod., Inc. v. United States, 405
F.2d 1256, 1263 (Ct. Cl. 1969) (“Before a
representation can be contractually binding, it must
be in the form of a promise or undertaking . . . and not
a mere statement of intention, opinion, or
prediction.”). In fact, it forms the factual predicate for
the provision describing CMS’s reconciliation
obligations.
Furthermore, the QHPI Agreements mostly
address the privacy and security obligations set forth
in 45 C.F.R. § 155.260. Accordingly, the QHPI
Agreements concern a subject entirely unrelated to
the purported implied-in-fact contract, and therefore
do not preclude the finding of an implied-in-fact
contract.
In sum, plaintiff has established the existence of
an implied-in-fact contract to make cost-sharing
reduction payments. Thus, the court also must
determine whether plaintiff has established that the
government has breached the implied-in-fact contract.
“To recover for breach of contract, a party must allege
and establish: (1) a valid contract between the parties,
(2) an obligation or duty arising out of the contract,

App-146
(3) a breach of that duty, and (4) damages caused by
the breach.” San Carlos Irrigation & Drainage Dist. v.
United States, 877 F.2d 957, 959 (Fed. Cir. 1989);
accord Trauma Serv. Grp., 104 F.3d at 1325 (“To
prevail, [plaintiff] must allege facts showing both the
formation of an express contract and its breach.”).
Plaintiff has established the existence of a valid
contract, a government obligation to make costsharing reduction payments, and the government’s
failure to make such payments, leaving only the issue
of damages.
“The general rule in common law breach of
contract cases is to award damages that will place the
injured party in as good a position as he or she would
have been [in] had the breaching party fully
performed.” Estate of Berg v. United States, 687 F.2d
377, 379 (Ct. Cl. 1982). Thus, the injured party “must
show that but for the breach, the damages alleged
would not have been suffered.” San Carlos Irrigation
& Drainage Dist., 111 F.3d at 1563; accord Boyajian
v. United States, 423 F.2d 1231, 1235 (Ct. Cl. 1970)
(per curiam) (“Recovery of damages for a breach of
contract is not allowed unless acceptable evidence
demonstrates that the damages claimed resulted from
and were caused by the breach.”). “One way the law
makes the non-breaching party whole is to give him
the benefits he expected to receive had the breach not
occurred.” Glendale Fed. Bank, FSB v. United States,
239 F.3d 1374, 1380 (Fed. Cir. 2001). These expected
benefits—expectancy damages—”are recoverable
provided they are actually foreseen or reasonably
foreseeable, are caused by the breach of the promisor,
and are proved with reasonable certainty.” Bluebonnet
Sav. Bank, F.S.B. v. United States, 266 F.3d 1348,

App-147
1355 (Fed. Cir. 2001); accord Fifth Third Bank v.
United States, 518 F.3d 1368, 1374-75 (Fed. Cir. 2008).
The injured party has the burden of proving
damages caused by the breach of contract. See
Northrop Grumman Computing Sys., Inc. v. United
States, 823 F.3d 1364, 1368 (Fed. Cir. 2016); accord
Bluebonnet Sav. Bank FSB v. United States, 67 Fed.
Cl. 231, 238 (2005) (explaining that a plaintiff has the
burden
to
prove
expectancy
damages
by
demonstrating what would have happened but for
defendant’s breach of contract), aff’d, 466 F.3d 1349
(Fed. Cir. 2006). The burden then shifts to the
breaching party to establish “that plaintiff’s damages
claims should be reduced or denied.” Duke Energy
Progress, Inc. v. United States, 135 Fed. Cl. 279, 287
(2017). Here, plaintiff has shown that but for the
government’s breach, it would have received the full
amount of the cost-sharing reduction payments to
which it was entitled; there is no dispute that
plaintiff’s damages were foreseen, caused by the
government’s breach, and can be determined with
reasonable certainty. Defendant has not attempted to
rebut plaintiff’s claim of breach-of-contract damages,
either through argument or evidence. 25 Accordingly,
In arguing that the government did not violate 42 U.S.C.
§ 18071(c)(3)(A), defendant asserts that insurers’ ability to
increase premiums for their silver-level qualified health plans to
obtain greater premium tax credit payments, and thus offset any
losses resulting from the nonpayment of cost-sharing reduction
reimbursements, is evidence that Congress did not intend to
provide a statutory damages remedy for the government’s failure
to make the cost-sharing reduction payments. However,
defendant did not advance a similar argument in responding to
plaintiff’s breach-of-contract claim.
25

App-148
plaintiff has established its entitlement to breach-ofcontract damages in the amount of the unpaid costsharing reduction reimbursements.
IV. CONCLUSION
For the reasons set forth above, the court
concludes that the government’s failure to make costsharing reduction payments to plaintiff violates 42
U.S.C. § 18071 and constitutes a breach of an impliedin-fact contract. Therefore, it GRANTS plaintiff’s
motion for summary judgment with respect to the
cost-sharing reduction payments it did not receive for
2018. Based on this ruling and the ruling set forth in
the court’s February 15, 2019 Opinion and Order,
plaintiff is entitled to recover damages in the amount
of $19,230,875.27, which represents $846,493.02 in
unpaid cost-sharing reduction reimbursements for
2017 and $18,384,382.25 in unpaid cost-sharing
reduction reimbursements for 2018. No costs. The
clerk shall enter judgment accordingly.
IT IS SO ORDERED.
s/ Margaret M. Sweeney
MARGARET M. SWEENEY
Chief Judge

App-149
Appendix F
RELEVANT STATUTORY PROVISIONS
26 U.S.C. § 36B. Refundable credit for coverage
under a qualified health plan
(a) In general.—In the case of an applicable
taxpayer, there shall be allowed as a credit against the
tax imposed by this subtitle for any taxable year an
amount equal to the premium assistance credit
amount of the taxpayer for the taxable year.
(b) Premium assistance credit amount.—For
purposes of this section—
(1) In general.—The term “premium assistance
credit amount” means, with respect to any taxable
year, the sum of the premium assistance amounts
determined under paragraph (2) with respect to
all coverage months of the taxpayer occurring
during the taxable year.
(2) Premium
assistance
amount.—The
premium assistance amount determined under
this subsection with respect to any coverage
month is the amount equal to the lesser of—
(A) the monthly premiums for such month
for 1 or more qualified health plans offered in
the individual market within a State which
cover the taxpayer, the taxpayer’s spouse, or
any dependent (as defined in section 152) of
the taxpayer and which were enrolled in
through an Exchange established by the

App-150
State under 1311 1 of the Patient Protection
and Affordable Care Act, or
(B) the excess (if any) of—
(i) the adjusted monthly premium for
such month for the applicable second
lowest cost silver plan with respect to the
taxpayer, over
(ii) an amount equal to 1/12 of the
product of the applicable percentage and
the taxpayer’s household income for the
taxable year.
(3) Other terms and rules relating to
premium assistance amounts.—For purposes
of paragraph (2)—
(A) Applicable percentage.—
(i) In general.—Except as provided in
clause (ii), the applicable percentage for
any taxable year shall be the percentage
such that the applicable percentage for
any taxpayer whose household income is
within an income tier specified in the
following table shall increase, on a
sliding scale in a linear manner, from the
initial premium percentage to the final
premium percentage specified in such
table for such income tier:

1

So in original. Probably should be preceded by “section”.

App-151
In the case of household
income (expressed as a
percent of poverty line)
within
the
following
income tier:

The initial
premium
percentage
is—

The final
premium
percentage
is—

Up to 133%

2.0%

2.0%

133% up to 150%

3.0%

4.0%

150% up to 200%

4.0%

6.3%

200% up to 250%

6.3%

8.05%

250% up to 300%

8.05%

9.5%

300% up to 400%

9.5%

9.5%

(ii) Indexing.—
(I) In
general.—Subject
to
subclause (II), in the case of taxable
years beginning in any calendar year
after 2014, the initial and final
applicable percentages under clause
(i) (as in effect for the preceding
calendar year after application of
this clause) shall be adjusted to
reflect the excess of the rate of
premium growth for the preceding
calendar year over the rate of income
growth for the preceding calendar
year.
(II) Additional
adjustment.—
Except as provided in subclause (III),
in the case of any calendar year after
2018, the percentages described in
subclause (I) shall, in addition to the
adjustment under subclause (I), be

App-152
adjusted to reflect the excess (if any)
of the rate of premium growth
estimated under subclause (I) for the
preceding calendar year over the
rate of growth in the consumer price
index for the preceding calendar
year.
(III) Failsafe.—Subclause (II) shall
apply for any calendar year only if
the aggregate amount of premium
tax credits under this section and
cost-sharing
reductions
under
section 1402 of the Patient
Protection and Affordable Care Act
for the preceding calendar year
exceeds an amount equal to 0.504
percent of the gross domestic product
for the preceding calendar year.
[(iii) Repealed. Pub.L. 111-152, Title I,
§ 1001(a)(1)(B), Mar. 30, 2010, 124 Stat.
1031]
(B) Applicable second lowest cost silver
plan.—The applicable second lowest cost
silver plan with respect to any applicable
taxpayer is the second lowest cost silver plan
of the individual market in the rating area in
which the taxpayer resides which—
(i) is offered through the same
Exchange through which the qualified
health plans taken into account under
paragraph (2)(A) were offered, and
(ii) provides—

App-153
(I) self-only coverage in the case of
an applicable taxpayer—
(aa) whose tax for the taxable
year
is
determined
under section 1(c) (relating to
unmarried individuals other
than surviving spouses and
heads of households) and who is
not
allowed
a
deduction
under section
151 for
the
taxable year with respect to a
dependent, or
(bb) who is not described in item
(aa) but who purchases only selfonly coverage, and
(II) family coverage in the case of
any other applicable taxpayer.
If a taxpayer files a joint return and
no credit is allowed under this
section with respect to 1 of the
spouses by reason of subsection (e),
the taxpayer shall be treated as
described in clause (ii)(I) unless a
deduction is allowed under section
151 for the taxable year with respect
to a dependent other than either
spouse and subsection (e) does not
apply to the dependent.
(C) Adjusted monthly premium.—The
adjusted monthly premium for an applicable
second lowest cost silver plan is the monthly
premium which would have been charged (for
the rating area with respect to which the

App-154
premiums under paragraph (2)(A) were
determined) for the plan if each individual
covered under a qualified health plan taken
into account under paragraph (2)(A) were
covered by such silver plan and the premium
was adjusted only for the age of each such
individual in the manner allowed under
section 2701 of the Public Health Service Act.
In the case of a State participating in the
wellness discount demonstration project
under section 2705(d) of the Public Health
Service Act, the adjusted monthly premium
shall be determined without regard to any
premium discount or rebate under such
project.
(D) Additional benefits.—If—
(i) a qualified health plan under section
1302(b)(5) of the Patient Protection and
Affordable Care Act offers benefits in
addition to the essential health benefits
required to be provided by the plan, or
(ii) a State requires a qualified health
plan under section 1311(d)(3)(B) of such
Act to cover benefits in addition to the
essential health benefits required to be
provided by the plan,
the portion of the premium for the plan
properly allocable (under rules prescribed by
the Secretary of Health and Human Services)
to such additional benefits shall not be taken
into account in determining either the
monthly premium or the adjusted monthly
premium under paragraph (2).

App-155
(E) Special rule for pediatric dental
coverage.—For purposes of determining the
amount of any monthly premium, if an
individual enrolls in both a qualified health
plan and a plan described in section
1311(d)(2)(B)(ii)(I) 2 of the Patient Protection
and Affordable Care Act for any plan year, the
portion of the premium for the plan described
in such section that (under regulations
prescribed by the Secretary) is properly
allocable to pediatric dental benefits which
are included in the essential health benefits
required to be provided by a qualified health
plan under section 1302(b)(1)(J) of such Act
shall be treated as a premium payable for a
qualified health plan.
(c) Definition and rules relating to applicable
taxpayers, coverage months, and qualified
health plan.—For purposes of this section—
(1) Applicable taxpayer.—
(A) In general.—The term “applicable
taxpayer” means, with respect to any taxable
year, a taxpayer whose household income for
the taxable year equals or exceeds 100
percent but does not exceed 400 percent of an
amount equal to the poverty line for a family
of the size involved.

2 Section 1311(d)(2)(B)(ii)(I) of the Patient Protection and
Affordable Care Act, probably means section 1311(d)(2)(B)(ii) of
Pub. L. 111-148, which is classified to 42 U.S.C.A.
§ 18031(d)(2)(B)(ii), and which does not contain subclauses.

App-156
(B) Special rule for certain individuals
lawfully present in the United States.—
If—
(i) a taxpayer has a household income
which is not greater than 100 percent of
an amount equal to the poverty line for a
family of the size involved, and
(ii) the taxpayer is an alien lawfully
present in the United States, but is not
eligible for the medicaid program under
title XIX of the Social Security Act by
reason of such alien status,
the taxpayer shall, for purposes of the credit
under this section, be treated as an applicable
taxpayer with a household income which is
equal to 100 percent of the poverty line for a
family of the size involved.
(C) Married couples must file joint
return.—If the taxpayer is married (within
the meaning of section 7703) at the close of
the taxable year, the taxpayer shall be
treated as an applicable taxpayer only if the
taxpayer and the taxpayer’s spouse file a joint
return for the taxable year.
(D) Denial of credit to dependents.—No
credit shall be allowed under this section to
any individual with respect to whom a
deduction under section 151 is allowable to
another taxpayer for a taxable year beginning
in the calendar year in which such
individual’s taxable year begins.

App-157
(2) Coverage month.—For purposes of this
subsection—
(A) In general.—The term “coverage
month” means, with respect to an applicable
taxpayer, any month if—
(i) as of the first day of such month the
taxpayer, the taxpayer’s spouse, or any
dependent of the taxpayer is covered by a
qualified health plan described in
subsection (b)(2)(A) that was enrolled in
through an Exchange established by the
State under section 1311 of the Patient
Protection and Affordable Care Act, and
(ii) the premium for coverage under
such plan for such month is paid by the
taxpayer (or through advance payment of
the credit under subsection (a) under
section 1412 of the Patient Protection
and Affordable Care Act).
(B) Exception for minimum essential
coverage.—
(i) In general.—The term “coverage
month” shall not include any month with
respect to an individual if for such month
the individual is eligible for minimum
essential coverage other than eligibility
for coverage described in section
5000A(f)(1)(C) (relating to coverage in
the individual market).
(ii) Minimum essential coverage.—
The term “minimum essential coverage”

App-158
has the meaning given such term by
section 5000A(f).
(C) Special rule for employer-sponsored
minimum
essential
coverage.—For
purposes of subparagraph (B)—
(i) Coverage must be affordable.—
Except as provided in clause (iii), an
employee shall not be treated as eligible
for minimum essential coverage if such
coverage—
(I) consists of an eligible employersponsored plan (as defined in section
5000A(f)(2)), and
(II) the
employee’s
required
contribution (within the meaning of
section 5000A(e)(1)(B)) with respect
to the plan exceeds 9.5 percent of the
applicable taxpayer’s household
income.
This clause shall also apply to an
individual who is eligible to enroll in the
plan by reason of a relationship the
individual bears to the employee.
(ii) Coverage
must
provide
minimum value.—Except as provided
in clause (iii), an employee shall not be
treated as eligible for minimum essential
coverage if such coverage consists of an
eligible employer-sponsored plan (as
defined in section 5000A(f)(2)) and the
plan’s share of the total allowed costs of

App-159
benefits provided under the plan is less
than 60 percent of such costs.
(iii) Employee or family must not be
covered under employer plan.—
Clauses (i) and (ii) shall not apply if the
employee (or any individual described in
the last sentence of clause (i)) is covered
under the eligible employer-sponsored
plan or the grandfathered health plan.
(iv) Indexing.—In the case of plan years
beginning in any calendar year after
2014, the Secretary shall adjust the 9.5
percent under clause (i)(II) in the same
manner as the percentages are adjusted
under subsection (b)(3)(A)(ii).
[(D) Repealed. Pub.L. 112-10, Div. B, Title
VIII, § 1858(b)(1), Apr. 15, 2011, 125 Stat.
168]
(3) Definitions and other rules.—
(A) Qualified health plan.—The term
“qualified health plan” has the meaning given
such term by section 1301(a) of the Patient
Protection and Affordable Care Act, except
that such term shall not include a qualified
health plan which is a catastrophic plan
described in section 1302(e) of such Act.
(B) Grandfathered health plan.—The
term “grandfathered health plan” has the
meaning given such term by section 1251 of
the Patient Protection and Affordable Care
Act.

App-160
(4) Special rules for
employer
health
arrangements.—

qualified small
reimbursement

(A) In general.—The term “coverage
month” shall not include any month with
respect to an employee (or any spouse or
dependent of such employee) if for such
month the employee is provided a qualified
small employer health reimbursement
arrangement which constitutes affordable
coverage.
(B) Denial of double benefit.—In the case
of any employee who is provided a qualified
small employer health reimbursement
arrangement for any coverage month
(determined without regard to subparagraph
(A)), the credit otherwise allowable under
subsection (a) to the taxpayer for such month
shall be reduced (but not below zero) by the
amount described in subparagraph (C)(i)(II)
for such month.
(C) Affordable coverage.—For purposes of
subparagraph (A), a qualified small employer
health reimbursement arrangement shall be
treated as constituting affordable coverage
for a month if—
(i) the excess of—
(I) the amount that would be paid
by the employee as the premium for
such month for self-only coverage
under the second lowest cost silver
plan offered in the relevant

App-161
individual health insurance market,
over
(II) 1/12 of the employee’s permitted
benefit (as defined in section
9831(d)(3)(C))
under
such
arrangement, does not exceed—
(ii) 1/12 of 9.5 percent of the employee’s
household income.
(D) Qualified small employer health
reimbursement
arrangement.—For
purposes of this paragraph, the term
“qualified
small
employer
health
reimbursement arrangement” has the
meaning given such term by section
9831(d)(2).
(E) Coverage for less than entire year.—
In the case of an employee who is provided a
qualified
small
employer
health
reimbursement arrangement for less than an
entire year, subparagraph (C)(i)(II) shall be
applied by substituting “the number of
months during the year for which such
arrangement was provided” for “12”.
(F) Indexing.—In the case of plan years
beginning in any calendar year after 2014,
the Secretary shall adjust the 9.5 percent
amount under subparagraph (C)(ii) in the
same manner as the percentages are adjusted
under subsection (b)(3)(A)(ii).
(d) Terms relating to income and families.—For
purposes of this section—

App-162
(1) Family size.—The family size involved with
respect to any taxpayer shall be equal to the
number of individuals for whom the taxpayer is
allowed a deduction under section 151 (relating to
allowance of deduction for personal exemptions)
for the taxable year.
(2) Household income.—
(A) Household
income.—The
term
“household income” means, with respect to
any taxpayer, an amount equal to the sum
of—
(i) the modified adjusted gross income
of the taxpayer, plus
(ii) the aggregate modified adjusted
gross incomes of all other individuals
who—
(I) were taken into account in
determining the taxpayer’s family
size under paragraph (1), and
(II) were required to file a return of
tax imposed by section 1 for the
taxable year.
(B) Modified adjusted gross income.—
The term “modified adjusted gross income”
means adjusted gross income increased by—
(i) any amount excluded from gross
income under section 911,
(ii) any amount of interest received or
accrued by the taxpayer during the
taxable year which is exempt from tax,
and

App-163
(iii) an amount equal to the portion of
the taxpayer’s social security benefits (as
defined in section 86(d)) which is not
included in gross income under section
86 for the taxable year.
(3) Poverty line.—
(A) In general.—The term “poverty line”
has the meaning given that term in section
2110(c)(5) of the Social Security Act (42
U.S.C. 1397jj(c)(5)).
(B) Poverty line used.—In the case of any
qualified health plan offered through an
Exchange for coverage during a taxable year
beginning in a calendar year, the poverty line
used shall be the most recently published
poverty line as of the 1st day of the regular
enrollment period for coverage during such
calendar year.
(e) Rules for individuals not lawfully present.—
(1) In general.—If 1 or more individuals for
whom a taxpayer is allowed a deduction under
section 151 (relating to allowance of deduction for
personal exemptions) for the taxable year
(including the taxpayer or his spouse) are
individuals who are not lawfully present—
(A) the aggregate amount of premiums
otherwise taken into account under clauses (i)
and (ii) of subsection (b)(2)(A) shall be
reduced by the portion (if any) of such
premiums which is attributable to such
individuals, and

App-164
(B) for purposes of applying this section, the
determination as to what percentage a
taxpayer’s household income bears to the
poverty level for a family of the size involved
shall be made under one of the following
methods:
(i) A method under which—
(I) the taxpayer’s family size is
determined by not taking such
individuals into account, and
(II) the taxpayer’s household income
is equal to the product of the
taxpayer’s
household
income
(determined without regard to this
subsection) and a fraction—
(aa) the numerator of which is
the poverty line for the
taxpayer’s
family
size
determined after application of
subclause (I), and
(bb) the denominator of which
is the poverty line for the
taxpayer’s
family
size
determined without regard to
subclause (I).
(ii) A comparable method reaching the
same result as the method under clause
(i).
(2) Lawfully present.—For purposes of this
section, an individual shall be treated as lawfully
present only if the individual is, and is reasonably
expected to be for the entire period of enrollment

App-165
for which the credit under this section is being
claimed, a citizen or national of the United States
or an alien lawfully present in the United States.
(3) Secretarial authority.—The Secretary of
Health and Human Services, in consultation with
the Secretary, shall prescribe rules setting forth
the methods by which calculations of family size
and household income are made for purposes of
this subsection. Such rules shall be designed to
ensure that the least burden is placed on
individuals enrolling in qualified health plans
through an Exchange and taxpayers eligible for
the credit allowable under this section.
(f) Reconciliation
credit.—

of

credit

and

advance

(1) In general.—The amount of the credit
allowed under this section for any taxable year
shall be reduced (but not below zero) by the
amount of any advance payment of such credit
under section 1412 of the Patient Protection and
Affordable Care Act.
(2) Excess advance payments.—
(A) In general.—If the advance payments to
a taxpayer under section 1412 of the Patient
Protection and Affordable Care Act for a
taxable year exceed the credit allowed by this
section (determined without regard to
paragraph (1)), the tax imposed by this
chapter for the taxable year shall be
increased by the amount of such excess.

App-166
(B) Limitation on increase.—
(i) In general.—In the case of a
taxpayer whose household income is less
than 400 percent of the poverty line for
the size of the family involved for the
taxable year, the amount of the increase
under subparagraph (A) shall in no event
exceed the applicable dollar amount
determined in accordance with the
following table (one-half of such amount
in the case of a taxpayer whose tax is
determined under section 1(c) for the
taxable year):
If
the
household
income The applicable
(expressed as a percent of dollar amount is:
poverty line is:
Less than 200 ................................................... $600
At least 200% but less than 300 ................... $1,500
At least 300% but less than 400 ................... $2,500
(ii) Indexing of amount.—In the case of
any calendar year beginning after 2014,
each of the dollar amounts in the table
contained under clause (i) shall be
increased by an amount equal to—
(I) such dollar amount, multiplied
by
(II) the cost-of-living adjustment
determined under section 1(f)(3) for
the calendar year, determined by
substituting “calendar year 2013” for

App-167
“calendar
year
2016”
subparagraph (A)(ii) thereof.

in

If the amount of any increase under
clause (i) is not a multiple of $50, such
increase shall be rounded to the next
lowest multiple of $50.
(3) Information
requirement.—Each
Exchange (or any person carrying out 1 or more
responsibilities of an Exchange under section
1311(f)(3) or 1321(c) of the Patient Protection and
Affordable Care Act) shall provide the following
information to the Secretary and to the taxpayer
with respect to any health plan provided through
the Exchange:
(A) The level of coverage described in section
1302(d) of the Patient Protection and
Affordable Care Act and the period such
coverage was in effect.
(B) The total premium for the coverage
without regard to the credit under this
section or cost-sharing reductions under
section 1402 of such Act.
(C) The aggregate amount of any advance
payment of such credit or reductions under
section 1412 of such Act.
(D) The name, address, and TIN of the
primary insured and the name and TIN of
each other individual obtaining coverage
under the policy.
(E) Any information
Exchange, including

provided to the
any change of

App-168
circumstances, necessary to determine
eligibility for, and the amount of, such credit.
(F) Information necessary to determine
whether a taxpayer has received excess
advance payments.
(g) Regulations.—The Secretary shall prescribe
such regulations as may be necessary to carry out the
provisions of this section, including regulations which
provide for—
(1) the coordination of the credit allowed under
this section with the program for advance
payment of the credit under section 1412 of the
Patient Protection and Affordable Care Act, and
(2) the application of subsection (f) where the
filing status of the taxpayer for a taxable year is
different from such status used for determining
the advance payment of the credit.
42 U.S.C. § 18071. Reduced cost-sharing for
individuals enrolling in qualified health plan
(a) In general
In the case of an eligible insured enrolled in a qualified
health plan—
(1) the Secretary shall notify the issuer of the
plan of such eligibility; and
(2) the issuer shall reduce the cost-sharing under
the plan at the level and in the manner specified
in subsection (c).
(b) Eligible insured
In this section, the term “eligible insured” means an
individual—

App-169
(1) who enrolls in a qualified health plan in the
silver level of coverage in the individual market
offered through an Exchange; and
(2) whose household income exceeds 100 percent
but does not exceed 400 percent of the poverty line
for a family of the size involved.
In the case of an individual described in section
36B(c)(1)(B) of Title 26, the individual shall be treated
as having household income equal to 100 percent for
purposes of applying this section.
(c) Determination of reduction in cost-sharing
(1) Reduction in out-of-pocket limit
(A) In general
The reduction in cost-sharing under this
subsection shall first be achieved by reducing
the applicable out-of pocket 1 limit under
section 18022(c)(1) of this title in the case of—
(i) an eligible insured whose household
income is more than 100 percent but not
more than 200 percent of the poverty line
for a family of the size involved, by twothirds;
(ii) an eligible insured whose household
income is more than 200 percent but not
more than 300 percent of the poverty line
for a family of the size involved, by onehalf; and
(iii) an eligible insured whose household
income is more than 300 percent but not
1

So in original. Probably should be “out-of-pocket”

App-170
more than 400 percent of the poverty line
for a family of the size involved, by onethird.
(B) Coordination with actuarial value
limits
(i) In general
The Secretary shall ensure the reduction
under this paragraph shall not result in
an increase in the plan’s share of the total
allowed costs of benefits provided under
the plan above—
(I) 94 percent in the case of an
eligible
insured
described
in
paragraph (2)(A);
(II) 87 percent in the case of an
eligible
insured
described
in
paragraph (2)(B);
(III) 73 percent in the case of an
eligible insured whose household
income is more than 200 percent but
not more than 250 percent of the
poverty line for a family of the size
involved; and
(IV) 70 percent in the case of an
eligible insured whose household
income is more than 250 percent but
not more than 400 percent of the
poverty line for a family of the size
involved.

App-171
(ii) Adjustment
The Secretary shall adjust the out-of
pocket limits under paragraph (1) if
necessary to ensure that such limits do
not cause the respective actuarial values
to exceed the levels specified in clause (i).
(2) Additional reduction for lower income
insureds
The Secretary shall establish procedures under
which the issuer of a qualified health plan to
which this section applies shall further reduce
cost-sharing under the plan in a manner sufficient
to—
(A) in the case of an eligible insured whose
household income is not less than 100 percent
but not more than 150 percent of the poverty
line for a family of the size involved, increase
the plan’s share of the total allowed costs of
benefits provided under the plan to 94
percent of such costs;
(B) in the case of an eligible insured whose
household income is more than 150 percent
but not more than 200 percent of the poverty
line for a family of the size involved, increase
the plan’s share of the total allowed costs of
benefits provided under the plan to 87
percent of such costs; and
(C) in the case of an eligible insured whose
household income is more than 200 percent
but not more than 250 percent of the poverty
line for a family of the size involved, increase
the plan’s share of the total allowed costs of

App-172
benefits provided under the plan to 73
percent of such costs.
(3) Methods for reducing cost-sharing
(A) In general
An issuer of a qualified health plan making
reductions under this subsection shall notify
the Secretary of such reductions and the
Secretary shall make periodic and timely
payments to the issuer equal to the value of
the reductions.
(B) Capitated payments
The Secretary may establish a capitated
payment system to carry out the payment of
cost-sharing reductions under this section.
Any such system shall take into account the
value of the reductions and make appropriate
risk adjustments to such payments.
(4) Additional benefits
If a qualified health plan under section
18022(b)(5) of this title offers benefits in addition
to the essential health benefits required to be
provided by the plan, or a State requires a
qualified health plan under section 18031(d)(3)(B)
of this title to cover benefits in addition to the
essential health benefits required to be provided
by the plan, the reductions in cost-sharing under
this section shall not apply to such additional
benefits.
(5) Special rule for pediatric dental plans
If an individual enrolls in both a qualified health
plan and a plan described in section

App-173
18031(d)(2)(B)(ii)(I) 2 of this title for any plan year,
subsection (a) shall not apply to that portion of
any reduction in cost-sharing under subsection (c)
that (under regulations prescribed by the
Secretary) is properly allocable to pediatric dental
benefits which are included in the essential health
benefits required to be provided by a qualified
health plan under section 18022(b)(1)(J) of this
title.
(d) Special rules for Indians
(1) Indians under 300 percent of poverty
If an individual enrolled in any qualified health
plan in the individual market through an
Exchange is an Indian (as defined in section
5304(d) of Title 25) whose household income is not
more than 300 percent of the poverty line for a
family of the size involved, then, for purposes of
this section—
(A) such individual shall be treated as an
eligible insured; and
(B) the issuer of the plan shall eliminate any
cost-sharing under the plan.
(2) Items or services furnished through
Indian health providers
If an Indian (as so defined) enrolled in a qualified
health plan is furnished an item or service
directly by the Indian Health Service, an Indian
Tribe, Tribal Organization, or Urban Indian
Organization or through referral under contract
health services-2

So in original. Probably should be “18031(d)(3)(B)(ii)(I)”.

App-174
(A) no cost-sharing under the plan shall be
imposed under the plan for such item or
service; and
(B) the issuer of the plan shall not reduce the
payment to any such entity for such item or
service by the amount of any cost-sharing
that would be due from the Indian but for
subparagraph (A).
(3) Payment
The Secretary shall pay to the issuer of a qualified
health plan the amount necessary to reflect the
increase in actuarial value of the plan required by
reason of this subsection.
(e) Rules for individuals not lawfully present
(1) In general
If an individual who is an eligible insured is not
lawfully present—
(A) no cost-sharing reduction under this
section shall apply with respect to the
individual; and
(B) for purposes of applying this section, the
determination as to what percentage a
taxpayer’s household income bears to the
poverty level for a family of the size involved
shall be made under one of the following
methods:
(i) A method under which—
(I) the taxpayer’s family size is
determined by not taking such
individuals into account, and

App-175
(II) the taxpayer’s household income
is equal to the product of the
taxpayer’s
household
income
(determined without regard to this
subsection) and a fraction—
(aa) the numerator of which is
the poverty line for the
taxpayer’s
family
size
determined after application of
subclause (I), and
(bb) the denominator of which is
the poverty line for the
taxpayer’s
family
size
determined without regard to
subclause (I).
(ii) A comparable method reaching the
same result as the method under clause
(i).
(2) Lawfully present
For purposes of this section, an individual shall be
treated as lawfully present only if the individual
is, and is reasonably expected to be for the entire
period of enrollment for which the cost-sharing
reduction under this section is being claimed, a
citizen or national of the United States or an alien
lawfully present in the United States.
(3) Secretarial authority
The Secretary, in consultation with the Secretary
of the Treasury, shall prescribe rules setting forth
the methods by which calculations of family size
and household income are made for purposes of
this subsection. Such rules shall be designed to

App-176
ensure that the least burden is placed on
individuals enrolling in qualified health plans
through an Exchange and taxpayers eligible for
the credit allowable under this section.
(f) Definitions and special rules
In this section:
(1) In general
Any term used in this section which is also used
in section 36B of Title 26 shall have the meaning
given such term by such section.
(2) Limitations on reduction
No cost-sharing reduction shall be allowed under
this section with respect to coverage for any
month unless the month is a coverage month with
respect to which a credit is allowed to the insured
(or an applicable taxpayer on behalf of the
insured) under section 36B of such title.
(3) Data used for eligibility
Any determination under this section shall be
made on the basis of the taxable year for which
the advance determination is made under section
18082 of this title and not the taxable year for
which the credit under section 36B of Title 26 is
allowed.

